<html>
<title> - H.R. 2567, THE ANTIFREEZE BITTERING ACT OF 2005 HEARING BEFORE THE SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION MAY 23, 2006 Serial No. 109-89 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 28-658 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         H.R. 2567, THE ANTIFREEZE 
                           BITTERING ACT OF 2005


                                  HEARING

                                 BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT AND 
                            HAZARDOUS MATERIALS

                                    OF THE 

                           COMMITTEE ON ENERGY AND 
                                   COMMERCE
                          HOUSE OF REPRESENTATIVES


                         ONE HUNDRED NINTH CONGRESS

                                SECOND SESSION


                                 MAY 23, 2006

                              Serial No. 109-89

         Printed for the use of the Committee on Energy and Commerce


Available via the World Wide Web:  http://www.access.gpo.gov/congress/house



                    U.S. GOVERNMENT PRINTING OFFICE
28-658                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area 
(202) 512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE
                       JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan      
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas            
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      BUD ALBRIGHT, Staff Director
                     DAVID CAVICKE, General Counsel
        REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


               SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS
                      PAUL GILLMOR, Ohio, Chairman
RALPH M. HALL, Texas            HILDA L. SOLIS, California
NATHAN DEAL, Georgia              Ranking Member
HEATHER WILSON, New Mexico      FRANK PALLONE, JR., New Jersey
JOHN B. SHADEGG, Arizona        BART STUPAK, Michigan
VITO FOSSELLA, New York         ALBERT R. WYNN, Maryland
CHARLES F. BASS, New Hampshire  LOIS CAPPS, California
JOSEPH R. PITTS, Pennsylvania   MIKE DOYLE, Pennsylvania
MARY BONO, California           TOM ALLEN, Maine
LEE TERRY, Nebraska             JAN SCHAKOWSKY, Illinois
MIKE ROGERS, Michigan           JAY INSLEE, Washington
C.L. "BUTCH" OTTER, Idaho       GENE GREEN, Texas
SUE MYRICK, North Carolina      CHARLES A. GONZALEZ, Texas
JOHN SULLIVAN, Oklahoma         TAMMY BALDWIN, Wisconsin
TIM MURPHY, Pennsylvania        JOHN D. DINGELL, Michigan
JOE BARTON, Texas                 (EX OFFICIO)
  (EX OFFICIO)

                                 CONTENTS


                                                                      Page
Testimony of:

     Ackerman, Hon. Gary L., Member, U.S. House of Representatives	23
     Willis, Jim, Division Director, Chemical Control Division, Office 
         of Pollution Prevention and Toxic Substances, U.S. 
         Environmental Protection Agency	                        27
     Bye, Jeffrey, Vice President, Prestone, Honeywell International, 
         Inc., on behalf of Consumer Specialty Products Association	75
     Simms, Patrice L., Senior Project Attorney, Natural Resources 
         Defense Council	                                        81
     Eyrich, Dr. Melinda, Co-owner, Urgent Care Veterinarian Hospital	84
     Bonacquisti, Tom, Director of Water Quality and Production, 
         Fairfax County Water Authority, on behalf of America Water 
         Works Association	                                        87
     Amundson, Sarah, Deputy and Legislative Director, Doris Day 
         Animal League	                                                92
Additional material submitted for the record:

     Eyrich, Dr. Melinda, Co-owner, Urgent Care Veterinarian Hospital, 
          response for the record	                               115
     Amundson, Sarah, Deputy and Legislative Director, Doris Day 
          Animal League, response for the record	               117
     Simms, Patrice L., Senior Project Attorney, Natural Resources 
          Defense Council, response for the record	               125
     Bye, Jeffrey, Vice President, Prestone, Honeywell International, 
          Inc., on behalf of Consumer Specialty Products Association, 
          response for the record	                               127
     Bonacquisti, Tom, Director of Water Quality and Production, 
          Fairfax County Water Authority, on behalf of America Water 
          Works Association, response for the record	               140
     Willis, Jim, Division Director, Chemical Control Division, 
          Office of Pollution Prevention and Toxic Substances, U.S.
          Environmental Protection Agency, response for the record     146

                          H.R. 2567, THE ANTIFREEZE 
                            BITTERING ACT OF 2005


                            TUESDAY, MAY 23, 2006

                           HOUSE OF REPRESENTATIVES,
                       COMMITTEE ON ENERGY AND COMMERCE,
             SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS,
                                                           Washington, DC.


	The subcommittee met, pursuant to notice, at 1:30 p.m., in Room 
2322 of the Rayburn House Office Building, Hon. Paul Gillmor 
(chairman) presiding.
	Members present:  Representatives Wilson, Bass, Sullivan, Barton 
(ex officio), Solis, Stupak, Capps, Doyle, Schakowsky, Inslee, Baldwin, 
and Gillmor.
	Staff present:  David McCarthy, Chief Counsel for Energy and 
Environment; Tom Hassenboehler, Counsel; Jerry Couri, Policy 
Coordinator; Billy Harvard, Legislative Clerk; Dick Frandsen, Minority 
Senior Counsel; Lorie Schmidt, Minority Counsel; and Alec Gerlach, 
Minority Research Assistant.
	MR. GILLMOR.  The committee will come to order and before the 
Chair recognizes himself, I ask unanimous consent that all Members 
have five legislative days to submit opening statements for the record, 
and hearing no objection, that is so ordered.
The Chair recognizes himself for the purpose of delivering an 
opening statement.  Normally, the hearings we have in this committee 
deal with issues that directly effect human health and the environment.  
Today's subject matter is geared more toward the questions involved in 
safeguarding animal health and the environment, and whether it is 
appropriate for the Federal government to create a national standard to 
help ease the impacts to interstate commerce by doing so.
	News reports of pets being poisoned by drinking antifreeze have 
horrified many people and according to the Agency for Toxic Substances 
and Disease Registry, one of the main constituents of antifreeze, ethylene 
glycol, can significantly damage the kidneys, heart, and nervous system 
of humans, potentially resulting in fatalities, if not immediately treated.  
Concerns that pets or small children could be at such a risk to 
accidentally drinking spilled antifreeze have spurred three States into 
enacting legislation that requires a bittering agent be added to antifreeze 
to discourage both human and pet ingestion.
	In fact, 10 more States are considering requiring bittering agents.  
The nexus between interstate distribution of antifreeze products and 
multiple differing antifreeze recipe requirements in each State gives rise 
to the question of whether Congress should act.  The bill that our 
subcommittee will consider today requires engine coolant, or antifreeze, 
that contains more than 10 percent ethylene glycol to include a bittering 
agent known as denatonium benzoate at a minimum, at a level that would 
make the coolant or antifreeze unpalatable to pets or small children.
	In addition, and of interest to our subcommittee, the bill provides 
environmental liability protection for anyone who was not directly 
responsible for producing the bittering agent and was not grossly 
negligent concerning any environmental damage that may have been 
caused by its release.  Some people argue that it is unfair to hold them 
liable for complying to law by adding a bittering agent that they did not 
make.  And while I am inclined to be sympathetic to the antifreeze 
makers in this case, I also note that there is nothing in the bill that would 
deflect any liability for the other constituents of antifreeze that may be 
released into the environment and may of themselves cause 
contamination.
	So I look forward to hearing the testimony from our witnesses today, 
and I want to thank them for their time and effort in being with us.  
	[The prepared statement of Hon. Paul Gillmor follows:]

PREPARED STATEMENT OF THE HON. PAUL GILLMOR, CHAIRMAN, SUBCOMMITTEE ON 
ENVIRONMENT AND HAZARDOUS MATERIALS

	The Subcommittee will come to order.  Before the Chair recognizes 
himself, the Chair would like to ask Unanimous Consent that all members have 
5 legislative days to submit opening statements for the record.  Hearing no 
objection, it is so ordered.  
	In addition, the Chair would like to remind members that under the 
Standard Practices of the Committee, opening statements for the Chairman and 
Ranking Member will be five (5) minutes each and other members of the 
committee who is seated and recognized will be given three (3) minutes.  Any 
member you wishes to waive their right to delivering an opening statement 
will be granted another three (3) minutes during their allotted time to ask 
questions.  
	The Chair now recognizes himself for 5 minutes for the purposes of 
delivering an opening statement.
	Normally, the hearings we have in this committee deal with issues 
that directly affect human health and the environment, today's subject matter 
is geared more towards the questions involved in safeguarding animal health 
and the environment and whether it is appropriate for the Federal government 
to create a national standard to help ease the impacts to interstate commerce 
by doing so.
	News reports of pets being poisoned by drinking antifreeze have 
horrified many people. According to the Agency for Toxic Substances and 
Disease Registry (ATSDR), one of the main constituents of antifreeze, 
ethylene glycol, can significantly damage the kidneys, heart and, nervous 
systems of humans; potentially resulting, if not immediately treated, in 
fatalities.  
	Concern that either pets or small children could be at such a risk 
to accidentally drinking spilled antifreeze  has spurred three states into 
enacting legislation requiring that a bittering agent be added to antifreeze 
to discourage any human or pet ingestion.  In fact, 10 states are considering 
requiring bittering agents in the antifreeze marketed and sold in their 
states.  The nexus between interstate distribution of antifreeze products 
and multiple, differing antifreeze recipe requirements in each state begs the 
questions of whether Congress should act.
 	The bill that our committee will consider today requires engine 
coolant or antifreeze that contains more than 10 percent ethylene glycol, to 
include a bittering agent -- known as denatonium benzoate, at a minimum at a 
level that would make the coolant or antifreeze unpalatable to pets or small 
children.  This requirement is closest to New Mexico's state law, but is 
similar to others.  
	In addition, and of most interest to our subcommittee, the bill 
provides environmental liability protection for anyone who was not directly 
responsible for producing the bittering agent.  Some people argue that it is 
unfair to expose antifreeze makers to liability for complying.   
	Although I have not made up my mind fully about this bill, I am 
inclined to be sympathetic to the antifreeze makers in this case.  I note 
that nothing in the bill would deflect any liability for other constituents 
of antifreeze that may be released into the environment and, of themselves, 
cause contamination.  In addition, with the current liability scheme in most 
environmental laws, I would be surprised if an environmental regulatory or 
enforcement agent could not get a regulated release remediated and paid for 
with the full panoply of authorities now available to Federal and state 
officials.  I am open, though, to being convinced otherwise.
	I look forward to hearing the testimony from our witnesses today and 
thank them for their time and effort to be with us. I now yield back the 
balance of my time and recognize the Gentlelady from California and the 
Ranking Member of the Subcommittee, Mrs. Solis. For 5 minutes for the 
purposes of delivering an opening statement.

	MR. GILLMOR.  And I yield back the balance of my time and I 
recognize the Ranking Member of the subcommittee, Mrs. Solis.
	MS. SOLIS.  The yanking member?
	MR. GILLMOR.  The yanking member.
	MS. SOLIS.  Thank you.
	MR. GILLMOR.  Not in California, right?
	MS. SOLIS.  No.  Thank you, Mr. Chairman, and good afternoon to 
you all and thank you, Congressman Ackerman, for being here, as well.  
I would like to thank all the witnesses that are going to be joining us and 
providing testimony.  But before I address the legislation, I would like to 
comment on a trend which concerns me regarding our subcommittee and 
our committee; specifically, legislation considered in this subcommittee 
over the last six months has consistently preempted the rights of our 
States, particularly when large corporate interests find more protective 
State laws inconvenient.  The same legislation has often shielded actors 
from liabilities for environmental contamination, much of which risks 
public health and transfers the burden of cleanup onto our communities.
	For example, on November 16, 2005, this subcommittee held a 
hearing on concentrated animal feeding operations and superfund laws.  
Legislation addressing this issue exempts large corporations like Tyson 
Food from the superfund law.  On March 2, 2006, the subcommittee held 
a hearing on H.R. 4591, legislation to implement the Stockholm 
Convention.  Just last week the legislation included State preemption 
passed this subcommittee on a party line vote.  And today we are 
discussing H.R. 2567, the Antifreeze Bittering Act of 2005 which both 
preempts State law and provides liability shield to manufacturers of 
antifreeze, such as Honeywell, from public health and environmental 
damages.
	I have been a staunch supporter of strong laws to protect our health 
and the wellbeing of our public and animals, and I regularly support 
efforts to achieve goals such as promoting animal welfare and believe the 
intent behind the bill is good; that is why I find the legislative text even 
more troublesome and I am concerned that the solution provided in the 
legislation does not appropriately or adequately address the problem.  
First, I question the ability of DB, that is the denatonium benzoate, to 
protect animals.  While I understand the California Integrated Waste 
Management Board concluded that dogs have exhibited some symptoms 
indicating a dislike for DB upon its ingestion, the Animal Poison Control 
Center has reached other conclusions.
	Back on March 30 of 2004, the Animal Poison Control Center 
concluded that, and I quote, "We are not aware of any well-controlled, 
published scientific research demonstrating that dogs can be consistently 
protected from poisoning through the addition of taste adversive agents 
such as DB."  The Animal Poison Control Center went on to express 
concern that pet owners will have a false sense of security if products 
containing taste adversive substances were marketed as being safer.  I 
share their concern.  The Consumer Product Safety Commission also 
questions the effectiveness of the bittering agent and wrote that there is 
no evidence that DB or any other possible adversive agent is actually 
effective at limiting the ingestion of consumer products.
	I believe we need to study the effectiveness of DB, the bittering 
agent which is mandated by the bill.  As the Consumer Product Safety 
Commission wrote, "The use of adversives should not be considered for 
regulation until the effectiveness of these substances are actually limiting 
ingestion is demonstrated."  Second, and I am concerned by conflicting 
reports about the impact that this will also have on our environment.  
While the California Integrated Waste Management Board has stated that 
DB readily degrades, several other studies indicate that it is not 
biodegradable.  The Environmental Defense includes DB on its list of 
suspected neuro-toxicants and the Congressional Research Service 
concluded that data on toxicity and exposure are too sparse to provide 
sound, scientific basis for assessing the environmental risk of DB.
	Finally, the EPA included in its written testimony that it has not 
conducted a full risk assessment nor is there an available extensive 
database of toxicity or environmental information on this product.  Yet, 
even without this information, the bill includes a liability shield to 
protect the manufacturers of antifreeze from cleanup costs, leaving again 
our communities to hold the cost or the bag.  Ultimately, I refuse to 
believe that the only viable solution to the problem is one that preempts 
our States, broadly undermines our environmental and public health 
protections, establishes a false sense of security for pet owners, and 
transfers a burden of possible cleanup onto our communities and water 
providers.  It is only prudent to have a thorough understanding of the 
effectiveness of the product we will be mandating before requiring its 
inclusion.
	I encourage my colleagues to look for solutions beyond the 
legislation and I am willing to work with you on that.  I would also 
request unanimous consent to submit for the record a letter by Governor 
Bill Richardson of New Mexico wherein on May 22nd  he states his 
opposition to this bill.  I yield back the balance of my time.
	[The prepared statement of Hon. Hilda Solis follows:]

PREPARED STATEMENT OF THE HON. HILDA L. SOLIS, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF CALIFORNIA

	Good afternoon.
	I would like to thank our witnesses for joining us today and 
recognize our colleague, the Honorable Gary Ackerman, who will be joining us.
	Before I address this legislation, I would like to comment on a trend 
which concerns me.
	Specifically, legislation considered in this Subcommittee over the 
last six months has consistently preempted the rights of our states, 
particularly when large corporate interests find more protective State laws 
inconvenient.
	The same legislation has often shielded actors from liability for 
environmental contamination, much of which risks public health and transfers 
the burden of cleanup onto our communities.
	For example, on November 16, 2005, this Subcommittee held a hearing 
on concentrated animal feeding operations and Superfund laws.
	The legislation addressing this issue exempts large corporations 
like Tysons Food from the Superfund law.
	On March 2, 2006, this Subcommittee held a hearing on H.R. 4591, 
legislation to implement the Stockholm Convention. 
	Just last week this legislation -- including state preemption -- 
passed this Subcommittee on a party line vote.
	And today, we discussing H.R. 2567, the Antifreeze Bittering Act of 
2005, which both preempts states laws AND provides a liability shield to 
manufacturers of antifreeze -- such as Honeywell -- from public health and 
environmental damages.
	I have long been a staunch supporter of strong laws to protect the 
health and well-being of people and animals.
	I regularly support efforts to achieve goals such as promoting animal 
welfare and believe the intent behind this bill is good.
	That is why I find the legislative text even more troublesome.
	I am concerned that the solution provided in this legislation does 
not appropriately or adequately address the problem.
	First, I question the ability of denatonium benzoate [DB] to protect 
animals.
	While I understand the California Integrate Waste Management Board 
concluded that dogs have exhibited some symptoms indicating dislike of DB 
upon its ingestion, the Animal Poison Control Center has reached other 
conclusions.
	On March 30, 2004, the Animal Poison Control Center concluded that 
"we are not aware of any well-controlled published scientific research 
demonstrating that dogs can be consistently protected from poisoning through 
the addition of taste aversive agents including DB."
	The Animal Poison Control Center went on to express concern that 
"pet owners will have a false sense of security if products containing 
taste aversive substances were marketed as 'safer'."
	I share their concern.
	The Consumer Product Safety Commission also questions the 
effectiveness of this bittering agent and wrote that "there is no evidence 
that denatonium benzoate or any other possible aversive agent is actually 
effective at limiting ingestions of consumer products."
	I believe we need a study the effectiveness of denatonium benzoate, 
the bittering agent which is mandated by this bill. 
	As the Consumer Product Safety Commission wrote "the use of aversives 
should not be considered for regulation until the effectiveness of these 
substances to limit ingestion is demonstrated."
	Second, I am concerned by conflicting reports about the impact of DB 
on the environment.
	While the California Integrate Waste Management Board has stated that 
DB readily degrades, several other studies indicate that it does not 
biodegrade like ethylene glycol. 
	Environmental Defense includes DB on its list of suspected 
neurotoxicants and the Congressional Research Service concluded that data 
on toxicity and exposure are too sparse to provide a sound scientific basis 
for assessing the environment risk of DB.
	Finally, the EPA included in its written testimony that it has "not 
conducted a full risk assessment, nor is there available an extensive 
database of toxicity or environmental fate information on DB."
	Yet, even without this information, H.R. 2567 includes a liability 
shield to protect the manufacturers of antifreeze from cleanup costs -- 
leaving our communities holding the bag. 
	Ultimately, I refuse to believe that the only viable solution to this 
problem is one that preempts our states, broadly undermines our environmental 
and public health protections, establishes a false sense of security for pet 
owners, and transfers burden of possible cleanup to our communities and water 
providers.
	It is only prudent to have a thorough understanding of the 
effectiveness of the product we would be mandating before requiring its 
inclusion broadly.
	I encourage my colleagues to look for solutions beyond this 
legislation and am willing to work with them to achieve that.
	Thank you again for being here.
	I yield back the balance of my time.

	MR. GILLMOR.  Is there objection to including the letter from 
Governor Richardson?  The gentlelady from New Mexico.
	MRS. WILSON.  Mr. Chairman, reserving the right to object, I would 
also like to include the Governor's letter of April 17th supporting this bill 
in the record.
	MR. GILLMOR.  Did he support it before or after he opposed it?
	MRS. WILSON.  I think he opposed it after he supported it.
	MR. GILLMOR.  Oh.
	MRS. WILSON.  With the consent of the gentlewoman from 
California, why don't we just put both letters into the record and let the 
public decide what the Governor of New Mexico supports?
	MS. SOLIS.  That would be fine.
	MR. GILLMOR.  Without objection, hearing none, both letters from 
the Governor from New Mexico will be included in the record.
	[The information follows:]
 
<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. GILLMOR.  Are there further opening statements?  The 
gentlelady, Mrs. Wilson.  Well, let me first go to--I didn't notice that our 
Chairman of the full committee had come in.  We will go to Mr. Barton 
first.
	CHAIRMAN BARTON.  I am happy to defer to the sponsor of the bill, I 
think.  Well, thank you, Mr. Chairman, for holding this hearing.  Thank 
you, Mr. Ackerman, for being here.  I am interested to see what you are 
going to do with the props in front of you; which of those you are going 
to drink and which you are not going to drink.  
	We are here to discuss H.R. 2567, the Antifreeze Bittering Act of 
2005.  This bill would amend the Federal Hazardous Substance Control 
Act to require engine coolant and antifreeze to contain a bittering agent 
to protect from the accidental poisoning of children and animals.  I 
understand that the Consumer Product Safety Commission believes that 
adversive agents can help prevent accidental poisoning in the home.  I 
am also told that denatonium benzoate, or DB, the agent that is the 
subject of this legislation, has been present in many household products 
for years.  Several States, including New Mexico, California, and Oregon 
require it or something like it to be in antifreeze and engine coolants.
	As we think about whether the Federal government should create a 
national standard to ease the impact on interstate commerce and to mirror 
the success that States have had in preventing poisoning, I am interested 
in learning more about how these State programs really work to protect 
children and animals.  I hope our witnesses today can also shed some 
light on the concerns of the others over the inclusion of limited liability 
protection for the manufacturers and distributors of engine coolant and 
antifreeze, who would be subject to this mandate.  I want to thank the 
subcommittee Chairman for holding this hearing and look forward to it.  
Hopefully, we can get a consensus that would enable us to have a 
markup and move the bill.
	[The prepared statement of Hon. Joe Barton follows:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, COMMITTEE ON ENERGY 
AND COMMERCE

	Thank you Mr. Chairman for holding this hearing on HR 2567, the 
Antifreeze Bittering Act of 2005, a bill that amends the Federal Hazardous 
Substances Control Act to require engine coolant and antifreeze to contain a 
bittering agent to protect from the accidental poisoning of children and 
animals. 
	I understand that the Consumer Product Safety Commission believes 
that "aversive" agents can help prevent accidental poisoning in the home. 
I am also told that denatonium benzoate, or DB, the agent that is the subject 
of this legislation, has been present in many household products for years.  
Several states, including New Mexico, California, and Oregon, require it, or 
something like it, to be in antifreeze and engine coolants.
	However, as we think about whether the Federal government should 
create a national standard to ease the impact on interstate commerce and to 
mirror the success states have had in preventing poisoning, I am interested 
in learning more about how these state programs really work to protect 
children and animals.  I hope the witnesses today can also shed some light 
on the concerns of others over the inclusion of limited liability protection 
for the manufacturers and distributors of engine coolant and antifreeze who 
would be subject to this mandate. I thank all the witnesses before the 
Subcommittee today and return the balance of my time. 

	MR. GILLMOR.  The gentleman from Michigan, Mr. Stupak; he is not 
here.  The gentlelady from California, Mrs. Capps.
	MS. CAPPS.  Thank you, Mr. Chairman.  I appreciate this 
subcommittee's effort to protect children and animals from the dangers 
of ingesting antifreeze, a goal, I believe, we all support wholeheartedly 
and I appreciate the honorable colleague of ours, Gary Ackerman, for 
being here as our first panelist.  I commend him and the bill supporters 
for trying to find a solution to a tragic problem.
	I now have three principal concerns with H.R. 2567 as it is currently 
written.  These have been stated in part already, so I will be brief, but I 
believe first we need to learn more about the possible impact of 
denatonium benzoate or DB on human health and the environment before 
its widespread use is mandated.  The scientific evidence on the effects of 
DB is limited and what is known suggests that more study is warranted.  
For example, some studies have shown DB persists in the environment 
and can spread throughout the water and the Congressional Research 
Service has reported, and I quote, "Few studies have been conducted to 
assess the effectiveness of denatonium benzoate in discouraging tasting, 
swallowing or otherwise repelling wildlife, pets or children."  And the 
Consumer Product Safety Commission has concluded, and I quote, 
"There is no evidence that DB or any other possible adversive agent is 
actually effective at limiting ingestion of consumer products."
	Second, the bill provides, and this is the difficult one for my State, 
which has its own provisions, this bill provides a provision that preempts 
States from regulating antifreeze bitterants unless they are identical to 
H.R. 2657.  I don't think we should make it harder for States to protect 
the health and safety of their residents.  And finally, the bill waives all 
forms of liability for companies making or handling DB, even if the use 
of this chemical causes environmental damage, personal injury or even 
death.  This waiver would apply even if children or animals are injured 
or killed by DB, jeopardizing the very people or pets the bill purports to 
protect.
	We shouldn't limit liability for any product that could cause health 
or environmental harm, eliminate manufacturers' incentives to create safer 
products, or shift cleanup costs away from responsible parties.  Mr. 
Chairman, the implications of the use of DB and the future effects of a 
liability waiver must be the subject of many more hearings, in my 
opinion, before this bill moves further.  That doesn't mean it is not a 
worthwhile goal, and I do look forward to working with you, to working 
with Gary Ackerman, to working with the sponsors of the bill to make, 
as well as the many supporters, to pass as strong a bill as we can that 
makes antifreeze a safer product.  I yield back.
	MR. GILLMOR.  The gentlelady from New Mexico.
	MRS. WILSON.  Thank you, Mr. Chairman, and thank you for 
holding this hearing.  I particularly wanted to thank Gary Ackerman from 
New York for your leadership on this issue, along with Mr. Rohrabacher 
from California.  You have been real supporters and advocates for 
changing some of the rules to take what is a very hazardous substance 
and make it less attractive to both children and to animals.  I also wanted 
to thank and to introduce Dr. Melinda Eyrich, who is here from 
Albuquerque.  She is a veterinarian and has been a veterinarian for 15 
years in practice in New Mexico and 7 years as an emergency 
veterinarian and we thank you for being here, Dr. Eyrich.
	This is a bipartisan bill and over the last 2 Congresses, 19 Democrats 
have, at one time or another, sponsored this piece of legislation for a very 
good reason.  In the last year alone, 74 poisonings have happened in the 
State of New Mexico of children from drinking antifreeze and thousands 
of animals have been injured or killed from drinking antifreeze.  The 
State of New Mexico passed a law in March of 2005; it was enacted in 
July of 2005 and this legislation is identical to the law that was passed in 
New Mexico.  So what is this bitterest substance known to man that this 
legislation will require be put into antifreeze?  It is a substance called 
DB.  I am not even going to try to correctly pronounce its chemical 
name.
	But it was approved by the FDA in 1963.  We have 40 years of 
experience with this particular compound being added to consumer 
products to make them bitter, mostly so that children won't eat them; nail 
polish, hair spray, crayons, bubble bath, shampoo, eye shadow, ink, hand 
sanitizer, windshield wash, laundry detergent, fabric softener, perfume 
all have DB in it so that children won't eat it because it is too bitter.  That 
is what we are asking this legislation to add to antifreeze.
	The United Kingdom, Japan, Australia, and France all have similar 
laws and it would cost three cents on the gallon.  There is an unusually 
broad group of supporters of this legislation; the Humane Society, the 
antifreeze manufacturers, the American Academy of Pediatrics, the 
American Veterinary Medical Association, and others, and for very good 
reason.  This is a product that is very attractive to children and to animals 
and we need to require that enhanced safety be put in place.
	I would all also note, with respect to safety, it took 17 years to be 
able to scientifically prove that putting safety caps on medicines and 
household chemicals helped keep children safe.  We don't need to wait 
17 years to see if this will work for antifreeze.  We need to take safety 
precautions so that children are less likely to drink antifreeze and animals 
aren't, either.  Thank you, Mr. Chairman.
	[The prepared statement of Hon. Heather Wilson follows:]

PREPARED STATEMENT OF THE HON. HEATHER WILSON, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF NEW MEXICO

	Mr. Chairman, I would like to thank you for holding this hearing 
today on the Antifreeze Bitterant Act, H.R. 2567.  I would also like to 
introduce one of the witnesses today on the third panel, Dr. Melinda Eyrich.  
Dr. Eyrich is from Albuquerque, New Mexico, and has been a veterinarian for 
15 years.  I would like to welcome Dr. Eyrich and I look forward to her 
testimony and the testimony of all the witnesses.
	Antifreeze poisoning is a real danger.  Because antifreeze tastes 
and smells sweet, it is ingested by children and pets.  Last year 74 people 
in New Mexico were poisoned by antifreeze, and many more animals were 
poisoned, with several animal deaths.  Losing a pet is not an easy thing.  
Just ask anyone who has lost their pet.  Lisa Hecker of New Mexico lost her 
dog when someone put dog food swimming in antifreeze out in the arroyo next 
to the road where they live in September 2004.  Nine dogs and 2 cats were 
killed by antifreeze poisoning in her neighborhood within a two week period. 
But we can do something to stop these poisonings, whether they are 
intentional or accidental.  
	The City of Albuquerque passed a law in 2004 to include the bittering 
agent denatonium benzoate in antifreeze, and the State of New Mexico followed 
suit in 2005.  Denatonium benzoate is also a required additive to make 
antifreeze bitter in the UK, Japan, Australia, and France.  The United States 
should follow suit.   
	Making antifreeze bitter only costs about 3 cents per gallon.  This 
seems like a small price to pay to keep our children and our pets safe.  
Frankly, I don't see how anyone could oppose this legislation.    

	MR. GILLMOR.  The gentleman from Michigan.
	MR. STUPAK.  Thank you, Mr. Chairman.  I will be in and out of this 
hearing, so I am going to pass on my opening statement.
	MR. GILLMOR.  Mr. Doyle.
	MR. DOYLE.  Thank you, Mr. Chairman.  I want to thank you for 
holding this hearing so that this committee can fully investigate the effect 
that H.R. 2567 will have on our families, our environment and the 
antifreeze industry itself.  At a time when far too many bills skip all or 
part of this committee's legislative process, Mr. Chairman, I want to 
applaud you for allowing us to fully vet this bill through normal order.  I 
am a cosponsor of this bill, and I am a long-time supporter of efforts to 
protect our pets from harm, be it from physical abuse or accidental 
means, such as which result from their consumption of antifreeze.  
Consequently, I fully support adding a bittering agent to antifreeze and 
think it is long overdue.  However, I have some concerns with the 
mandate that one specific bittering agent must be used in order to make 
antifreeze less appealing to our pets and small children.
	I believe we can achieve our goal of making antifreeze distasteful to 
our pets without potentially creating a new threat to the environment.  As 
many of our witnesses will testify today, we simply do not know what 
effects Bitrex may have if released into our environment through a spill.  
Since its been described as the most bitter substance we could possibly 
add to antifreeze, the danger of a spill and a contamination of any local 
drinking water is a real concern and something that needs further 
examination.  Because we don't know what dangers this bittering agent 
may or may not pose to our environment and our health, I support the 
liability protection waivers of this legislation because I find it a bit 
irresponsible that this committee and this Congress would mandate that a 
company must include it in their product without giving that company 
some protections against being sued if the bittering agent does, in fact, 
end up causing widespread damage.
	Don't get me wrong.  I generally do not support blanket liability 
waivers for any industry and believe strongly that if you are the one who 
pollutes, you are the one who should pay for the cleanup.  However, in 
this particular circumstance, industry is being ordered to include a 
specific substance in their product when neither I nor you nor any of the 
experts in this room can tell for certain that the substance is safe.  That 
would sort of be like ordering a shower maker to add an electrical unit to 
its product in the name of making it more energy efficient without any 
testing whether the electrical unit posed any risk of electrocution.
	Simply put, Mr. Chairman, until we know for certain what risk 
Bitrex poses, I must support the waiver of liability provisions contained 
in this legislation.  In conclusion, I fully support the intention of this 
legislation.  I hope that we can work together to answer the questions that 
Bitrex poses.  I know that we can find a way to make antifreeze less 
appealing to children and pets while simultaneously protecting our 
environment and I look forward to working with you to achieve this goal.  
Mr. Chairman, I yield back the balance of my time.
	MR. GILLMOR.  The gentleman yields back.  The gentlelady from 
Illinois.
	MS. SCHAKOWSKY.  Thank you, Chairman Gillmor and Ranking 
Member Solis, for holding today's hearing on antifreeze products.  I am 
concerned that what was a bill that would protect both children and pets 
from consuming deadly antifreeze is now a bill that will shield the 
chemical industry from willful misconduct and preempt strong State 
laws.  I want to say from the outset that I have been a strong supporter of 
this legislation.  I was a cosponsor in the last Congress of the Antifreeze 
Bittering Act along with 132 others.  I wouldn't cede ground to anyone 
in my support for animals and the Humane Society and the Doris Day 
Animal League and the veterinarian that we will hear from.  I am sure I 
am going to agree with you on everything, but we need to, in my view, 
collect more evidence to analyze the environmental impact and adverse 
effects of DB before legislating on this issue.
	The problem before the subcommittee is clear.  Ethylene glycol, in 
which the antifreeze most commonly used in the United States, is 
registered by the EPA as a toxic substance and is ingested by thousands 
of children and pets each year.  That is indisputable.  The solution, 
however, is somewhat less clear.  Ethylene glycol isn't the only type of 
antifreeze on the market in the United States.  We should consider 
whether promoting a safer version of antifreeze based on propylene 
glycol is a viable option.  And while a number of studies indicate that 
DB has a bittering effect that deters both pets and humans from 
consuming it, its environmental impact remains unclear.  We may 
discover alternative bittering agents that would both have a taste 
adversive effect and have no demonstrable impact on the environment.
	The problem with this bill, first it expands the liability waiver to 
include environmental damage, even though some research suggests that 
DB is not biodegradable and could contaminate drinking water, 
eliminates the willful misconduct exception that was included in the 
previous versions of the legislation, mandates the use of DB as the 
bittering agent.  It preempts stronger State laws like those in California 
and Oregon, which would allow the use of adversive agents other than 
DB, allowing science not speculation to dictate the best option.
	I know that the chemical industry has reversed its position on this 
issue since it was considered in 2004.  At that time, the Consumer 
Specialty Products Association argued "There is no credible scientific 
evidence showing that the inclusion of bitterants in antifreeze has 
resulted in a reduction in incidents of accidental poison."  The CPSA 
submitted a number of studies to the Library of Congress to document 
the inconclusiveness of that science.  But now that the liability waiver 
has been broadened to include environmental damage and eliminated the 
exception for willful misconduct, the industry is here today testifying in 
support of the legislation.
	My view is that before passing a bill that wipes out some consumer 
and environmental protections and preempts State laws, that we have to 
ensure that we are acting based on conclusive science in support of a 
solution that will protect our children, our pets, and the environment.  
Thank you, Mr. Chairman.
	MR. GILLMOR.  The gentlelady from Wisconsin.
	MS. BALDWIN.  Thank you, Mr. Chairman.  Today's hearing is an 
important one.  I share the concerns raised by my colleagues about the 
dangers of ingesting engine coolant and antifreeze products.  Last 
Congress I was pleased to cosponsor the antifreeze bittering legislation.  
Last session's bill provided a balanced approach to protect our children, 
animals, and our environment.  It would have held liable those parties 
responsible for environmental damage or those liable for willful 
misconduct.  And it would also have allowed States to protect the safety 
of their citizens by establishing their own standards for the use of 
antifreeze.  But this Congress, the bill is different.
	Mr. Chairman, I thought long and hard about this measure and my 
co-sponsorship of it and despite supporting last session's bill and 
certainly the intent behind the bill before us this session, I concluded that 
the language in this version would simply cause more harm than good.  
Specifically, I am concerned about the strict requirement that denatonium 
benzoate be used as the bittering agent, despite the lack of sufficient 
evidence providing that DB is safe for the environment.  In studies 
sponsored by antifreeze manufacturers, evidence shows that DB does not 
biodegrade, resulting in its being passed through to our water treatment 
plants.  Further, studies show that DB can accumulate in the groundwater 
resulting in the contamination of area wells.
	In all, the science is just not behind DB, at least it is not behind 
DB to the extent that we should mandate its use, exempt manufacturers from 
liability, and cross our fingers and hope that our environment will not 
suffer.  Valid concerns about the State preemption provision were also 
brought to my attention.  States should have the ability to determine the 
appropriate means for protecting their citizens, just as our longstanding 
environmental laws explicitly allow them to do.
	Finally, I am troubled that antifreeze manufacturers get a free pass 
from any damages their products cause to the environment.  It seems like 
just yesterday when we refused to exempt MTBE manufacturers from 
liability during the Energy Policy Act debate, that we should apply the 
same logic here today.  Antifreeze manufacturers, producers and 
distributors should be held liable for spills or other damages caused by 
their ordinary use, negligence or willful misconduct.  Broad legal 
immunity fails to protect our citizens and our environment.
	Mr. Chairman, in all there are better ways for us to make antifreeze 
into a safer product for children and animals.  No one wants to see them 
harmed from ingested antifreeze.  But we are setting a bad precedent by 
closing the courthouse doors, preventing States from taking action, and 
mandating the use of the product when we are not quite sure about all the 
risks.  I look forward to hearing about how we can find a more balanced 
approach to protecting the safety of our children and animals while also 
protecting our environment and the rights of the citizens and our States.  
Thank you, Mr. Chairman.
	MR. GILLMOR.  Are there further opening statements?  If not, we will 
turn the chair to Mr. Ackerman.
[Additional statements submitted for the record follows:]

PREPARED STATEMENT OF THE HON. CHARLES F. BASS, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF MICHIGAN

	Thank you Chairman Gillmor for holding this hearing today about the 
proposed legislation to federally mandate the addition of an aversive agent 
in antifreeze.  Sadly, every year children and animals become ill from the 
unintentional -and sometimes intentional poisoning - from drinking this 
commonly available toxic substance. Especially coming from the Northeast, it 
is not uncommon for households to have a gallon of antifreeze stored in their 
garage.  Over the years, the industry has taken significant steps in 
preventing unintentional poisoning by including foil seals and safety 
caps on their products to prevent children and animals from getting a hold of 
this highly toxic product. Unfortunately, human error and just the simple 
nature of the substance being in the environment, there are still a 
significant number of cases of children and animals becoming extremely ill 
and in some extreme circumstances dying from kidney failure each year.
	Several states have passed legislation to require the inclusion of 
bittering agents to antifreeze. Bittering agents has been found to be 
successful in preventing the consumption of toxic but sweet tasting chemicals. 
Currently, there are several additional states considering implementing 
similar legislation.  However, due to our increasing mobile society which 
carries this substance daily across state lines and that the distribution of 
antifreeze is an interstate commerce issue, it is clear that Congress needs 
to consider federal regulations on the inclusion of bittering agent-
denatonium benzoate (DP) - in antifreeze.  It is impractical to have a 
patchwork of 50 different regulations on antifreeze.  Additionally, it is 
important to note that DP has been used for years in other products as a 
bittering agent.  The U.S. Bureau of Alcohol, Tobacco, and Firearms requires 
that industrial alcohol products contain a bittering agent and is 
specifically used in deodorants, shampoos, soaps, room deodorizers, and 
disinfectants.  
	In testimony submitted by Mr. Tom Bonazquisti, the Director of Water 
Quality and Production, the water treatment industry expresses concerns over 
the use of DB in anti-freeze and its possible environmental and health impact 
it would have if the substance escapes into the environment and possibly into 
our water systems.  However, I hope Mr. Bonzaquisti will take a moment to 
comment on what type of impact DB has had since it is found in many common 
household products since 1963 and is regularly released into our water sewer 
systems. If DB does cause a potential environmental hazard, I think then 
the issue should be addressed by this Committee is whether we continual use 
bittering agent in household products.
	Currently, H.R. 2567, the Antifreeze Bittering Act is pending before 
this Committee.  This legislation is a bipartisan effort that has been part 
of ongoing discussions between chemical industry and environmental groups.  
The Senate has recently marked up the companion bill and added language 
regarding a study to ensure that DB or alternative bittering agents have no 
adverse affect on the environment. Due to its long use in common household 
products and its use in three states, there should be significant amount of 
data that can be looked at to make a determination. I hope that the witnesses 
will discuss their take of the changes made in the Senate.
	The addition of a bittering agent to antifreeze will assist in 
preventing the unnecessary death of wildlife and family pets.  This 
legislation appears to be a commonsense strategy toward this goal and has 
developed out of discussions between the various stakeholders.  I look 
forward to the testimony from our witnesses and thank them for coming before 
the Subcommittee. 

PREPARED STATEMENT OF THE HON. JOHN D. DINGELL, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF MICHIGAN

	Mr. Chairman, today the Subcommittee is holding a hearing on H.R. 
2567, the Antifreeze Bittering Act of 2005, a bill that amends the Federal 
Hazardous Substances Act to require that a bittering agent, denatonium 
benzoate, be added to antifreeze sold commercially.  The hearing today 
provides the opportunity to begin the process of answering some very 
necessary questions about this legislation.  Let me highlight a few 
of them:

        <bullet> Why have the manufacturers of denatonium benzoate declined 
to provide scientific data on the environmental fate and environmental 
toxicology of denatonium benzoate?
        <bullet> Do we have full toxicological, exposure, and risk 
evaluations on the bitterant denatonium benzoate or other bittering agents 
before us and available for Congress and the public to review?
        <bullet> Should the Congress be mandating a market for a product, 
denatonium benzoate, that is manufactured almost exclusively in other 
countries?
        <bullet> What scientific evidence shows that the inclusion of 
bitterants in automotive products has resulted in a reduction in incidents 
of accidental poisoning?
        <bullet> Has the Environmental Protection Agency (EPA) reviewed 
the numerous scientific studies about denatonium benzoate?  Has the EPA 
rendered a conclusion as to whether it is safe if released in the 
environment?
        <bullet> Should Congress provide broad legal immunity for the use 
of denatonium benzoate, including a liability exemption from the Superfund 
statute?
        <bullet> Should we consider other options, such as the use of 
propylene glycol, as an alternative to ethylene glycol?
        <bullet> Should we reverse 30 years of precedent in our pollution 
statutes by preempting State laws that may adopt more effective aversive 
agents or allow the use of aversive agents that are less harmful to the 
environment, or by preempting laws that maintain liability for 
environmentally harmful releases?

	Mr. Chairman, while the goal of this legislation is worthy, we need 
answers to these questions before we proceed, and I look forward to the 
testimony of our witnesses.

PREPARED STATEMENT OF THE HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF NEW JERSEY

	Mr. Chairman, thank you for holding this hearing. 
	As a strong supporter of animal rights, I recognize the need to 
protect our children, pets, and wild animals from the accidental ingestion 
of ethylene glycol, the main ingredient in automobile antifreeze. 
	Still, I have serious concerns about whether H.R. 2567 as written 
will actually prevent unnecessary ingestion. I also have concerns about 
changes in this bill from its original form in the 108th Congress, when it 
was introduced as H.R. 1563 and had widespread support from members 
including myself.
	First is the requirement in the new bill to mandate the use of 
denatonium benzoate, or DB, as the bittering agent -- and not allow the use 
of other agents.  Scientific evidence at this point is inconclusive as to 
whether DB will prevent or inhibit ingestion and on whether the widespread 
use of DB is environmentally safe. 
	Furthermore, mandating the specific levels of DB to be used appears 
to me to be micromanagement of the worse kind. The result would likely be 
that we effectively prevent the development and use of other, possibly 
safer, antifreeze solutions or bittering agents. 
	I am also concerned that the bill selects a bittering agent made 
by only four manufacturers, none of which are in the United States. 
	These manufacturers have not released full data on the composition 
of their DB products despite being requested to do so. While this may be 
their right, our obligation as policymakers is to ensure that DB is safe 
and effective before mandating its use in the United States.
	EPA will testify today that there is just not enough information 
to make a decision on the safety of releasing DB into the environment. We 
need additional time to gain the information necessary to understand what 
we are potentially going to release into our environment and could harm 
the same people and pets that we are seeking to protect.
	I also cannot support legislation that would require the use of 
an agent of unknown composition and then release the companies who use it 
from any liability. Dating back to the debate over MTBE and other substances, 
there is a disturbing trend in Congress towards giving companies a free pass 
from pollution. Ultimately, the American people end up paying the bill when 
a liability waiver covers a chemical that turns out to have serious 
environmental impacts.
	Finally, I am concerned about the state preemption language in this 
bill. I strongly support the ability of individual states to go beyond 
federal regulations. New Jersey frequently leads the nation in progressive 
environmental protections, and I cannot support any effort to infringe on 
their right to do so.  The bill before us explicitly prohibits states from 
implementing more stringent protections or substituting safer and more 
effective bittering agents. I fail to see how such a restriction is a 
benefit to the people and pets we are seeking to protect.
	I am interested in hearing from the witnesses on these matters, and 
I hope that we are able to fashion some sort of solution to all of the 
concerns surrounding this legislation.
	Thank you, Mr. Chairman.

STATEMENT OF HON. GARY L. ACKERMAN, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
NEW YORK

	MR. ACKERMAN.  Thank you very much, Chairman Gillmor and 
Ranking Member Solis.  I listened to everybody's opening statement.  
Everybody is right.  Welcome to the happy hour.  Let me tell you a 
couple of things before we talk about accidental poisonings.  Orlando, 
Florida; Lake Mary woman faces a charge of attempted murder after 
authorities accused her of giving her husband a glass of antifreeze.  
Marietta, Georgia; Lynn Turner convicted of poisoning her husband with 
antifreeze, sentenced to life in prison.  She is also scheduled to go on 
trial for the antifreeze poisoning, subsequently, of her firefighter 
boyfriend.  Cambridge, Massachusetts; Kevin Keown, a talk show host, 
arrested and accused of murdering his wife by spiking her Gatorade with 
antifreeze.  Belton, Missouri; Michelle Hollis, arrested and charged with 
first degree murder, allegedly killing her husband by poisoning him with 
antifreeze.  Albridge, New Jersey; Maryann Neabor, charged with killing her 
brother-in-law, spiking his fruit drink with antifreeze.  Kansas City, 
Kansas; Ralph Trout and Donna Ozuna Trout charged with attempted 
murder for trying to kill the mayor and the mayor's family by sending 
them cupcakes and root beer laced with antifreeze.  Omaha, Nebraska; 
Maureen Clamback sentenced to up to 26 years in prison for spiking a 
bottle of strawberry margarita mix with antifreeze, trying to kill her 
sister-in-law.  
	All this is what we have discovered during the past two years and I 
am sure there is a lot more that we will never know of.  And why is this 
becoming the weapon of choice for murder?  It is because it tastes so 
sweet.  Children taste it, they want more; pets taste it, they lap it up.  
This is what the antifreeze looks like.  It looks very much like all of 
these soft drinks and if you want, I will taste each and every one of them.  
They are soft drinks and they taste sweet.  I am not going to taste this one.
	This is that substance that we are all having such great difficulty 
pronouncing.  This is DB and it is, we are told, the bitterest agent known 
on earth, worse than sucking a thousand lemons.  And two drops of this, 
costing maybe two pennies for the cost plus the manufacture plus the 
mixing it in, two drops of this in the antifreeze per gallon, there you go, 
will now make the antifreeze bitter, very bitter.  You may not think its 
bitter; I am not going to taste it.  But if you would allow me to just move 
these things out of the way and do what some people would call New 
York's three card Monty thing, and ask you which one you would prefer 
to drink, I don't think anybody would play Russian Roulette with these 
stakes.
	And although maybe one is a little darker than the other, I assure 
you, if we spilled them on your table or in your garage or in your 
driveway, they would all look exactly the same.  With one exception; 
that if you tasted any one of them, nothing would happen to you.  With 
one exception; if you tasted the one with DB, you would not taste 
anymore, not because of it being unhealthy, the unhealthy part is from 
this; but because of the bitter, extremely bitter taste that it has.
	Now, the question is this dangerous?  This can kill you.  It has, 
and I am not even addressing the deliberate killings.  We don't know what 
that amounts to and evidently, there is a spate of them now that people have 
discovered how to do it and how to slip your friend a mickey at a party 
and you know, whatever and them enjoying it.  You put this in it, they 
can tell the difference.  I am worried more about the 1,400 kids that have 
been poisoned last year.  If we wait the 10 years that it takes for other 
things to be decided, that is 14,000 kids are going to be poisoned.  Why?  
Because of inaction, because of uncertainty.
	Well, you may ask and you have in the opening statements of some, 
how do we know about this stuff?  How do we know about DB?  And 
that concerns me, also.  But if you do a little research and see what our 
society is doing right now, those of us who get our nails manicured; yes, 
I am one of them.  We just got this down in CVS down the block, at CVS 
drugs, right off the shelf.  So you are putting this product, this nail 
polish remover on your nails and then you wash it off and then it goes into 
the water supply.  Nobody seems concerned about it.  Why?  Nobody is 
regulating it.  Why?  Because nobody real, in the scientific industry, 
thinks it is a problem.
	 And if you are grown up and you are saying well, you know, I am 
taking good care of my nails; I probably don't bite them if I am--another 
product, and I didn't want to bore you by filling the shelf with household 
items here, but you could just go down and read the labels and find out 
what you have in every store that you go into.  This is something that we 
put on the nails of our children and our grandchildren to prevent them 
from biting their nails.  Why?  Because it has a bittering agent.  What is 
the bittering agent?  Why, it is DB.
	Now, why would you put this on the nails of a child that you love if 
you are going to be poisoning him?  And the answer is he doesn't get 
poisoned.  He is putting it in his mouth.  Well, if he is playing in the 
driveway or in the garage and he puts his hand on the floor, it is not the 
DB that we are worried about, because we are already using it in just 
about half the things that we use, but it is the antifreeze.  That is the 
problem.
	Let me address the two issues that I have heard people express as 
concerns, and the answers really are in the bill, if you read the bill 
carefully and it is not a very long bill.  Liability.  I don't want anybody 
to be off the hook.  If you are responsible for something dangerous, then 
you are responsible to the fullest extent of the law.  But the gentleman is 
right.  If you are going to require somebody to put their product in your 
product, you should be responsible for your product; they should be 
responsible for their product.  The bill specifically says that.  The 
antifreeze manufacturers are answerable in every single way under the 
bill; it is on page 3 under Limitation of Liability, that if you are required 
to put the DB in your antifreeze, you are responsible for everything that 
you voluntarily put in the antifreeze, environmentally and health-wise.
	And right, that is on line one.  If you go down to line two, it says 
you are not being left off the hook.  If you go to paragraph three, it says 
that nothing in this bill is construed to keep the manufacturer of DB on that 
slippery slope we are worried about.  If you made the DB and there is a 
problem with DB to the environment or to somebody's health, you are 
responsible for that.  Manufacturer A is responsible for A; Manufacturer 
B is responsible for B.  If we require A to be inserted in B, that is our 
demand.  And the people who are making these things are responsible.  
Nobody gets off the hook.
	Preemption.  And by the way, I didn't mention it, the issue of 
effectiveness arose.  This is the stuff that they put, those of you who are 
fortunate enough to live in areas where there are deer and animals, et 
cetera, this is the stuff that we put DB in the spray on the trunks of our 
trees and on our foliage to keep the deer from eating it.  Seems to me that 
washes into our soil pretty quick, as soon as it rains and into our aquifers 
and water supplies.  We don't worry about that.  Why?  Because 
evidently, there is nothing to worry about.
	The second issue that people brought up as a concern was 
preemption, and I am as interested in preemption as anybody else.  But 
States are beginning to act because they are ahead of us in understanding 
the danger both to animals that we all profess to love and our children 
that I know we all love, and the environment that everybody talks so 
much about.  States are beginning to act.  Three States have done it, eight 
more States are considering it.  If every State had different regulations 
you are not going to have manufacturers of anything making 50 different 
products in 50 different States.
	And besides, even if they did, or even if those three States did, 
what is to prevent this mean New Yorker from driving my mean New York 
car with my terrible antifreeze in it, without a bittering agent into your 
State in California?  Are we going to stop every car from every State 
from coming into the three States or whatever amount of States it 
amounts to and make you sign an affidavit that there is no DB because 
your car is going to leak if it is going to leak.  And if you think they 
don't, walk through the parking garage in any of our buildings or the 
parking lots outside where all the staff cars are and just look at the 
ground and see all these liquids there.
	It is a problem and it is a mobile problem and being that mobile in 
every way.  And if we are talking about motor vehicles that go around 
the country, maybe less because of the price of gas, but how do you stop 
this, in one State there is no protection?  And the real answer is there 
should be one standard.  And if there is one standard that everybody 
sticks to, as long as we can agree on it, and by the way, this isn't a boon 
to any one company.  You know the amount of this that it would take 
annually, is 7,000 gallons, total.  This isn't MTBE where you are talking 
about 82 billion gallons of gasoline stored in cans that are underground 
that are going to leak.  This isn't that material.  This is something 
completely different.
	So I just urge my colleagues, and this has been very confusing and it 
has to do with chemistry and I was never good at chemistry, but I am 
starting to learn a little bit now that I am watching it a little bit more 
closely with respect to this.  This is easy to figure out.  This is cheap.  
It is a heck of a lot cheaper than the pain and anguish to 14,000 mothers 
and 14,000 fathers and 56,000 grandparents mourning over the poisoning 
of a child.  And if we are talking about up to 90,000 dogs and cats, some 
are strangers, some are family members to a lot of people, over 10 years, 
that is 900,000 pets.  This is something that we can do something about.  
And if we are worried, let us rush to ban all of these household items that 
everybody uses.  I thank you for your attention.
	[The prepared statement of Hon. Gary L. Ackerman follows:]

PREPARED STATEMENT OF GARY L. ACKERMAN, A REPRESENTATIVE IN CONGRESS FROM 
THE STATE OF NEW YORK

	Good afternoon.  I want to thank Chairman Gillmor and Ranking Member 
Solis for holding this important hearing and allowing me to testify before 
the subcommittee.  
	I'm here for one simple reason:  1,400 children are poisoned by 
antifreeze every year.  In addition between 10,000 and 90,000 dogs and cats 
are poisoned by antifreeze ingestion each year.  A mere sip or lick of 
antifreeze can result in agonizing kidney failure, respiratory arrest, comas, 
and death.
	That is why this bill is so important.  Unless Congress acts, 
thousands more children and tens of thousands more household pets will 
unnecessarily suffer horribly, or even die.  We can prevent all of this 
suffering for no more than 3 pennies per gallon.  
	We all know that cars sometimes leak fluids, including antifreeze, 
which can puddle up in driveways, along curbsides, and in parking lots.  
Animals are all too eager to lap up these sweet-tasting puddles, and children 
playing outdoors can easily come into contact with these puddles and then 
place their hands in their mouths.  In fact, the sweet taste of antifreeze 
may cause these unsuspecting children to return for more of the deadly 
substance.  Moreover, dogs have been known to chew the necks of antifreeze 
containers, and curious children may come across the bright colored, sweet 
tasting substance in a garage and mistake it for a juice-drink or other safe 
beverage.  I ask all of you, can you tell me which of these glasses contain 
the safe drinks and which one is filled with toxic antifreeze?
	Antifreeze has also become the weapon of choice for intentionally 
poisoning people as well as pets.  Its sweet taste makes it all too easy to 
mix into a deadly cocktail for an unsuspecting guest or neighborhood pet.  
	The Antifreeze Bittering Act would prevent all of these tragedies 
by requiring the world's bitterest known substance, denatonium benzoate -- 
which, for ease of use, I will refer to as DB from now on -- to be added to 
antifreeze in order to make it unpalatable.  According to antifreeze 
producers, the process would be simple to implement and cost only two to 
three pennies per gallon.  
	For once, we have a simple solution for a very grave problem, and it 
has a lot of support.  The Antifreeze Bittering Act has 61 bipartisan 
cosponsors and has been endorsed by the American Academy of Pediatrics, the 
American Veterinary Medical Association, Doris Day Animal League, The Humane 
Society of the United States, Pfizer Animal Health, the Society for Animal 
Protective Legislation, the American Humane Association, the Pet Food 
Institute, the Long Island Pine Barrens Society, Consumer Specialty Products 
Association (who represent the antifreeze industry), and Honeywell (the 
leading manufacturer of antifreeze). 
	Moreover, the American Medical Association, the American Association 
of Poison Control Centers, the National Safety Council, and the American 
Journal of Public Health all publicly urged the addition of an aversive agent 
to antifreeze.  The U.S. Conference of Mayors passed a resolution in 2004 
urging Congress to "help cities protect children and animals" by passing a 
bill to require the addition of DB to antifreeze.  And, three states -- 
Oregon, California, and New Mexico -- have already adopted their own laws 
requiring the addition of a bittering agent to antifreeze, while eight others 
-- Maine, Massachusetts, Nebraska, Nevada, New York, New Jersey, Tennessee, 
and Washington -- currently have legislation pending.
	Given this unique combination of supporters -- animal activists 
agreeing with the industry, pediatricians and veterinarians are on the same 
page as drug manufacturers, republicans standing with democrats -- this bill 
should be headed for the suspension calendar.  Nevertheless, I do understand 
that there are some concerns about the bill's language, and I am hopeful that
we can work through these differences together.  
	There is a misunderstanding that the Antifreeze Bittering Act would 
set a dangerous precedent regarding environmental liability waivers because 
they think the bill contains broad liability waivers that could undermine the 
"polluter pays" principle.  This is simply not the case -- there are no 
blanket liability exemptions.  Instead, the bill contains a tightly drafted 
provision that establishes assigned liability for the antifreeze and DB 
industries.  Since the legislation would require the antifreeze industry to 
add a substance to their product, a substance that they do not produce, the 
language makes it clear that each industry is to be held liable for their own 
product: the antifreeze industry will be liable for antifreeze and the DB 
industry will be liable for DB.  No one gets off the hook.  There is 
absolutely no gap in corporate liability and there are no loopholes.
	I also understand that some of you are concerned about the 
environmental fate of DB.  DB was first approved for use in the United 
States in the 1960s, and has been used for decades as a bittering agent in 
hundreds of household cleaning products, cosmetics and personal care products, 
detergents, drain cleaners, paint, pesticides, and even outdoor garden sprays. 
	To date, DB has demonstrated no significant environmental hazards, 
whether disposed of properly or not, and will not enter the drinking water 
supply.  An analysis by the California Integrated Waste Management Board 
found that DB "readily biodegrades, its transport is attenuated [or withheld] 
by soil, and it is easily treated in sewage treatment systems and drinking 
water systems.  The analysis also "determined that the addition of [DB] to 
antifreeze would not lead to any adverse health or environmental effects."  
And, even if all of the DB analysis turns out to be inaccurate or incomplete, 
the DB industry remains liable for their product.
	We must also remember that ethylene glycol antifreeze is already 
considered a hazardous substance.  The EPA warns that dumping antifreeze can 
cause serious water quality problems, as used antifreeze contains lead, 
cadmium, and other heavy metals.  As a result, the industry urges consumers 
to properly dispose of used antifreeze, and the addition of DB to antifreeze 
will certainly not change this fact.  
	It's also important to keep in mind that we are talking about minute 
amounts of DB.  It is estimated that only 7,000 gallons of DB can bitter all 
of the approximately 157 million gallons of antifreeze covered by the 
legislation.  Let me repeat that -- 7,000 gallons of DB for 158 million 
gallons of antifreeze.  To help put that into perspective, we are talking 
about 1-2 droplets of DB for this 1 gallon container of antifreeze.  
	There is also a growing need for Congress to address this issue.  As 
I mentioned earlier, states, cities, and even municipalities have already 
begun the process of enacting their own antifreeze bittering laws.  Since 
antifreeze is sold throughout the entire country, there is an obvious need 
for one single federal standard.  
	It is my sincere hope that this hearing will help to clear up some of 
the misunderstandings surrounding the Antifreeze Bittering Act, and that we 
can act quickly to prevent further poisonings of children, household pets, 
and other unsuspecting victims who suffer needlessly because they have 
unintentionally ingested antifreeze.  

	MR. GILLMOR.  Thank you, Mr. Ackerman.  Questions?  Any 
questions for Mr. Ackerman?  If not, thank you very much for being 
here.
	MR. ACKERMAN.  I will take this from the table and if anybody 
wants, the drinks are on me later.
	MR. GILLMOR.  I call our second panelist.  Just don't drink anything 
that was left there.  I ask Jim Willis, the Division Director of the 
Chemical Control Division, Office of Pollution Prevention and Toxic 
Substances of U.S. EPA to come forward.  Mr. Willis, whenever you are 
ready.

STATEMENT OF JIM WILLIS, DIVISION DIRECTOR, CHEMICAL CONTROL DIVISION, 
OFFICE OF POLLUTION PREVENTION AND TOXIC SUBSTANCES, U.S. ENVIRONMENTAL 
PROTECTION AGENCY

	MR. WILLIS.  Thank you.  Chairman Gillmor, Ranking Member 
Solis, members of the committee, thank you for your invitation to appear 
before you today.  I am Jim Willis.  I am director of EPA's Chemical 
Control Division and it is my division that is responsible for managing 
EPA's processes for reviewing new and existing chemicals and taking 
action, if appropriate, under the Toxic Substances Control Act, TSCA.  
With your kind permission, I would be grateful if my written testimony 
could be included in the record of today's meeting.
	MR. GILLMOR.  Without objection.
	MR. WILLIS.  Thank you.  It is my privilege to represent EPA during 
this discussion on the bittering agent denatonium benzoate or DB for 
short.  The bill under consideration, H.R. 2567, would mandate the 
addition of this bittering agent to engine coolant or antifreeze that 
contains more than 10 percent ethylene glycol.  At the present time, the 
Administration does not have a position on this bill.  I would like to give 
the subcommittee a summary of our findings concerning the risks of DB.  
This is, of course, preliminary in nature and we are pleased to update this 
as new data become available.  The agency has collected information and 
performed a screening level analysis of DB.  We have not conducted a 
full risk assessment.
	There is not an extensive database of toxicity or environmental fate 
information on DB, although there is a 2 year oral toxicity study in rats 
and several other oral studies in rats of shorter duration.  Using the 
available information, the agency has applied screening level toxicity and 
environmental exposure estimation techniques that are often used in 
assessments of industrial chemicals prior to entry into commerce 
pursuant to TSCA.  These analyses typically employ techniques where 
toxicity and exposure values are estimated from structurally similar 
compounds.  We use computer-based models or expert judgment where 
toxicity or environmental exposure values are predicted based on a 
chemical structure.
	I am pleased to share with the committee an overview of this 
analysis, although I would like to repeat my earlier caveat that this is not 
exhaustive.  Concerning possible environmental exposure, based on the 
chemical structure, DB is predicted to be water soluble.  We also predict 
that the chemical may readily move from water and adhere to soil or 
sediment.  It is not predicted to bio-accumulate in living organisms.  In 
addition, the chemical is not predicted to be volatile, so it would not be 
expected to move from water into the atmosphere.
	The chemical is predicted to be resistant to biodegradation.  So for 
example, if DB were released into a sanitary sewer system, it most likely 
would be removed in a sewage treatment plant through absorption to 
sludge and not through appreciable biodegradation.  If DB were released 
directly to surface waters, we would expect it to accumulate in sediments 
due to its predicted tendency to move from water and adhere to soil and 
its resistance to biodegradation.  The chemical would not be predicted to 
readily migrate to groundwater because of this same tendency.  With 
sandy soils, however, potential movement to groundwater would be 
greater than for soil-rich organic matter.
	Concerning possible human and wildlife exposure, we would note 
that DB is one of the most bitter and bad tasting chemicals known.  
Consequently, it is at times used as a minor ingredient in a number of 
consumer products, which was amply demonstrated earlier, to deter 
human ingestion.  Because of this human aversion to DB, oral exposure 
potential for humans is therefore expected to be low.  Other mammals 
are likely also adverse to DB.  If orally consumed, data on these 
structurally similar chemicals leads us to believe DB would not be 
readily absorbed into the gastrointestinal tract and not likely to be 
efficiently absorbed through the skin.
	With regards to toxicity, our evaluation indicates that there were 
no appreciable concerns identified for mutagenicity, carcinogenicity or 
developmental toxicity from this chemical.  Overall, given the limited 
database and the uncertainties thereby presented, it is predicted that there 
is low to moderate concern for toxicity to humans and mammalian 
wildlife.  Please note that this low to moderate ranking is, indeed, the 
lowest ranking of health concern that we give during our screening level 
analyses.
	We also predict that DB is not likely to be highly toxic to birds.  
We predict that DB is likely to be, at most, moderately toxic to aquatic 
organisms and plants, with fish, aquatic invertebrates, and algae being 
least to most sensitive, respectively.  The toxicity to aquatic species is 
predicted to be reduced, again, to the extent that soils or sediments are 
present in the water and the DB adheres to them.
	In summary, on the basis of our screening level analysis, DB would 
not be expected to pose a significant risk to human health or the 
environment.  While the information presented is limited and should not 
be construed as an exhaustive assessment, I hope it is nonetheless useful 
to the committee as you consider this issue.  Thank you for the 
opportunity to testify today.  I would be pleased to answer any questions.
	[The prepared statement of Jim Willis follows:]

PREPARED STATEMENT OF JIM WILLIS, DIVISION DIRECTOR, CHEMICAL CONTROL 
DIVISION, OFFICE OF POLLUTION PREVENTION AND TOXIC SUBSTANCES, U.S. 
ENVIRONMENTAL PROTECTION AGENCY

I.  	Introduction
	Mr. Chairman and Members of the Committee, thank you for the 
invitation to appear before you today.  It is my privilege to represent the 
U.S. Environmental Protection Agency during this discussion on the bittering 
agent denatonium benzoate.  The bill under consideration, H.R.2567, would 
mandate the addition of this bittering agent to engine coolant or antifreeze 
that contains more than 10 percent ethylene glycol.  At the present time, 
the Administration does not have a position on this bill.

II.	Background
	The Agency has collected limited information and performed some 
screening-level analyses on denatonium benzoate; however, we have not 
conducted a full risk assessment, nor is there available an extensive 
database of toxicity or environmental fate information on denatonium benzoate. 
Using the available information, the Agency has applied screening-level 
toxicity and environmental exposure estimation techniques that are often used 
in assessments of industrial chemicals prior to entry into commerce pursuant 
to the Toxic Substances Control Act (TSCA). 
	These analyses typically employ techniques where toxicity and 
exposure values are estimated from structurally similar compounds, using 
computer-based models or expert judgment, where toxicity or environmental 
exposure values are predicted based on a chemical's structure.  These 
analyses do not currently provide enough information for the Agency to 
conduct a thorough human health or environmental assessment on this 
chemical.  As such, the Agency's analyses on denatonium benzoate should not 
be construed to be an Agency position on the health and safety of denatonium 
benzoate.  There simply is not enough information available at this time to 
make such a finding.  Nonetheless, I am pleased to share with the Committee 
the results of the Agency's screening-level analyses on the exposure and 
toxicity information that we have developed by employing the modeling 
techniques mentioned above. 

III.	Environmental Exposure
	Based on the chemical's structure, denatonium benzoate is predicted 
to be water soluble; however, it is predicted that the chemical may readily 
move from water and adhere to soil or sediment.  It is not predicted to 
bioaccumulate in living organisms.  In addition, the chemical is not 
predicted to be volatile, so it would not be expected to move from water to 
the atmosphere.  The chemical is predicted to be resistant to biodegradation.  
For example, if denatonium benzoate were to be released into a sanitary sewer 
system, it most likely would be removed in a sewage treatment plant through 
adsorption to sludge and not through appreciable biodegradation.  If 
denatonium benzoate were released directly to surface waters, it would be 
expected to accumulate in sediments due to its predicted propensity to move 
from water and adhere to soil,  and its resistance to biodegradation.  The 
chemical would not be predicted to readily migrate to groundwater because of 
its propensity to adsorb to soil; however, with sandy soils, potential 
movement to groundwater would be greater than if applied to soil rich in 
organic matter.  

IV.   Human/Wildlife Exposure
	Denatonium benzoate is one of the most bitter and bad tasting 
chemical substances known.  Consequently, it is at times used as a minor 
ingredient in consumer products, such as denatured alcohol, to deter human 
ingestion.  Because of human aversion to denatonium benzoate, oral exposure
potential for humans is expected to be low.  Other mammals are likely also 
averse to denatonium benzoate.  If orally consumed, data on structurally 
similar chemicals leads us to believe it would not be readily absorbed in 
the gastrointestinal tract and not likely to be efficiently absorbed across 
the skin.  

V.  Human/Wildlife Toxicity 
	Our preliminary evaluation indicated there were no appreciable 
concerns identified for mutagenicity, carcinogenicity, or developmental 
toxicity from this chemical.  Overall, given the limited data base, and the 
uncertainties thereby presented, it is predicted that there is low to 
moderate concern for toxicity to humans and mammalian wildlife and that 
the chemical is not likely to be highly toxic to birds.  

VI.   Aquatic Toxicity
           Again, based on the models and the Agency's screening-level 
analyses, the compound is predicted to be moderately toxic to aquatic 
organisms and plants, with fish, aquatic invertebrates, and algae being least 
to most sensitive, respectively.  The toxicity to fish, aquatic invertebrates, 
algae and aquatic plants in the water column is predicted to be reduced to 
the extent that soils or sediments are present in the water, again, because 
of the chemical's propensity to adhere to these materials.

V.   Conclusion
	Thank you for the opportunity to provide you with this information. 
While the information presented is limited and should not be construed as an 
Agency position on the health and safety of denatonium benzoate, I hope the 
information nonetheless is useful to the Committee as you consider this issue. 
I will be pleased to answer any questions.  

	MR. GILLMOR.  Thank you very much, Mr. Willis.  The testimony of 
our first witness, Congressman Ackerman, talked about DB being in a 
myriad of products commonly used, everything from Q-tips to being 
sprayed on trees.  Would you agree with that, that it is a very common 
substance in a number of products?
	MR. WILLIS.  Yes, I would agree that it is commonly found.
	MR. GILLMOR.  Are you aware of any problems as a result of that 
widespread use?
	MR. WILLIS.  Well, we have not done an exhaustive search of 
whether there are reported problems, but in the areas where we have 
looked, we have not heard any reports of problems.
	MR. GILLMOR.  Title II of the Consumer Product Safety 
Improvement Act of 1990 mandates a study of the effectiveness of 
adversive agents in deterring ingestion of hazardous products.  Are you 
familiar with that study?
	MR. WILLIS.  Unfortunately, Mr. Chairman, I am not familiar with 
that study.
	MR. GILLMOR.  Okay.  Let me ask you about the environmental 
effects of plain antifreeze, forget bittering agents, plain antifreeze being 
released into soil and water.  Would it be possible to have a bittered 
antifreeze released into the environment and then have the only 
environmental damage come from the antifreeze and not from the 
bitterant?
	MR. WILLIS.  Thank you for that question, Mr. Chairman.  The 
environmental effects of plain antifreeze being released into the 
environment are low.  Plain antifreeze has a very low toxicity and is 
easily biodegradable, so it is not persistent in the environment.  The 
environmental damage caused by the bittering agent, if added to 
antifreeze and released with antifreeze, is also expected to be low.  It has 
a low toxicity to fish and aquatic invertebrates.  It does have moderate 
toxicity to green algae, but green algae recovers relatively quickly to 
threats and so this is not anticipated to be a serious problem.  And once 
the part of the chemical of concern is absorbed to soil, that toxicity 
would also be reduced.
	MR. GILLMOR.  Thank you.  Further questions of the witness?  Ms. 
Solis.
	MS. SOLIS.  Thank you.  Mr. Willis, thank you for being here and 
your presentation.  I wanted to ask you if EPA has done any actual 
analysis of the measured toxicity, values, or environmental fate in 
transport of bitrex?
	MR. WILLIS.  No, Congresswoman Solis, we have not actually done 
any testing ourselves.  We have reviewed available data that has been 
made known to us.  We have also reviewed two structurally very similar 
chemicals and looked at the data associated with them and a number of 
other analogs, but we have not done any testing ourselves.
	MS. SOLIS.  Okay.  Mr. Willis, to your knowledge, has Honeywell or 
their trade association, the Consumer Specialty Products Association, 
provided you with scientific studies they have accumulated which show 
that DB does not biodegrade in the environment or presents risks in the 
groundwater?
	MR. WILLIS.  I am not aware of that, no.
	MS. SOLIS.  And are you aware of a study done by a consulting firm 
known as Roy F. Weston that concluded that DB does not biodegrade 
and would pass through publicly owned treatment works?
	MR. WILLIS.  I am not aware of that study, no.
	MS. SOLIS.  Are you aware of another study done by Roy F. Weston 
that reached the conclusion that if you put DB down the drain, it goes 
right into the water and does not biodegrade?
	MR. WILLIS.  No, I have not looked at any of these studies myself.
	MS. SOLIS.  Okay.  And are you aware of another study performed 
by the Chemical Specialties Manufacturers Association which concluded 
that DB does not stick in the soil, rather it stays in and travels with the 
groundwater, therefore it is reasonable to expect contamination 
problems.  As the DB accumulates in the groundwater, the net result is 
that the groundwater may become bitter and thus, well water in the area 
would potentially be unpotable?
	MR. WILLIS.  No, I am not familiar with that.
	MS. SOLIS.  Since there are numerous studies that show DB does not 
biodegrade, is it likely not safe for the environment?  Is the EPA 
supporting the sweeping liability exemption from the Superfund and 
other environmental laws as contained in H.R. 2567?
	MR. WILLIS.  Congresswoman, as I noted in my testimony, the 
Administration doesn't actually have a position on this bill and that 
would include on the liability provision.
	MS. SOLIS.  And has EPA attempted to get environmental fate and 
transport data from the manufacturers of this product?
	MR. WILLIS.  No, Congresswoman.  We have just performed the in-
house screening level analysis based on data that was readily available.
	MS. SOLIS.  So does that exclude sound scientific studies?
	MR. WILLIS.  It would not exclude sound scientific studies, no.  It 
would be based on any data that were available to us.  We did not do a 
data call-in, for example, to get data from manufacturers and others who 
may have tested this, but relied on readily available information.
	MS. SOLIS.  Thank you.  I would also like to ask for unanimous 
consent to submit correspondence that we have received in the 
committee to be added to the record and hopefully allow for other 
materials that Members might have to bring forward to put in the record.
	MR. GILLMOR.  Would the gentlelady have any objection to giving 
Members a couple of days as part of the unanimous consent to submit, as 
part of the record, any rebuttal materials, as well, so that both sides of 
the issue are in the record?  Okay.  Then, without objection, the unanimous 
consent request as amended is agreed to.
	[The information follows:]
 
<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. GILLMOR.  The gentlelady from New Mexico.
	MRS. WILSON.  Thank you, Mr. Chairman, and Mr. Willis, thank you 
for being here.  What is the proper way to dispose of antifreeze?  When 
you take your car in to get the coolant changed when it gets to be 
summertime, what are they supposed to do with it?  Do you know?
	MR. WILLIS.  I am afraid I don't, Congresswoman.
	MRS. WILSON.  So is this stuff that you are not supposed to put down 
the drain and dispose of in some other way or is this just a benign 
chemical that you can put down the sink?
	MR. WILLIS.  I am afraid I don't actually have the answer to your 
question, Congresswoman.
	MRS. WILSON.  You said in your testimony that plain antifreeze has 
low toxicity and is easily biodegradable.  Does that imply that it--that 
was kind of a surprising statement to me, and I am always taught that 
you don't put that stuff down the drain.
	MR. WILLIS.  Congresswoman, I don't think I said it is 
biodegradable.  I think I said it is relatively not biodegradable.  And 
based on my personal understanding, I think it probably does need to be 
disposed of properly.  I am simply ignorant of which law it is that it 
needs to be disposed of properly under.
	MRS. WILSON.  But to your knowledge, this bittering agent, DB, 
which is included in shampoo, laundry detergent, fabric softener, animal 
repellants, pesticides, bath cleaners, stain removers for clothing, so it is 
going down our drains in all of those products when we rinse the stuff 
out of the shower after we have cleaned it, but you are not aware of any 
contamination problems or environmental problems where a site has 
been located where the groundwater has been contaminated by DB?
	MR. WILLIS.  That is correct, Congresswoman.  We are not aware of 
any cases of environmental contamination by DB.
	MRS. WILSON.  And how long has this substance been routinely used 
in consumer products?
	MR. WILLIS.  I think for several decades.
	MRS. WILSON.  So this is not a case of this being a new thing and we 
have got some terrible problem to look forward to, this has been on the 
market and used since I was, probably since I was born, 1963, I think is 
the date that I recall, so we are talking about several decades of 
experience with this going down our water systems, right?
	MR. WILLIS.  Well, yes, with environmental exposure to this 
chemical, indeed.  For example, through its use as a deer repellant or in 
consumer products.
	MRS. WILSON.  Or down my drain if I use something to wash the 
shower or wash clothes or--
	MR. WILLIS.  Yes, Congresswoman.
	MRS. WILSON.  Okay.  Thank you, Mr. Chairman.
	MR. GILLMOR.  Thank you.  Further questions?  The gentleman from 
Washington.  I beg your pardon.  I am told Mrs. Capps was first.
	MS. CAPPS.  Thank you.  Thank you for your testimony, Mr. Willis.  
On the next panel today, we are going to hear testimony from the 
American Waterworks Association representing 4,800 utilities 
nationwide to the effect that history is replete with examples of the 
unintended consequences of measures adopted to obtain laudable goals.  
MTBE is an example, when added to motor fuels, an example that has 
left many local governments and drinking water utilities with 
contaminated water and huge treatment and cleanup costs.
	Now, your testimony describes the knowledge of EPA about 
denatonium benzoate as, and these are quotes, these phrases: "limited 
information."  Another quote, "Not conducted a full risk assessment," 
and the third one, "No extensive database of toxicity or environmental 
fate information on DB."  And finally, "Not enough information for the 
agency to conduct a thorough human health or environmental assessment 
on this chemical."
	I ask you if there may be unintended consequences to this bill and 
whether it is your concern that there may be and if it should be of 
concern to us, in your position with the Environmental Protection 
Agency?
	MR. WILLIS.  Yes, thank you, Congresswoman.  DB is, as was noted 
earlier, is not similar to MTBE.
	MS. CAPPS.  I know that.  I was using it as just an example of 
something with very good intentions leading to very severe, unintended 
consequences.
	MR. WILLIS.  Indeed, Congresswoman, some of the differences 
between this chemical and MTBE, however, point up some of the 
differences of a chemical of this nature and chemicals that tend to cause 
widespread environmental contamination.  One of the issues is the 
concentration a chemical is used at, and this would be used in low 
concentrations.
	MS. CAPPS.  I don't want to make a comparison between DB and 
MTBE.  I was only using that as an example.  What I am getting at is the 
level of studies that have been conducted, the numbers of them, the range 
of them, the variety of them, and this is your agency.  Do you consider 
that there may be, based on your knowledge that you have already in the 
agency, that there may be unintended consequences that perhaps could 
be ferreted out ahead of time so that we don't fall into the path that we 
have on other occasions?
	MR. WILLIS.  We do not have a concern about a significant health or 
environmental risk from DB based on our present analysis.
	MS. CAPPS.  You have enough information that leads you to say 
there is no reason for concern?  Let me phrase it a different way, because 
I really want to get you to say something that will be useful to us, 
because this is a tough decision that we have to make.  I was on the bill 
the last time, but now I have questions because I am concerned about the 
statements that I just gave you that might indicate that there may not be 
sufficient studies.  	Let me say it this way.  Do you believe that it is in 
our interest, here on this committee, that there be a full scientific 
assessment of this chemical conducted before we take a very unusual 
step, different from the other products in which it is used, of mandating 
that DB be added to an automotive product?
	MR. WILLIS.  Congresswoman, I think it is a bit of a challenge for 
me in my position to, if you will, tell you what I think you should do.  I 
think that would--
	MS. CAPPS.  You think it would be useful to have a more extensive 
scientific assessment?
	MR. WILLIS.  There are some data gaps.
	MS. CAPPS.  There are some data gaps.  Would it be useful to have 
those gaps filled?
	MR. WILLIS.  It would depend on a number--
	MS. CAPPS.  You can't say yes or no?
	MR. WILLIS.  I cannot say yes or no because it depends on a number 
of exposure situations where we also don't have the data.
	MS. CAPPS.  Well, could this be tested out?  Exposure situations.  
Could there be a variety of situations at least examined?
	MR. WILLIS.  Congresswoman, I feel myself getting in trouble here.
	MS. CAPPS.  Oh.  Let me ask you one more yes or no question.  I 
have about 10 seconds.  This is a statement made by the Consumer 
Specialty Products Association on July 16th of 2004 in a letter that they 
wrote.  This is their quote.  I want to ask if you agree with them or not.  
They say and I quote, "We believe that any additional requirements for 
the inclusion of bitterants in antifreeze and other automotive products or 
engine coolants should be deferred at least until such time as a full 
toxicological exposure and risk evaluation be publicly available for the 
bitterants, themselves, both as discreet chemicals and as incorporated 
into automotive products."  Do you agree?  They believe more studies 
are warranted.  This is the industry.  Do you agree?
	MR. WILLIS.  Congresswoman, we would, for a chemical of this 
type, with the expected production volume and exposure considerations, 
we would not be going after more data to conduct a fuller risk 
assessment.
	MS. CAPPS.  I yield back.
	MR. GILLMOR.  Further questions?  Mr. Bass.
	MR. BASS.  Thank you, Mr. Chairman.  I will just ask one question.  
Mr. Willis, you stated that--by the way, this is a follow under the 
distinguished Ranking Member's comment about the absorptive nature 
of DB in soil and it says here that you state that the chemical properties 
of DB would make it unlikely for it to migrate to groundwater because of 
its propensity to absorb soil unless it is sandy soil.  Can you give us a 
practical explanation of exactly what this means?  Does this mean that 
you think it is a problem if it gets into groundwater or not?  If DB is not 
filtered out by drinking water systems since it does not biodegrade, is it a 
threat to health or the environment?
	MR. WILLIS.  Based on our modeling, we think if this reaches the 
soil, it is unlikely to move through the soil into groundwater at any 
appreciable rate.
	MR. BASS.  All right.  Well, that is it, Mr. Chairman.  Thank you.
	MR. GILLMOR.  Thank you.  Further questions?  Mr. Inslee.
	MR. INSLEE.  Thank you.
	Do you think, can the Federal government guarantee that DB will not 
be harmful to human health in any manifestation?
	MR. WILLIS.  No, Congressman, we cannot make that guarantee.
	MR. INSLEE.  And why can't you make that guarantee?
	MR. WILLIS.  Because we don't have the test data for all possible 
endpoints, nor do we have the fate and exposure data that would allow us 
to do that sort of assessment.
	MR. INSLEE.  So the bill essentially works on the assumption that a 
guess that the Federal government can guarantee the safety of this 
product because as a total exemption from liability of the manufacturer 
of the antifreeze compound, assuming, I guess, that means that we are 
supposed to be guaranteeing to the public that it is safe so that when we 
tell a manufacturer to put it in there, that no one has a claim if they are 
killed or get cancer or have some other health problem.  To me that 
doesn't make any sense.  If the Federal government can't guarantee it is 
safe, we shouldn't be denying citizens a claim against a manufacturer of 
the product once we tell them to put it in there.  Am I right on that?
	MR. WILLIS.  Congressman, you are drawing me into a position on 
liability and I think I have noted that the agency doesn't have a position 
on this bill, including on the liability.
	MR. INSLEE.  Well, I have a position that if the Federal government 
can't guarantee the safety of a product, we shouldn't be denying citizens 
the right for a claim when Congress insists it be in there and that is why I 
think this blanket liability, and I have read it, it is a blanket liability 
for the manufacturer of the product as long as the product is put in there 
according to the Congressional specification.  Now, it isn't for the 
manufacturer of the DB, but that will be the bankrupt corporation that 
has $1.20 in their till when people start getting sick, if that were to 
happen.  So I think we have real problems with this liability perspective.
	Is there anything that you can give us on a lay basis to characterize 
that the potential toxicity, biodegradable--I don't know what the word is-
-its characteristic of being biodegradable or not, is there anything else 
you can put this in kind of a spectrum?  Is it benign as mother's milk?  Is 
it as potentially dangerous as DDT?  Is it unknown as other products?  Is 
there any kind of spectrum you can give us as something we could--
	MR. WILLIS.  Well, Congressman, there are a number of chemicals 
that sort of fall in this low to moderate range.  One that members may be 
familiar with is something called sodium benzoate.  Sodium benzoate is 
commonly found as a food additive.  It shows up in soda pop.  It may 
have been in the drinkable green liquid and is in the same general 
toxicity range as DB.
	MR. INSLEE.  And can you think of anything else that has a similar 
characteristic of being biodegradable or not biodegradable?
	MR. WILLIS.  I would have to get back you on that, Congressman.  I 
can't think of a good example offhand.
	MR. INSLEE.  I read in your testimony, you made some reference to, 
again, based on the models of the agency's screening analyses, the 
compound is predicted to be moderately toxic to aquatic organisms and 
plants, with fish, aquatic invertebrates, and algae being least to most 
sensitive, respectively, so that would mean algae would be the most 
sensitive.  Is there any way to characterize that?  Aquatic invertebrates 
second most sensitive?
	MR. WILLIS.  It is in high concentrations, Congressman, it would 
likely kill some, but possibly not all algae in a water system.  Similarly, 
it may kill a number of the invertebrates that live in the water column 
and that fish feed on, although it is less toxic to those aquatic 
invertebrates than to algae.
	MR. INSLEE.  So we have a situation where ingestion to pets, we 
know, can cause death and we know that there is some risk of death to 
other animals or--it may not be pets, but they are in the animal kingdom, 
is that the situation?
	MR. WILLIS.  Congressman, I may have misunderstood your original 
question.  I thought we were talking about DB, but the deaths to pets, I 
think, are--
	MR. INSLEE.  Yes, let me rephrase my question.  With the death to 
pets that we are all concerned about here, besides our children, or death 
to pets that happen when they eat the antifreeze, itself, but in order to 
prevent that, if we mandate a product that can end up mortal to other 
animals in the animal kingdom, it is kind of an irony, I guess, that I am 
troubled by a little bit because they may not be our pets but they are 
God's creatures and we do have concerns about salmon who live on 
these little aquatic invertebrates in the Puget Sound and it is just 
something we ought to think about.  Thank you.
	MR. GILLMOR.  Further questions of the witness?  Ms. Schakowsky.
	MS. SCHAKOWSKY.  Thank you.  Mr. Willis, you are Division 
Director, Chemical Control Division, Office of Pollution Prevention and 
Toxic Substances.  I was a little concerned that you were unable to 
answer what I think would be a pretty common question, how do you 
dispose of antifreeze in a safe way.  We are talking about, I mean, if part 
of it is Office of Pollution Prevention, I would think that common 
substances, particularly those that people use so often and might have, 
likely have questions about, is that not your field?
	MR. WILLIS.  That is correct, Congresswoman.  Disposal of 
antifreeze is not one of our office's activities.
	MS. SCHAKOWSKY.  So who is concerned about pollution 
prevention, that is how one would dispose of chemical hazard, et cetera?  
Does anybody oversee that?
	MR. WILLIS.  Congresswoman, I believe the Office of Solid Waste 
would oversee that.
	MS. SCHAKOWSKY.  And antifreeze would fit into solid waste?
	MR. WILLIS.  Indeed.  It would, Congresswoman.
	MS. SCHAKOWSKY.  Okay.
	MR. WILLIS.  I would have to get back to you with an answer 
because it is outside of the realm of our office's work.  However, I can 
tell you what offices in EPA are engaged in that and what they are doing.
	MS. SCHAKOWSKY.  Okay.  Let me understand your response to Ms. 
Capps' question.  We are now in the process, potentially, of mandating 
the inclusion of a widely used, of a substance in a widely used product 
and my understanding of what you said, that you would not do any 
further risk assessments than have already been done on DB, that we 
could proceed ahead, mandate it, it become law without any more 
inquiry into DB?
	MR. WILLIS.  Yes, Congresswoman.  If a chemical like DB came 
into our program with the data that we had readily available to us during 
the screening level analysis, we would not have taken an action to 
control the risk of this chemical.
	MS. SCHAKOWSKY.  The difference between this and many other 
things is the Federal government is taking, I think, a fairly unusual step, I 
don't know, to actually mandate the use of a particular product, which is 
somewhat different than, it seems to me, than examining the toxicity or 
the environmental impact of just any old product; we are actually going 
to be mandating that.  And to follow up on Mr. Inslee's remarks, the 
toxicity to fish, aquatic invertebrates, algae, and aquatic plants is 
predicted, there are environmental impacts that could affect the salmon 
or others.  At what level does that become a concern?
	MR. WILLIS.  Congresswoman, at the levels that this chemical is 
estimated to be used at in products, we would not be concerned about 
these toxicities because those levels would not be expected in, for 
example, the aquatic ecosystems that we are talking about here.
	MS. SCHAKOWSKY.  Low to moderate concern for toxicity to 
humans and mammalian wildlife.  Well, moderate concern.  Also, I just 
wanted to point out when our Ranking Member Solis, asked you about a 
number of other studies and there are all kinds of, there is a whole book 
of them here and you were unfamiliar with them.  Now knowing that 
there have been studies, and I understand there are some conflicting 
findings, do you feel obligated to assess those, to add that to your 
decision making process or your evaluations?
	MR. WILLIS.  Indeed, Congresswoman.  We would very much like to 
review those studies and add that to our evaluation.
	MS. SCHAKOWSKY.  So in fact, under certain circumstances, you 
would increase your risk assessment, that is to look further, perhaps 
change your view?
	MR. WILLIS.  Oh, indeed, Madam.  Any time data becomes available 
to us, we are always happy to reevaluate a chemical.
	MS. SCHAKOWSKY.  Thank you.
	MR. GILLMOR.  Thank you very much, Mr. Willis.  We appreciate 
you coming.  We will call Panel 3 forward.  Very well.  If the panel is 
prepared, we will start with Mr. Jeffrey Bye of Honeywell, who is 
testifying on behalf of the Consumer Specialty Products Association.  
Mr. Bye.

STATEMENTS OF JEFFREY BYE, VICE PRESIDENT, PRESTONE, HONEYWELL 
INTERNATIONAL, INC. ON BEHALF OF CONSUMER SPECIALTY PRODUCTS ASSOCIATION; 
PATRICE L. SIMMS, SENIOR PROJECT ATTORNEY, NATURAL RESOURCES DEFENSE  
COUNCIL; SARAH AMUNDSON, DEPUTY AND LEGISLATIVE DIRECTOR, DORIS DAY ANIMAL 
LEAGUE; MELINDA EYRICH, DVM, CO-OWNER, URGENT CARE VETERINARIAN HOSPITAL; 
AND TOM BONACQUISTI, DIRECTOR OF WATER QUALITY AND PRODUCTION, FAIRFAX 
COUNTY WATER AUTHORITY ON BEHALF OF AMERICAN WATER WORKS ASSOCIATION

	MR. BYE.  Thank you, Mr. Chairman and Ranking Member Solis.  
My name is Jeff Bye.  I manage the Prestone Antifreeze business for the 
Consumer Products Group of Honeywell International, and I also, as 
mentioned, represent our industry association through the CSPA.  Our 
business is an automotive after-market business.  We also manufacture 
FRAM filters and Autolite sparkplugs.  Our business is headquartered in 
Danbury, Connecticut.  We are part of Honeywell International, which I 
am sure many of you know is a large, multinational corporation, maybe 
120,000 employees, about 60,000 in the United States.
	A little history: Prestone, the business I manage, is the leading 
producer in North America and the leading marketer of antifreeze.  We 
sell the product in all 50 States, as well as Canada and Mexico.  We sell 
the product primarily into retail through people like Auto Zone, Advance 
Auto Parts, and Pep Boys.  We also sell through mass merchants, such as 
Wal-Mart, K-Mart, and a number of smaller outlets.  The product is 
produced in three plants in the United States, in Freehold, New Jersey; 
Alsip, Illinois; and Torrance, California.  We also have a small plant in 
Mexico City.
	We manufacture and the brands we sell, again, primarily to retail, 
are under the Prestone brand, and then a whole host of store brands and 
private label brands.  We also do some bulk manufacturing for the auto 
manufacturers, themselves, primarily General Motors, Ford, and Toyota. 
A little bit about antifreeze that maybe we didn't get completely from 
Mr. Ackerman.  It has been around for over 75 years in a form not unlike 
it is today and that is primarily with the chemical ethylene glycol in it.  
Ethylene glycol has some phenomenal properties in terms of lowering 
the freeze point of water and keeping high temperatures under control, so 
it makes a perfect coolant in a car's engine.  And then again, it has been 
like that for over 75 years.
	In more recent history, antifreeze has been called on to provide some 
other functions within an engine and primarily, that revolves around 
corrosion protection of a car's cooling system and heating system.  To 
accomplish that, over the last 20 to 30 years, along with the ethylene 
glycol, a number of chemical additives have been put into antifreeze, and 
if you were to buy that gallon of antifreeze today, it would be about 95 
percent ethylene glycol and about 5 percent other chemicals.  Most of 
what we do and most of what our chemists do for us and in the industry 
is work on those other chemicals, that 5 percent.  Those are the 
chemicals that are proprietary, patented formulas that work for corrosion 
protection.  Ethylene glycol is ethylene glycol, and it has its temperature 
controlling properties.
	Ethylene glycol does a great job of controlling temperatures and 
providing freeze protection, but as you have also heard, it has a down 
side in that it is highly toxic, especially when ingested by people or pets.  
To that end, we have, as a company and our industry, taken extensive 
steps throughout the years to protect people and particularly children: 
child-proof caps, foil seals, and warning labels.  We sponsor poison 
control centers.  We do public service announcements on proper disposal 
and handling of the antifreeze.  Although there haven't been fatalities, 
there are poisonings that happen periodically by accident with adults and 
children.
	We can't say the same for pets, as you pointed out.  Mr. Ackerman 
pointed out, you will find it in the parking lots spilled out of older 
radiators, people will dispose of it improperly, leave it open in a garage 
and pets have consumed it and have died from it.  To that, the animal 
rights folks and animal welfare people have, for the past number of 
years, pushed lawmakers on a local, State and Federal basis to support 
legislation that requires manufacturers like ourselves to provide and put 
into our product a bittering agent to discourage animals from drinking 
the product.
	In fact, going back to 1991 up to now, three States have enacted 
legislation; Oregon being the first, followed by California in 2002, and 
most recently New Mexico last year.  Those States require us to include 
the product DB in our product to prevent accidental poisonings.  In 2004, 
we partnered with, as an industry, with the Doris Day League to get 
Federal legislation passed that would accomplish what they are looking 
for, which is the prevention of poisoning of animals on a broader basis.  
And what we, as manufacturers, would look for, which is a way to 
provide that product to all 50 States, but in a way that is sort of within 
the course of commerce--practical and reasonable and efficient.  Because 
right now there are 11 States that have legislation pending, and that 
legislation covers a number of plants and a number of locations.  Even 
the bills themselves are not uniform in what they require of the 
producers, so the bill would provide a uniform benefit to both sides from 
poisoning and to distribution.
	Further, that bill also provides assigned liability to us, as 
manufacturers of the antifreeze.  It holds us responsible for that product 
which we know and design, antifreeze.  We are fully responsible for our 
product in any way, shape, and form, always have been and always will 
be, and assigns liability to the producers of bitterant, in this case the 
producers of DB, for their product and its impact if there is a problem.  
Because at the end of the day, what we do as an industry is, and what our 
chemists, what they spend all their time on is analyzing products that go 
in car's cooling system and the impact of that product on a car's cooling 
system.  And to that end, you know, we are fully responsible for that.  
We are more than happy to include a product that is not intended for that 
purpose, if it satisfies the needs of another group.  But we are not experts 
in that product and to that end, that is why we look to have this bill 
assign liability to those people that are in that realm, which is not where 
our expertise lies.
	And with that, I appreciate the opportunity to speak here and will 
welcome any questions at the right time.  Thank you.
	[The prepared statement of Jeffrey Bye follows:]

PREPARED STATEMENT OF JEFFREY BYE, VICE PRESIDENT, PRESTONE, HONEYWELL 
INTERNATIONAL, INC., ON BEHALF OF CONSUMER SPECIALTY PRODUCTS ASSOCIATION

Introduction
	Good afternoon.  I am Jeff Bye, Vice President for Prestone, a 
Honeywell business.  Prestone has been the leader in the manufacture, 
marketing and sale of antifreeze products for over 75 years.  I am here 
representing Honeywell as well as the domestic antifreeze industry, which 
has been organized by the Consumer Specialty Products Association.  We 
appear before the Committee in support of HR 2567.
	Honeywell is a diversified technology and manufacturing leader, 
serving customers with aerospace products and services; control, sensing and 
security technologies; automotive products; specialty chemicals; fibers; and 
electronic materials.  Based in Morris Township, New Jersey, Honeywell's 
shares are traded on the New York Stock Exchange as well as on the London, 
Chicago and Pacific Stock Exchanges.  We are one of the 30 stocks that make 
up the Dow Jones Industrial Average and we are also a component of the 
Standard & Poor's 500 Index.  The company employs over 120,000 employees, 
with approximately 60,000 in the United States, and is comprised of four 
business units: Aerospace, Automation and Control Systems; Specialty 
Materials, and Transportation Systems.  Prestone is part of the Consumer 
Products Group within the Transportation Systems business unit, with 
business headquarters in Torrance, California.

Prestone Background
	Honeywell is the largest manufacturer and supplier of automotive 
antifreeze in the United States, Canada and Mexico. Its Prestone brand is 
the most widely recognized and distributed brand of antifreeze in North 
America.  In the United States, our Prestone antifreeze is sold in all 50 
states and through virtually all major mass retailers, such as Wal-Mart, and 
auto retailers, such as Autozone and Advance. In addition, we supply private 
label antifreeze to most major retailers throughout the nation.  We also 
supply automakers, such as General Motors, Ford and Toyota, for the factory 
fill of their automobiles in North America.  
	It may be helpful to understand the origin of antifreeze use in the 
automotive industry.  Originally, motorists drove cars, such as the Ford 
Model T, without heaters or side and rear windows and, not surprisingly, 
winter driving was very unpleasant.  Later, with the development of car 
heaters, installation of side and rear windows, and improvements in engines 
and engine lubricants, motorists drove more comfortably and frequently in 
winter and demand for engine antifreeze arose.  At that time, many compounds 
were used with water as a form of antifreeze, including honey, sugar, 
molasses and, the most popular, methyl alcohol.  Even methyl alcohol, 
however, had significant drawbacks including odor and flammability.  
Motorists were often uncertain about the freezing protection afforded by 
these fluids.
	The antifreeze/coolant business as we know it today began with 
Prestone brand ethylene glycol antifreeze in 1927.  It was pure ethylene 
glycol in cans and was packaged with charts showing the protection afforded 
by specific dilutions.  The fluid would not evaporate or burn, was relatively 
odorless and offered many advantages over the substances used earlier by 
motorists.  A few years later, Prestone developed and marketed the first 
inhibitor in its antifreeze to offer additional protection for the cooling 
system and to retard rust.  In the early 1960s, Ford, General Motors and 
Chrysler began filling their new cars with a 50% ethylene glycol and 50% 
water antifreeze/coolant solution, which led to the emergence of 
antifreeze/coolant as a year-round functional fluid in the automotive 
industry.  Since then, Prestone and other producers of antifreeze/coolant 
have developed their formulations to provide even better corrosion protection 
and extend the life of a car's cooling system.  
	Ethylene glycol, which is a major ingredient of antifreeze, is toxic. 
For several decades, manufacturers of antifreeze have used foil safety seals 
and childproof caps to guard against the accidental human ingestion of 
antifreeze.  Prestone provides prominent label warnings about proper use, 
storage and disposal of antifreeze. We fully comply with all child protection 
requirements established by the Consumer Products Safety Commission and we 
are dedicated to continual improvement. In addition, manufacturers have 
participated in public education and outreach promoting the safe use and 
storage of antifreeze.  During the past ten years, antifreeze manufacturers 
have supported the American Association of Poison Control Centers in a series 
of public service announcements entitled "Take Care: Car Fluids, Children and 
Pets."  These public service announcements also help to educate consumers 
about proper use and storage of antifreeze and other automobile fluids.     
	Although it is rare that children are accidentally exposed to 
antifreeze, there are occasions where household pets and other animals are 
exposed to ethylene glycol products and are injured by ingesting the product.  
Some animal deaths are likely caused by intentional poisoning, such as a 
disgruntled person targeting a neighborhood dog that has been barking at night 
or causing other problems. Other animal fatalities are accidentally caused by 
antifreeze that has spilled or been carelessly left in improperly secured 
containers.  We and other antifreeze manufacturers sponsor a national poison 
control center as a resource and service for veterinarians and pet owners. The 
center is staffed with specially trained veterinary toxicologists available 
to handle any animal poison-related emergency, 24 hours a day, 365 days a 
year.  

Need for a Single Uniform Antifreeze Standard
	For several years, the animal welfare community has encouraged local, 
state and federal lawmakers to pass legislation requiring antifreeze 
manufacturers to add denatonium benzoate ("DB"), a widely known bittering 
agent, to their product.  The animal welfare community has argued that adding 
DB to antifreeze would make the product taste bitter, discouraging animals 
from ingesting the liquid.  Their legislative efforts have met with some 
success, with laws passed in Oregon, California and New Mexico in 1991, 2002 
and 2005, respectively.
	In December 2004, the antifreeze industry reached out to the Doris 
Day Animal League to develop consensus federal legislation that would address 
the safety concerns of the animal rights community. The consensus federal 
legislation -- HR 2567 -- would require the addition of DB in antifreeze with 
the goal of rendering the product unpalatable and deterring children, pets and 
other animals from accidental poisoning.  This federal legislation would 
create a national standard.  Although California, Oregon and New Mexico have 
passed similar or identical laws, HR 2567's preemption provision would avoid 
the potential inconsistency and practical difficulty of manufacturers 
complying with a patchwork of various state and local mandates.   At least 
eleven states have been actively considering similar requirements, including 
Alabama, Maine, Missouri, Nebraska, Nevada, New Jersey, New York, Ohio, 
Tennessee, Virginia and Washington, and the trend indicates that additional 
states will pursue antifreeze bills.
	Now is the appropriate time for Congress to establish a national 
standard.  The difficulty of managing compliance with a patchwork of 
inconsistent state mandates would be significant and would hinder an adequate 
supply of antifreeze across the country.  Further, the additional costs at 
the manufacturing and distribution levels would ultimately be borne by the 
American consumer -- for a product that is considered a necessity for the 
proper maintenance of an automobile's engine.  A national standard would 
ensure that the mandate is both uniform and cost effective, while responding 
to the call for improved antifreeze safety measures.  Some states that have 
passed or considered antifreeze legislation, including New Mexico and Maine, 
have expressed their desire for Congress to pass a federal bill because they 
recognize the appropriateness of a national standard and federal enforcement.

Liability Provisions
	HR 2567 would provide fair responsibility for the antifreeze and DB 
products by assigning liability between the respective manufacturers.  
Prestone scientists have developed antifreeze products that we stand behind 
and are willing to defend. Antifreeze manufacturers, however, do not 
manufacture or distribute DB.  While antifreeze manufacturers are willing to 
add DB in compliance with a national standard, antifreeze manufacturers should 
not be exposed to liability for complying with that mandate.  The proposed 
federal legislation would not change the liability of antifreeze 
manufacturers for their products. Under the legislation, antifreeze 
manufacturers continue to be liable for the ethylene glycol antifreeze itself, 
and DB manufacturers and distributors are liable for their bittering agent. 
	HR 2567 shares the essential components of the liability provisions 
within the New Mexico, California and Oregon state laws as well as 
legislation introduced in the House of Representatives in 2004.  Notably, the 
three state laws and HR 1563, sponsored in the 108th Congress by Reps. Gary 
Ackerman (D-NY) and Dana Rohrabacher (R-CA), all provide some form of 
liability protection to antifreeze manufacturers for the consequences of DB.  
Indeed, HR 1563 in the 108th Congress was cosponsored by 110 House Democrats 
and 23 House Republicans.

	The 2005 New Mexico law (NM �57-19-38) includes the following 
liability provisions:
	"A manufacturer, packager, distributor, or recycler or seller of 
engine coolant or antifreeze that is required to contain an aversive or 
bittering agent pursuant to this section is not liable to any person for 
personal injury, death, property damage, damage to the environment or natural 
resources or economic loss that results from the inclusion of denatonium 
benzoate in engine coolant or antifreeze.  The limitation on liability ... 
of this section is only applicable if denatonium benzoate is included in 
engine coolant or antifreeze in the concentrations mandated by this section.  
The limitation on liability provided ... does not apply to a particular 
liability to the extent that the cause of that liability is unrelated to the 
inclusion of denatonium benzoate in engine coolant or antifreeze."

	The 2002 California law (Section 17582) includes the following 
liability provisions: "A manufacturer, distributor, recycler, or seller of 
an automotive product that is required to contain an aversive agent under 
this section is not liable to any person for any personal injury, death, or 
property damage that results from the inclusion of denatonium in ethylene 
glycol antifreeze."

	The 1992 Oregon law (��431.870 -- 915) includes the following 
liability provisions:
	"(1) A manufacturer, distributor or seller of a toxic household 
product that is required to contain an aversive agent ... is not liable to 
any person for any personal injury, death or property damage that results 
from the inclusion of the aversive agent in the toxic household product.
	(2) The limitation on liability provided by this section is only 
applicable if the aversive agent is included in the toxic household product 
in concentrations approved by the Poison Prevention Task Force.
	(3) The limitation on liability provided by this section does not 
apply if the personal injury, death or property results from willful and 
wanton misconduct by the manufacturer, distributor or seller of the toxic 
household product."

	HR 1563 in the 108th Congress included the following liability 
provisions: "LIABILITY-
	(1) LIMITATION- A manufacturer, distributor, recycler, or seller of 
an automotive product that is required to contain an aversive agent under 
this section is not liable to any person for any personal injury, death, or 
property damage that results from the inclusion of denatonium benzoate in 
ethylene glycol antifreeze, provided that the inclusion of denatonium 
benzoate is in concentrations mandated by subsection 
	(a).
	(2) EXCEPTION FOR WILLFUL MISCONDUCT- The limitation on liability 
provided by this subsection shall not apply if the personal injury, death, 
or property damage results from willful or wanton misconduct by the 
manufacturer, distributor, recycler, or seller of the ethylene glycol 
antifreeze."

	The current House legislation in the 109th Congress, HR 2567, 
includes the following liability provisions:
	"Limitation on Liability- (1) Subject to paragraph (2), a 
manufacturer, processor, distributor, recycler, or seller of an engine 
coolant or antifreeze that is required to contain an aversive agent... 
shall not be liable to any person for any personal injury, death, property 
damage, damage to the environment (including natural resources), or 
economic loss that results from the inclusion of denatonium benzoate in any 
engine coolant or antifreeze, provided that the inclusion of denatonium 
benzoate is present in concentrations mandated...
	(2) The limitation on liability provided in this subsection does 
not apply to a particular liability to the extent that the cause of such 
liability is unrelated to the inclusion of denatonium benzoate in any 
engine coolant or antifreeze.
        (3) Nothing in this subsection shall be construed to exempt any 
manufacturer or distributor of denatonium benzoate from any liability 
related to denatonium benzoate."

	In fact, the current version of the federal bill improves upon the 
bill in the 108th Congress by unambiguously establishing the liability 
responsibilities of antifreeze and denatonium benzoate manufacturers.  HR 
2567 includes the final provision of the liability section (paragraph (3)) 
to clarify that the liability protections regarding DB extend only 
to antifreeze manufacturers, while paragraph (2) explicitly restricts any 
protections only to the consequences of DB.  

Alternative Bittering Agents
	The three state laws differ in regard to allowing alternative 
bittering agents beyond DB, and the bill passed by the Senate Commerce 
Committee in November 2005 differs as well.  New Mexico law requires 
antifreeze manufacturers to specifically add DB as the sole bittering agent 
to their products.  California law specifies DB as an appropriate 
bittering agent, but allows alternatives to DB if another agent meets the 
same degree of aversion at the same concentration.  Because DB is the only 
chemical that currently satisfies the legislation's bitterness standard at 
the specified concentration, California law effectively establishes a 
mandate requiring manufacturers to use DB to fulfill the state law 
requirements.  Oregon law as passed in 1992 generically called for the 
addition of an aversive agent, but a 1993 litigation settlement regarding 
the statute specifies DB as the sole agent at a required concentration.
	In November 2005, the Senate Commerce Committee considered the 
possibility of allowing alternatives to DB, and the Committee passed a 
bipartisan amendment to allow the Consumer Product Safety Commission (CPSC) 
to propose an alternative bittering agent if the alternative is as effective 
as DB as a bitterant, is compatible with motor vehicle engines, and shows 
no evidence of unreasonable adverse effects on the environment.  The CPSC 
is the federal agency responsible for regulation and enforcement of federal 
laws associated with antifreeze and other consumer products.
	Prestone and the other domestic antifreeze manufacturers supported 
the Senate Commerce Committee amendment allowing alternative bittering 
agents.  The CPSC's requirements, however, are important to recognize. 
Because of DB's unique bittering characteristics, we are able to add a 
minimal quantity of the additive.  Antifreeze manufacturers would have to 
add more volume of other bittering agents to achieve the same level of 
discouragement based on odor and/or taste.  Another important consideration 
is the affect of the alternative bittering agent on an automobile.  DB has 
proven to be a safe substance within motor vehicle engines, and alternatives 
may corrode the engine or impact its functionality.
	Prestone and the U.S. antifreeze industry appreciate the 
deliberative approach that Chairman Gillmor has taken in regard to the 
development of HR 2567, the Antifreeze Bittering Agent Act of 2005.  We 
are ready to assist the Committee as it considers the legislation, and we 
will be happy to answer any of the Committee's questions.

	MR. GILLMOR.  Thank you very much, and we will now go to Mr. 
Patrice Simms, Natural Resources Defense Council.
	MR. SIMMS.  Good afternoon, Chairman and members of the 
committee.  My name is Patrice Simms.  I am a Senior Project Attorney 
with the Natural Resources Defense Council, and I thank you very much 
for asking me here to speak to you today.  I also have written comments 
that I have provided, and I hope that you will accept them.
	MR. GILLMOR.  Everybody's full written statement will be part of the 
record.
	MR. SIMMS.  Thank you very much.  I am not going to strictly follow 
my written comments, but I am going to follow that outline.  And I do 
want to reiterate, at the very beginning, that NRDC is a staunch supporter 
of strong laws to protect people and the environment, including animal 
life, both domestic animals and wildlife.  More specifically, we support 
the idea of making antifreeze a safer product to have in the marketplace.  
We also recognize that one way to do that may be to make antifreeze less 
palatable, therefore making it less attractive and reducing the number and 
seriousness of instances of accidental ingestion, particularly, again, 
among children, pets, and wildlife.  That said, unfortunately, NRDC 
must oppose the bill as it is currently written, and I want to discuss a 
little bit the outline of our objections to the bill and the basis for those 
objections.
	From NRDC's perspective there are two really critical issues.  The 
first one is one that you have heard mentioned again and again here 
today, that the bill currently includes a liability waiver for the 
manufacturers and in fact, apparently for the entire chain, from the 
antifreeze production all the way through the recycling stage.  And this 
waiver essentially holds harmless this entire industry from injury, 
whether it is property damage, whether it is physical injury, permanent 
disability, death, any range in there, as well as environmental harms, 
including harms that would impair our important natural resources such 
as drinking water.  Second, the bill preempts States from regulating 
antifreeze bitterants, and you have heard this from a couple of people 
who have spoken already today States' ability to regulate products that 
are dangerous to people's health and the environment is incredibly 
important, and treading on that ability is something that should be 
avoided.  In this case, the ability for States to act is very important as a 
backstop to any potential injury that might happen down the road, and 
preempting States from that ability is something that we would 
strenuously object to.
	With respect to the liability waiver, as a matter of general 
principle, liability waivers are, in our view, not good policy, especially 
where the underlying requirement, in this case, the requirement for a 
bittering agent to be added to the market product, is imposed to address a 
harm that is directly the result of the production and resale of the product 
itself.  That is the reason that the DB, or the other bittering agent, needs 
to be in the product is because the product is otherwise unacceptably 
dangerous for the public to have.  At least that would presumably be the 
basis for requiring some regulation to make it safer.  And it only makes 
sense to hold the industry that benefits from having that product, that 
highly toxic product, in the marketplace, responsible not only for instances 
of harm caused by the product itself, but instances of harm caused by 
additives that are necessary to make that product acceptably safe, and for 
that reason, the idea of a liability waiver is particularly objectionable in 
this case.
	I would note that the public always carries its share of the risk, 
because the public stands at the frontline whenever any injury does 
occur, and it is fundamentally unfair, in this situation, to insist that the 
public continuing to carry its risk and to not require the industry that is 
benefiting from the product to also carry its risk of possible harm in the 
future.
	Now I would note we have heard a number of things today.  I would 
like to emphasize one of the things that we have heard come up again 
and again, and that is that we know very little about the impact of DB in 
the environment, and that is critically important, and we have included as 
an attachment to NRDC's testimony some summary of the same studies 
that people have spoken about today.  And the fact that we know very 
little means, in our view, it is very unwise at this point to suggest that we 
ought to be waiving liability for this product.  Similarly, in our view, it 
makes very little sense at this point to specifically identify DB as the 
only possible bitterant to be added to antifreeze to make it a safer 
product.  From what we are aware, there is very little reason for that 
limitation and in fact, the primary function of that limitation is to set up a 
justification for a liability waiver.
	MR. GILLMOR.  I don't want to assume, but we are trying to stay 
within our time constraints.
	MR. SIMMS.  Okay.
	Very well.  So I will note only one other point and that is something 
that confuses me a little bit here, and that is that there has been argument 
back and forth about whether or not DB is dangerous or not.  If it is 
dangerous, it is unwise to waive liability.  If it is not dangerous, why is 
the application of liability to the industry problematic?  It would be, if 
you accept that factual basis, it is a negligible risk and so why is that a 
problem?  And from our view, the liability waiver and the preemption of 
State authority, any way you look at the facts underlying this particular 
bill, are inappropriate.  Thank you very much for allowing me to speak.
	[The prepared statement of Patrice L. Simms follows:]

PREPARED STATEMENT OF PATRICE L. SIMMS, SENIOR PROJECT ATTORNEY, NATURAL 
RESOURCES DEFENSE COUNCIL

	Mr. Chairman, and Honorable Members of the Committee, thank you for 
this opportunity to speak with you today about H.R. 2567, the Antifreeze 
Bittering Act of 2005.  
	Allow me to start by saying that NRDC is a staunch supporter of strong 
laws that protect the health and wellbeing of people and animals.  At its 
core, the intent of this bill is certainly positive -- to protect the health 
and wellbeing of children, household pets, and wildlife that may be exposed 
to ethylene glycol (the highly toxic chemical commonly used as automobile 
antifreeze).  We also commend organizations like the Doris Day Animal League 
for pursuing this worthy cause, and the sponsors and supporters of this bill 
for making this important issue a priority. 
	Unfortunately, NRDC must oppose this bill as it is currently written.
 As a general matter, we do not oppose, and in some cases have specifically 
recognized the value of bitterants as one means of reducing the number and 
severity of exposures to toxic chemicals.  However, the inclusion of a 
sweeping liability waiver in H.R. 2567, that would give antifreeze 
manufacturers, processors, distributors, recyclers and retailers, a 
get-out-of-jail-free card with respect to any harm that a bittering agent 
might cause in the future, is simply unpalatable.  This "free pass" would 
apply not only in instances where the bittering agent causes damage to motor 
vehicle equipment, but also where it directly harms people (by causing 
sickness or death) or where it causes environmental damage (including 
impairment of natural resources).  Significantly, the waiver also includes no 
exceptions for harm that results from gross negligence or willful misconduct.
	Additionally, the bill includes a provision that preempts States 
from regulating, in any way and for any reason, antifreeze bitterants (except 
to the extent that the State regulations are identical to the provisions of 
H.R. 2567).  Preempting State authority to adopt stricter rules than those 
required at the federal level is rarely a good policy, and in this case it 
is both unnecessary and unwise.  
	While we support the regulatory objective of making antifreeze a 
safer product, including, as one option, a bittering agent requirement in 
order to reduce the chances of poisoning children, pets, and wildlife, we do 
not understand why this bill mandates the use of a specific bitterant and 
then provides a liability waiver.  We would urge that the legislation simply 
require the use of an effective bitterant that will prevent children and 
pets from consuming this otherwise sweet-tasting toxic product, and allow 
the industry to determine what bitterant might be most safe and effective.  
In our view, it is inappropriate to assign the risks that denotonium benzoate 
(DB) or another bitterant may pose to the public and the environment, rather 
than to the industry that reaps the economic benefit from sale of a toxic 
product that requires a bitterant to be safe.  
	The mandate to use DB exclusively appears to serve no purpose other 
than to create a justification for also including a liability waiver -- a 
waiver that takes important protections away from the American people.  In 
fact, allowing flexibility in the use of bitterants would make it easier for 
industry to respond to any problems that might arise with a particular 
chemical, or to shift to a more effective, more readily available, safer, 
less expensive, or otherwise more appropriate chemical if one were to emerge.  
	There is nothing inappropriate about requiring that the antifreeze 
industry to make a product that is as safe at it can be -- by appropriately 
addressing the attractiveness and availability of its product to children and 
animals (including, e.g., taste, color and safety packaging) and by taking 
responsibility for the toxicity and adverse health and environmental impacts 
of all the product's ingredients (including impacts resulting from 
the use of bitterants).  
	The bill's preemption of State authority to regulate antifreeze 
bitterants is also troubling.  NRDC has a long history of opposing attempts 
to preempt more stringent State law.  In general, in our view, it makes little 
sense to limit the tools available to States in their front line battles to 
protect their citizens and respond to public health or environmental hazards.  
Precluding States from adopting laws more stringent than, or in addition to, 
federal law prevents advances in public health and environmental protection 
and leaves people more vulnerable.  
	While we recognize the importance of the issue that the bill sponsors 
are attempting to address, and we hope that Congress is able to pass a strong 
bill that makes antifreeze a safer product, for the reasons I have outlined 
here, NRDC cannot support H.R. 2567.  
	Once again, thank you for giving me the opportunity to address this 
committee today and explain to you NRDC's position on this bill. 

	MR. GILLMOR.  Thank you.  And next is Dr. Melinda Eyrich, Co-
owner of Urgent Care Veterinarian Hospital.  Dr. Eyrich.
	DR. EYRICH.  Thank you, Mr. Chairman, for the opportunity to speak 
here before this committee today.  I have been a veterinarian for 
approximately 15 years, focusing on emergency medicine for that past 
seven years.  I am a member of the AVA, the American Veterinary 
Association, and I also have a letter from the AVA to submit to record 
today, with me.
	When I was asked to speak here today, I was asked to reflect on 
specific cases of antifreeze poisoning that I have seen over the years as 
an emergency veterinarian, and there are way too many, to be quite 
honest with you.  But one case specifically came to my mind, and I 
would like you to indulge me to relay that case to you today.  
An 8 year-old male golden retriever was presented into my clinic one 
evening in the fall of the year.  He was unable to lift his head, but being a 
golden retriever he could still just very weakly wag his tail as he laid on 
the table.  His lab values showed that he was in kidney failure, and the 
test for ethylene glycol, or antifreeze, in his blood was extremely 
positive.
	And I have to tell you, on the other side of this exam room table 
from me was a family with 2 young boys, approximately the age of 10 
and 12, and they were in tears over their sick friend, and I gave his 
family a very poor prognosis for this dog's recovery.  At that time, I also 
discussed with them the extreme expense involved in trying to treat this 
animal.  The pharmaceutical that we use to treat antifreeze poisoning is 
called Antizol, and it is approximately $300 a vial.  It is an extreme 
financial hardship for most families, and in most families the cost of 
treating this disease is actually prohibitive.  But this family decided, 
because of the extreme worth to this family that this dog was, that they 
were going to go ahead and try to treat this animal.  So over the next 3 
days we tried to save this dog, and in the course of visits with his family, 
I got to know them and I got to know the relationship they had with this 
dog.  This animal was a gift.  He had played fetch with the boys, he had 
gone swimming with them in the summertime, he had slept on one of the 
boys' beds every night, faithfully, and he waited for them to come home.  
But at the end of the 3 days, we were not able to save this dog and the 
decision was make to humanely euthanize him, in the face of worsening 
lab work.
	But as we sat around this dog after we had euthanized him, the 
younger of the two boys looked at me and he asked me a question and he 
said, "Why does antifreeze kill dogs?"  And I started with a medical 
explanation of why antifreeze kills dogs.  I said, "It causes kidney failure 
and sometimes we can't reverse that process."  But part way through my 
explanation, he interrupted me and he said, "No.  What I want to know 
is, why do we have a substance around so commonly that kills dogs?"  
His statement to me was everybody has it.  And then I tried to explain to 
him that it was not the intention of antifreeze to kill dogs.  It is the 
intention of antifreeze to help car engines.  And his response to me was, 
that doesn't make it right.  And he was correct, it doesn't make it right.
	As I looked at my own two children before I left today, I realized 
that there are enough things that are difficult to explain to children in this 
world, that if we have a chance to change something that is very difficult 
to explain to them, then maybe we should act and try to do that.  This 
seems like a very simple solution to a very deadly problem.  
Antifreeze, for dogs, is not only deadly, but it is attractive.  It has a 
sweet taste, as you have already learned today.  I can tell you, 
anecdotally, dogs do not like bitter tastes.  Also, this toxicity, as I have 
already mentioned, is also not only emotionally taxing for families, but it 
is financially taxing for families.  I am fortunate.  I live in the State of 
New Mexico.  We already have a law in place requiring a bitterant added 
to antifreeze.  I would like to see help for my peers in the other 47 States, 
as it sounds like they need help with this issue.  Thank you for your time.
	[The prepared statement of Dr. Melinda Eyrich follows:]

PREPARED STATEMENT OF DR. MELINDA EYRICH, DVM, CO-OWNER, URGENT CARE 
VETERINARIAN HOSPITAL

	Thank you Mr. Chairman for the opportunity to testify before the 
committee today.
	My name is Dr. Melinda Eyrich; I have been a veterinarian for the 
past 15 years, focusing on emergency medicine for the past 7 years.  I am the 
owner of Urgent Care Veterinary Hospital in Albuquerque, New Mexico. 
	When I was asked to speak today, I was also asked to reflect on 
specific cases of antifreeze poisoning.  One case in particular jumped into 
my mind.  An 8 year old male Golden Retriever.  He presented in the fall of 
the year, unable to raise his head but he could still weakly wag his tail.  
He was in kidney failure.  The test for the presence of ethylene glycol in 
his system was strongly positive.
 	On the other side of the exam table from me were two young boys, in 
tears, over their sick friend. Their approximate ages were 10 and 12 years 
old.  I gave the family a very poor prognosis for recovery.  The decision 
was made to try and save this important family member.  As we worked to 
save him over the next three days, the two boys recalled countless stories 
of how he had shared their youth.  In their young eyes, This Golden 
Retriever had shared their entire lives.  He had played fetch, swam and 
slept on their beds. This friend had waited loyally for them to return on 
the bus at the end of each day.
	The most effective treatment for ethylene glycol poisoning is very 
expensive.  I am not able to mark up the drug we use because, at approximately 
three hundred dollars a vial, the expense is prohibitive to most families.  
At the end of three tear-filled and heart wrenching days--in the face of 
worsening lab results--we could not save this family member.  
	These boys witnessed a horrible painful death until the difficult 
decision was made to euthanize their friend.  When the younger boy asked why 
antifreeze kills dogs, I initially started to explain the clinical reason 
for the kidney failure it causes.  Part way into my explanation, he 
interrupted me and reworded his question so that I understood that what he 
was really asking is why do we have something so commonly around that kills 
dogs.  I remember him saying "everyone has it".   I tried to explain that was 
not its intended use and that his friend's death was an accident.  He replied 
"that does not make it all right."
 	He was correct.  The events of this world can be hard enough to 
explain to children.  If we have a chance to lessen some of the wrongs, and 
make them right, we should act.
 	The addition of an agent to make antifreeze taste bitter appears to 
be a practical simple solution, to a very deadly killer.  This type of 
toxicity is not only emotionally taxing for families but a financial 
hardship as well -- usually in the face of a guarded prognosis.  I would 
love to be able to never dread the change of seasons, when well-meaning 
people change their antifreeze and do not dispose of it safely.  It would be 
a celebration to never lose a friend to something that could be made 
preventable.
 	Thank you. 

	MR. GILLMOR.  Thank you, Doctor.  Mr. Tom Bonacquisti.
	MR. BONACQUISTI.  Bonacquisti.
	MR. GILLMOR.  Okay.  Good.  The Director of Water Quality and 
Production, Fairfax County Water Authority, and he is testifying on 
behalf of the American Water Works Association.
	MR. BONACQUISTI.  Good afternoon, Mr. Chairman and members of 
the subcommittee.  I am Tom Bonacquisti, Director of Water Quality and 
Production for the Fairfax County Water Authority in Fairfax County, 
Virginia.  I am here on behalf of the American Water Works Association, 
or AWWA.  AWWA commends you for holding this hearing and 
appreciates the opportunity to present its views on H.R. 2567, the 
Antifreeze Bittering Act of 2005.
	Founded in 1881, AWWA is the world's largest and oldest scientific 
and educational association representing drinking water supply 
professionals.  Our membership, over 57,000 strong, is comprised of 
administrators, utility operators, professional engineers, contractors, 
manufacturers, scientists, professors, health professionals, and ordinary 
citizens.  The association's membership includes over 4,800 utilities that 
provide over 80 percent of this Nation's drinking water.  AWWA and its 
members are dedicated to providing safe, reliable drinking water to the 
American people.
	AWWA commends efforts to protect children and animals from the 
dangers of ingesting antifreeze.  We support efforts to find a solution to 
prevent the tragedies that occur when children or animals ingest toxic 
doses of antifreeze.  As an association of professionals dedicated to 
protecting public health, we can relate to the desire to ensure that 
children and animals don't accidentally ingest a poisonous compound.  
AWWA's members work everyday to ensure that millions of Americans 
have safe, high-quality water.  We understand that if antifreeze had a 
bitter taste, some needless suffering and expense might be avoided.
	In our statement today, we will not comment on how best to achieve 
the goal of protecting our children and pets from antifreeze poisoning, or 
which bittering agent to use.  Those issues lie outside of our area of 
expertise.  We have serious reservations about statutorily mandating a 
specific bittering agent and specific concentrations of that agent.  We 
generally believe those kinds of decisions should be left to the regulatory 
process, in which all available scientific data can be examined and 
decisions can be made with opportunity for public review and comment 
and outside an overtly political process.
	We also have very serious concerns about language in the bill that 
waives the liability of any manufacturer, processor, seller, or recycler of 
antifreeze containing the prescribed adversive agent from any damages 
arising from natural resource or environmental damages.  This provision 
is unwise, unsound, and unfair and should be removed from the bill.
	In this statement, I will primarily address the liability issue, 
which is our chief concern with the bill.  H.R. 2567 requires the use of 
denatonium benzoate, DB, as a bittering agent for antifreeze.  Little is 
known about the environmental fate and transport of DB.  The material 
safety data sheet for commercial formulations of DB are not helpful on 
this matter, as they contain little or no data on the fate and transport of 
this agent.  According to manufacturers, DB is biodegradable and is not 
known to bioaccumulate.  However, studies by other researchers have 
found that the denatonium ion does not biodegrade during treatment in 
typical wastewater treatment plants.  Some research suggests that to the 
extent degradation does occur, it is primarily the result of the breakdown 
of benzoate and that the denatonium ion responsible for the adversive 
taste of the compound is not easily biodegradable.
	Studies also suggest that DB does not adhere to soil, but rather stays 
in and travels with the groundwater.  We believe it is reasonable to 
expect contamination problems as DB accumulates in the groundwater 
supplies.  Given the extreme bitter properties of DB, it appears that tiny 
amounts of the chemical could render drinking water supplies bitter and 
unpalatable.  One manufacturer's material safety data sheet states that in 
cases of accidental release, DB is to be kept out of water supplies and 
sewers.  Given the conflicting and inconclusive data on the fate and 
transport of DB, particularly in water, it would be very imprudent to 
provide far-reaching liability immunity to companies making or handling 
antifreeze containing this chemical or another other adversive agent.
	A liability waiver is of particular concern because sooner or later, 
somewhere, and perhaps in many places, contamination of drinking 
water supplies is likely to occur.  When that happens, drinking water 
utilities will be forced to treat or remove this compound from the water 
they deliver to their customers.  Our customers will not accept the taste 
of antifreeze in their tap water.  When contamination occurs, drinking 
water utilities will be forced to change or add treatment or removal to get 
DB out of the drinking water.  In severe cases, this could even require the 
abandonment of water supplies and the development of new sources.  
Increasingly, in many areas of the country, such new sources are 
unavailable.  Whatever a drinking water utility is forced to do, it is all but 
certain to increase the cost of water in that community, perhaps 
significantly.  The question will become, who should fairly bear that 
cost?
	History is replete with examples of the unintended consequences of 
measures adopted to obtain laudable goals.  Perchlorate was added to 
munitions to make them more stable.  However, perchlorate is now 
found to be contaminating drinking water supplies.  MTBE, or methyl 
tertiary butyl ether, was added to motor fuels to reduce air pollution.  
However, MTBE contaminated drinking water supplies in many areas of 
the country, and even minute quantities of MTBE made drinking water 
unpalatable.  The cost of cleaning up MTBE-contaminated drinking 
water supplies is conservatively estimated at billions of dollars.
	No one can know what the cost of removing DB from drinking water 
supplies might be, and I am not asserting that it would be billions of 
dollars.  Some contamination of water supplies by DB and some 
increased cost of treatment or removal, perhaps significant, is all but 
inevitable.  It is also important to remember that antifreeze is used in 
large volumes.
	I would like to say, in conclusion, AWWA recommends a regulatory 
rather than a legislative process to identify an adverse agent for 
antifreeze.  We strongly oppose the limitation on liability provisions of 
H.R. 2567 and strongly recommend that liability provisions be deleted 
from this bill.  AWWA and its members thank you for holding this 
hearing concerning H.R. 2567, and thank you for considering our views.
	[The prepared statement of Tom Bonacquisti follows:]

PREPARED STATEMENT OF TOM BONACQUISTI, DIRECTOR OF WATER QUALITY AND 
PRODUCTION, FAIRFAX COUNTY WATER AUTHORITY, ON BEHALF OF AMERICAN WATER 
WORKS ASSOCIATION

                           SUMMARY OF MAJOR POINTS

1.	AWWA commends efforts to protect children and animals from the 
dangers of ingesting antifreeze.

2.	AWWA recommends a regulatory rather than a legislative process to 
identify an aversive agent for antifreeze.

3.	AWWA strongly opposes the Limitation on Liability provisions of H.R. 
2567, and strongly recommends that liability provisions be deleted from 
the bill.

                                  INTRODUCTION

	Good morning Mr. Chairman.  I am Tom Bonacquisti, Director of Water 
Quality and Production for the Fairfax County Water Authority in Fairfax, 
Virginia.  I am here on behalf of the American Water Works Association (AWWA). 
AWWA commends you for holding this hearing and appreciates the opportunity to 
present its views on H.R. 2567 
	-- The Antifreeze Bittering Act of 2005.
	Founded in 1881, AWWA is the world's largest and oldest scientific 
and educational association representing drinking water supply professionals. 
Our membership, over 57,000 strong, is comprised of administrators, utility 
operators, professional engineers, contractors, manufacturers, scientists, 
professors, health professionals, and ordinary citizens.  The association's 
membership includes over 4,800 utilities that provide over 80 percent of the 
nation's drinking water.  AWWA and its members are dedicated to providing 
safe, reliable drinking water to the American people.

                        ANTIFREEZE POISONING IN CHILDREN AND PETS

	AWWA commends your committee's efforts to protect children and 
animals from the dangers of ingesting antifreeze. We support efforts to find 
a solution to prevent the tragedies that occur when children or animals 
ingest toxic doses of antifreeze. As an association of professionals 
dedicated to protecting public health, we can relate to the desire to ensure 
that children and animals don't accidentally ingest a poisonous compound.  
AWWA's members work every day to ensure that millions of Americans have safe, 
high quality water.  We understand that if antifreeze had a bitter taste, 
some needless suffering and expense might be avoided.
	In our statement today, we will not comment on how best to achieve 
the goal of protecting our children and pets from antifreeze poisoning or 
which bittering agent to use. Those issues lie outside our area of expertise.  
However, we do have serious reservations about statutorily mandating a 
specific bittering agent and specific concentrations of that agent.  We 
generally believe those kinds of decisions should be left to the regulatory 
process in which all available scientific data can be examined and decisions 
can be made with opportunity for public review and comment outside an overtly 
political process.  
	We also have very serious concerns about language in the bill that 
waives the liability of any manufacturer, processor, seller, or recycler of 
antifreeze containing the prescribed aversive agent from any damages arising 
from natural resource or environmental damages.  This provision is unwise, 
unsound, and unfair, and should be removed from the bill.  In this statement, 
I will primarily address the liability issue, which is our chief concern with 
the bill.

                                   LIMITATION ON LIABILITY

	H.R. 2567 requires the use of denatonium benzoate (DB) as a 
bittering agent for antifreeze. Little is known about the environmental fate 
and transport of DB.  The Material Safety Data Sheet (MSDS) for commercial 
formulations of DB are not helpful on this matter as they contain little or 
no  data on the fate and transport of this agent.  According to the 
manufacturers, DB is biodegradable and is not known to bioaccumulate.  
However, studies by other researchers have found that the denatonium ion 
does not biodegrade during treatment in a typical wastewater treatment plant. 
Moreover, some research suggests that to the extent degradation does occur, 
it is primarily the result of the breakdown of benzoate and that the 
denatonium ion, responsible for the aversive taste of the compound, is not 
easily biodegradable.
	Studies also suggest that DB does not adhere to soil, but rather 
stays in and travels with the ground water.  We believe it is reasonable to 
expect contamination problems as DB accumulates in the groundwater supplies. 
Given the extreme bitter properties of DB, it appears that tiny amounts of 
the chemical could render drinking water supplies bitter and unpalatable.  
One manufacturer's Material Safety Data Sheet states that in cases of 
accidental release, DB is to be kept out of water supplies and sewers.
	Given the conflicting and inconclusive data on the fate and 
transport of DB, particularly in water, it would be very imprudent to 
provide far-reaching liability immunity to companies making or handling 
antifreeze containing this chemical or any other aversive agent. 
	A liability waiver is of particular concern because sooner or later, 
somewhere, and perhaps in many places, contamination of drinking water 
supplies is likely to occur.  When that happens, drinking water utilities 
will be forced to treat or remove this compound from the water they deliver 
to their customers.  Our customers will not accept the taste of antifreeze 
in their tap water.    
	When contamination occurs, drinking water utilities will be forced 
to change or add treatment or removal to get DB out of the drinking water.  
In severe cases, this could even require the abandonment of water supplies 
and the development of new sources.  Increasingly, in many areas of the 
country such new sources are unavailable.  Whatever a drinking water utility 
is forced to do, it is all but certain to increase the cost of the water 
in that community, perhaps significantly.  The question will become, who 
should fairly bear that cost?
	History is replete with examples of the unintended consequences of 
measures adopted to attain laudable goals.  Perchlorate was added to 
munitions to make them more stable; however, perchlorate is now found to be 
contaminating drinking water supplies.  MTBE  (methyl tertiary butyl ether) 
was added to motor fuels to reduce air pollution; however MTBE contaminated 
drinking water supplies in many areas of the country, and even minute 
quantities of MTBE made drinking water unpalatable. The cost of cleaning 
up MTBE-contaminated drinking water supplies is conservatively estimated at 
billions of dollars.
	No one can know what the cost of removing DB from drinking water 
supplies might be, and I am not asserting that it would be billions of 
dollars.  However, some contamination of water supplies by DB and some 
increased cost of treatment or removal, perhaps significant, is all but 
inevitable.  It is also important to remember that antifreeze is used in 
large volumes in many industrial applications, such as airplane de-icing, 
and that large releases and widespread contamination of water supplies are 
possible.
	Informed by the MTBE experience, we should seek to avoid DB becoming 
the problem that MTBE became.  The impact of even small releases of DB on 
drinking water supplies is unknown. With a widespread mandate for the use 
of DB in antifreeze, the incidence of contaminated drinking water supplies 
can only increase.  If this happens, it would be no more fair to excuse the 
companies making or handling antifreeze from liability than it would be to 
mandate that they be always liable.  The question of liability is and should 
remain a decision that is made based on the facts of particular cases.  

                                       CONCLUSION

	In conclusion, AWWA recommends a regulatory rather than a 
legislative process to identify an aversive agent for antifreeze, strongly 
opposes the Limitation on Liability provisions of H.R. 2567, and strongly 
recommends that liability provisions be deleted from this bill.
	AWWA and its members thank you for holding this hearing concerning 
H.R. 2567 -- The Antifreeze Bittering Act of 2005.  AWWA.  And thank for you 
considering our views.  We will be pleased to answer any questions or provide 
additional material for the committee.

	MR. GILLMOR.  Thank you.  Sarah Amundson, Deputy and 
Legislative Director of the Doris Day Animal League.
	MS. AMUNDSON.  Thank you, Mr. Chairman, and also to Ranking 
Member Solis, for this opportunity to testify in support of the Antifreeze 
Bittering Act.  I am Sarah Amundson, the Legislative Director with the 
Doris Day Animal League, and I also want to express our genuine thanks 
to Representatives Ackerman, Rohrabacher, and Wilson for their 
leadership on this issue.  Do keep in mind that there are more than 58 
million homes in this country that have pets.  We are a Nation of pet 
lovers, and the very thought of having 90,000 of our companion animals 
ingest antifreeze and the majority of them die, on an annul basis, is 
simply unacceptable.  We certainly recognize that there are three States, 
all three of which we have had a hand in moving legislation in, that 
currently have this statutory provision on their books.  I want to remind 
folks that all three of those States also have liability provisions in them.  
So much information has been covered, both through the wonderful 
Member statements that were given with the opening of the hearing, and 
also the folks who have testified.  I would like to go straight to some of 
the considerations that have been raised, in the hope that we can address 
some of these concerns.
	First of all, the Doris Day Animal League would by no means 
advocate for the addition of DB in antifreeze as the panacea to this 
genuine problem.  For obvious reasons we are careful to tell consumers 
and pet lovers that they need to ensure that antifreeze is properly 
disposed of, properly stored, and that the industry's efforts to ensure 
there are child safety caps and foils on the tops of those containers are 
measures of protecting pets.  But what we do know is that animals are 
actually chewing through those containers, which means they are 
ingesting antifreeze, not only from spills on driveways, but also through 
those containers, and that means we need another tool in the toolbox.  
That is the additional of denatonium benzoate in the antifreeze.  We did 
advocate strongly in 2002, in California, for a very similar statute.  We 
have the support of the American Academy of Pediatrics, the California 
Integrated Waste Management Board, and yes, folks, the Sierra Club, in 
that endeavor.  In that situation, we were very pleased to have taken an 
active role, but clearly, as Congressman Ackerman demonstrated, he 
wants to prevent his colleagues in New York from driving to New Jersey 
and exposing pets and children to antifreeze poisonings.  For that reason, 
we have got to have a uniform standard, and obviously, the only way to 
regulate interstate commerce in this country is through a Federal law.
	We are an animal protection organization, which means we are 
necessarily committed to environmental protection.  What that means is, 
we have done a grave analysis of what is known about DB, the 
information that is in the risk assessment profile, consideration for the 
fact that it is between 30 and 50 parts per million that actually goes into 
antifreeze in this country to render it bitter, revisit the fact that it only 
takes 7,000 gallons to render all of the antifreeze covered by this bill in 
this country bitter.  And I just want to make a valuable point here.  There 
has been some misinformation.  This bill will only cover the consumer 
market where we have seen the grave nature of this problem.  It does not 
cover industrial or commercial uses, which means plane deicing is not 
covered by this bill.  We are talking about consumers here.
	In addition, there have been grave concerns raised about the 
liability waiver.  As an animal organization concerned about environmental 
protection, I can say that there is no possible way we would support a 
blanket sort of liability waiver, and it doesn't exist in this bill.  For 
obvious reasons, I am sure if you asked Mr. Bye here, he would state that 
whether it is Superfund, RCRA, or any of the other existing 
environmental statutes in this country, he knows for a fact that they will 
still be responsible for cleanup for ethylene glycol antifreeze.
	Let us get to the volume issue again.  DB is not handled, stored, or 
used in the same sort of volume as the additive MTBE in this country, 
and I think Congressman Ackerman did a wonderful job of illustrating 
the nature of 80 million gallons, on a daily basis, of MTBE versus 7,000 
gallons for the entire product of antifreeze covered under the bill, on an 
annual basis.  I wish Congressman Ackerman, with his illustrative points, 
had taken that cup of denatonium benzoate and showed us just how little 
of that cup would go into that one-gallon containing, because at 30 to 50 
parts per million, you are probably talking about the tip of my finger.  
That is how little DB would go into a single container.
	You know, a lot of concerns have been raised today, and in other 
situations, with regard to water quality.  Today, I want to introduce into 
the record, with the Chairman's permission, a letter we have received 
from the California State Water Resources Control Board, appointed by 
the Governor, stating that, "Even though it is regarded as the bitterest 
known substance to date, we are unaware of adverse impacts to 
California's water supplies arising from the use of denatonium benzoate 
in antifreeze and a variety of other products."
	Further to that point, I want to note that this statute has been on 
the books in the State of Oregon since 1993, and I have a direct quote from a 
Maine environmental protection report from their State toxicologist.  "No 
incidents of drinking water well contamination or groundwater 
contamination or bad tasting water due to denatonium benzoate have 
become known."  And of course, Ranking Member Solis referred to the 
California Integrated Waste Management report that found that DB 
readily biodegrades and its transport is attenuated in soil.
	We have also had a number of concerns raised about the efficacy of 
DB, and I would like us to take into consideration a weight-of-evidence 
approach, which is what we often do with chemicals.  If EPA is 
demonstrating what they know about the risk profile, on the basis of the 
testimony presented here today, it seems to me that much of the criticism 
about the efficacy of DB has come from a 2004 review of the Oregon 
Poison Control Center records of pediatric poisonings.  I want to point 
out two quick things here.  First and foremost, the majority of problems 
we have in this country of ethylene glycol poisoning are household pets.  
There is no reporting requirement for household pet ingestions or deaths 
in Oregon, so the issue was not even considered.  When it comes to 
efficacy, we have definitely got to take that issue to heart.
	The survey also measured exposures, but didn't measure the level of 
DB in products consumed.  A 1996 Oregon study, after the bill was 
implemented, did a study of the measurement of DB in the products that 
were regulated and there were some that had no detectable amounts.
	MR. GILLMOR.  We will have to wrap up pretty quickly.
	MS. AMUNDSON.  Yes, sir.  Efficacy has also been studied by EPA.  
When you consider rodenticides and the previous requirement to ensure 
both dyes and bittering agents were included in rodenticides, EPA did a 
review of the scientific data and considered it the bitterest substance 
known to man.  It did not compromise the value of the rodenticides, and 
the conclusion was that it also prevented children's exposure or 
children's ingestions of that product.  Antifreeze poisonings cause animal 
suffering and great death.  We have a solution here for pennies per 
gallon, and together, we can find a way to mark this bill up and move it 
forward, and really address the 90,000 deaths that we are seeing each 
year.  Thank you, Mr. Chairman.
	[The prepared statement of Sarah Amundson follows:]

PREPARED STATEMENT OF SARAH AMUNDSON, DEPUTY AND LEGISLATIVE DIRECTOR, 
DORIS DAY ANIMAL LEAGUE

	Good afternoon.  Thank you Mr. Chairman and members of the 
Subcommittee for the opportunity to testify today in support of the 
Antifreeze Bittering Act.  I am Sara Amundson, Legislative Director for the 
Doris Day Animal League (DDAL).  DDAL has 350,000 members and supporters 
nationwide who strongly support H.R. 2567.  The organization was founded in 
1987 to promote the protection of animals through legislative advocacy in the 
states and on the federal level.  DDAL is grateful to Representatives 
Ackerman, Rohrabacher, and Wilson for their leadership on H.R. 2567, a 
bill with the ultimate goal of better protecting animals and children from a 
common household hazard.
	This bill enjoys broad support from an unlikely coalition of animal 
advocacy organizations, public health organizations, and the antifreeze 
industry.  In addition to DDAL, these supporters include the American Humane 
Association, The Humane Society of the United States, the Society for Animal 
Protective Legislation, Honeywell and all U.S. antifreeze manufacturers, the 
Consumer Specialty Products Association, the American Academy of Pediatrics, 
the American Veterinary Medical Association, and the Pet Food Institute.  

Animals and Children are Exposed to Antifreeze
	For the past fifteen years, the DDAL has been tracking ingestions of 
antifreeze by pets and wildlife.  Poisoning occurs with this product because 
it is often inadvertently spilled in our driveways or left in open containers 
in our garages by automotive "do-it-yourselfers."  In addition, a neighbor 
wishing to rid himself of a barking dog or wandering cat may deliberately bait 
a pet, instigating a cruel solution to a neighborhood squabble.  
	Because it is colorful and has a sweet taste, animals and children 
are drawn to it.  Animals may quickly ingest a lethal amount.    One 
teaspoonful of ethylene glycol antifreeze can kill a cat.  As little as one 
to two tablespoonfuls can kill a 100-pound dog.  One survey found that two out 
of three veterinarians see at least one accidental ethylene glycol poisoning 
each year. The Washington State School of Veterinary Medicine places the 
annual number of dog and cat antifreeze poisonings at approximately 10,000; 
however, a 1996 "study of small practice veterinarians throughout the United 
States found that more than 90,000 dogs and cats die each year from ingesting 
ethylene glycol antifreeze."<sup>1  Unfortunately, the symptoms of poisoning 
can be misleading, causing the pet lover to think the animal is merely sleepy 
until renal failure causes death.
	Moreover, according to statistics compiled by the American 
Association of Poison Control Centers, more than 1,300 children ingest 
antifreeze each year.  The U.S. National Library of Medicine Toxicology Data 
Network states that the minimum lethal dose for a 150-pound male is 4 ounces, 
which means it takes far less to kill a child.  While records indicate that 
accidental ingestion by children is caught early enough to prevent death, not 
all human victims recover because not all ingestions are accidental.  Ethylene 
glycol antifreeze is also used in murders and suicides.

Denatonium benzoate
	The good news is that, unlike many of the issues we grapple with, 
this one has a ready solution.  DDAL certainly considers safety caps, seals, 
and public education necessary.  However, three states and several other 
countries have chosen to employ an additional tool, which is requiring the 
addition of denatonium benzoate (DB) to antifreeze that is sold directly to 
the consumer.  
	Denatonium benzoate is one of the bitterest substances known and 
available to us.  In 1963, the Food and Drug Administration (FDA) approved 
the addition of DB to cosmetic and toiletry products, including nail polish, 
hair spray, and cleaners, as a safety mechanism to deter children from 
ingesting them.  The U.S. Bureau of Alcohol, Tobacco, Firearms and Explosives 
(27 CFR 21.76) currently requires that all industrial alcohol-based products 
contain a bittering agent and specifically requires the use of DB in certain 
products as a denaturant, making the product unpalatable.  The addition of 
the bitterant has not compromised the usefulness of the products.  
	Requiring the addition of DB to ethylene glycol antifreeze destined 
for the consumer retail market has the potential to save thousands of animal 
lives and prevent hundreds of children from being sent to emergency rooms 
each year.  DDAL strongly urges your support of this small, common-sense 
measure, literally costing pennies per gallon, to achieve significant, 
beneficial results.

California State Law
	The Doris Day Animal League has a long history of lobbying in 
support of state legislation to require the addition of denatonium benzoate 
to make antifreeze unpalatable to both animals and children.  In 1993, in
response to concerns from veterinary emergency rooms, DDAL members who had 
lost a beloved pet, the death of a California condor, and the startling 
statistics on children gathered annually by the American Association of 
Poison Control Centers, we successfully lobbied the California legislature 
to require the addition of denatonium benzoate to antifreeze and coolant 
products.  In spite of significant opposition mounted by the manufacturers 
of antifreeze, the bills passed with overwhelming votes in both the 
California Assembly and Senate.  Unfortunately, the governor vetoed the bill. 
	Then in 2000, after losing her family's beloved dog Angus to 
antifreeze poisoning, Californian Lauren Ward began researching the solution 
to her family's tragedy.  She contacted her state legislators to demand to 
know why the simple addition of DB to antifreeze to help prevent these 
unnecessary deaths wasn't required by the state.  Fortunately, her 
assemblyman agreed to introduce a bill to require the bitterant be added.
	Our research in support of the California bill demonstrated that in 
the ten years that had passed, despite the voluntary efforts by the 
antifreeze industry to educate the public, large numbers of animals were 
still being poisoned from ingesting antifreeze.  In 2001, 13 California 
veterinary clinics reported 136 cases of antifreeze poisoning with 107 
deaths.   Antifreeze poisoning continued to send many children to the 
hospital.  Working with Lauren Ward and members of the California State 
Senate and Assembly, we lobbied again for passage of an antifreeze bittering 
bill.  The California Medical Association, American Academy of Pediatrics, 
California Veterinary Medical Association and the California Integrated 
Waste Management Board all supported the legislation.  Over the 
objections of the antifreeze industry, the bill passed and was signed into 
law in 2002.  
	Subsequently, we have worked with legislators in several other 
states in support of bills to require the addition of denatonium benzoate 
to antifreeze.  Last year, New Mexico became the third state to pass such a 
bill into law.  And that language is identical to the federal bill before 
you today.
	DDAL strongly supports the pursuit of progressive state policies. 
However, because of the nature of commerce in this country and because 
these poisonings occur regardless of state lines, it is imperative to pass 
a federal bill to ensure that the goal of reducing antifreeze poisonings is 
realized.  It is important to extend to each child and every animal the 
extra layer of protection that these states have so wisely adopted.  This 
can be accomplished in a timely and sensible manner only through federal 
action.  A product marketed and distributed on a national basis should have 
a national standard to meet.  
	Moreover, the absence of a federal law undermines the effectiveness 
of existing state laws:  The ease of interstate transportation necessitates 
a uniform policy to prevent antifreeze spills in California from cars driving 
into the state from Nevada.  It is impossible to judge the effectiveness of 
these new state laws based on the interstate nature of the problem.  In fact, 
the U.S. Conference of Mayors, at its 2004 annual meeting, passed a resolution 
urging Congress to "help cities protect children and animals by enacting 
legislation to require denatonium benzoate as an additive to antifreeze that 
contains ethylene glycol...."

Concerns and Questions
	We would like to address and, we hope, allay, some of the concerns 
about this legislation that have been raised.   First and foremost, 
comparisons have been made between this legislation and the methyl tertiary 
butyl ether (MTBE) issue, but there are significant and meaningful differences 
between the two.
?	Contrary to characterizations that have been made, there is no 
blanket liability waiver in the bill before you today.  While the MTBE 
liability language would also have extended to MTBE manufacturers, H.R. 2567 
does exactly the opposite:  It holds the manufacturers of antifreeze and of 
DB liable for their respective products, without limit.    All three state 
laws (California, New Mexico and Oregon) include some form of liability 
protection for antifreeze manufacturers.  H.R. 2567 goes a step further than 
California's and Oregon's laws by establishing "assigned liability" under 
which antifreeze manufacturers and denatonium benzoate manufacturers are 
liable for any problems that arise from the use of their respective product. 
DDAL would not support legislation that exempts manufacturers from liability 
for their products.
?	In 1999, MTBE use amounted to 8.4 million gallons PER DAY (3 billion+ 
gallonsper year), whereas approximately 7,000 gallons annually of DB will be 
needed to bitter the antifreeze covered by the legislation (i.e., 157 million 
gallons).  According to a report commissioned by the Maine legislature:  "One 
gallon of reformulated gasoline, if spilled, would release a mass of 308g of 
MTBE to the environment.  It would take 2704 gallons of treated antifreeze to 
release an equivalent mass of denatonium benzoate."  
?	MTBE was able to cause such damage to drinking water supplies in 
large part  because gasoline is stored in underground tanks.  About 9 million 
gallons of gasoline are released to the environment each year due to spills 
and leaks.  At no time is either DB or antifreeze stored underground. 
That same report by the Maine Department of Environmental Protection cited a 
conversation with Ken Kaufmann, Oregon's state toxicologist, in which he 
stated that "'no incidents of drinking water well contamination or groundwater 
contamination or bad tasting water due to denatonium benzoate have become 
known.'"  
?	EPA data indicate that MTBE is a potential human carcinogen at high 
doses.  At low doses, such as the low levels needed for aversion, DB exhibits 
low mammalian, avian, and aquatic toxicity.  There is a record of only one 
negative reaction to DB, which occurred in 1978 in a hypersensitive man. 

Efficacy Issues  
	Questions have been raised about whether the addition of DB to 
antifreeze will indeed prevent poisonings.  Most of those expressing doubts 
about DB's efficacy point to a June 2004 retrospective review by Mullins and 
Horowitz of Oregon Poison Control Center (OPCC) records of pediatric exposures 
to antifreeze and windshield washer fluid for the period 1987-2003, as well 
as  coroner reports of poisoning deaths between 1994-1997.    OPCC reported 
"no change in frequency" of pediatric poisoning frequency after 1995.  The 
authors also found that "no child died or suffered 'major' effects before or 
after 1995."  They concluded, "The mandatory addition of denatonium benzoate 
to automotive products has produced no measurable reduction in unintentional 
pediatric toxic alcohol exposures in Oregon."
	Not only are there deficiencies in this report, but it must also be 
placed in the context of other reports that point to the efficacy of DB.
?	The overwhelming problem with antifreeze poisonings, in terms of 
number and mortality, occurs among animals, chiefly household pets.  The 
Mullins/Horowitz review does not even consider this aspect of the issue.  
Unfortunately, it would be difficult to perform a similar evaluation of 
animal poisonings as there are no reporting requirements, in Oregon or 
elsewhere.
?	This evaluation actually argues in support of a uniform national 
standard inasmuch as it does not account for the effect of the use or misuse 
of antifreeze purchased outside Oregon.	
?	The Mullins/Horowitz retrospective survey does not take into account 
variable levels of DB in antifreeze and windshield washer fluid.  A state 
study  done in 1996 found considerable variability in the amount of DB 
present in various consumer products.  The availability of consumer products 
that are not in compliance with the law suggests not merely that the impact 
of the law (i.e., decrease in child and animal poisonings) may not be 
measurable for some time, but also that the purpose of the law is actually 
undermined. This situation argues in favor of a uniform federal standard for 
bittering antifreeze. 
?	This is not the only indication that the Mullins/Horowitz survey may 
have been premature.  A 2001 analysis of data by the staff of the California 
Integrated Waste Management Board (CIWMB) suggests that it would be 
ill-advised to make judgments about the efficacy of denatonium benzoate on 
the basis of experience over a relatively short time period by noting that 
"[c]omparatively, it took 17 years to conclusively prove that child-resistant 
caps were effective in reducing child exposures in general."  

	It is true that data on the efficacy of DB are not abundant, and 
that data exist on both sides of the question.  That being said, however, 
there is evidence of its usefulness in preventing or mitigating ingestion of 
substances by children and animals.   
	For example, in its memo supporting West Harlem Environmental Action 
v. U.S. EPA, the Natural Resources Defense Council  wrote:  "�EPA claims that 
it revoked the bittering agent requirement because of efficacy concerns, but 
EPA's own analysis disproves these concerns. Before requiring the safety 
measures, EPA reviewed scientific studies on denatonium benzoate, a possible 
additive and 'the bitterest substance known to man.' EPA 0113I. A field study 
of a rodenticide containing 10 parts per million of this bittering agent 
resulted in a '95% reduction in rodent activity.' Id. The same level of 
bittering agent in different household products 'was found to reduce the 
amount ingested by children.' Id. This record evidence supports the 
conclusion that a bittering agent can effectively control rats and deter 
children's exposure." 
	In 1963, the FDA approved the addition of denatonium benzoate to 
cosmetic and toiletry products as a safety mechanism to deter children from 
ingesting these products.   It is used in hundreds of products to render them 
unpalatable, including cleaning agents, other household products, cosmetics, 
and personal care products�everything from detergents and aftershave to fire 
extinguisher fluid, gasoline, pesticides and herbicides, ink, wax crayons, 
nail polish remover, bubble bath, hair spray, and eyeshadow.  It is even 
in veterinary sprays and ointments.  In 1989, the U.S. Department of 
Agriculture approved it for food plant use.
	Also, according to the Center for the Science and Engineering of 
Materials , DB "is recognized as the bitterest substance known.  When it is 
added in only minute quantities to potentially harmful household, garden or 
automotive products, this harmless additive renders these products unpalatable 
and becomes a powerful deterrent against poisoning especially in young 
children."
	Likewise, the CIWMB staff study also found "that the addition of 
denatonium benzoate may not prevent exposures, but it would significantly 
reduce the amount ingested, hence the severity of exposures.  Numerous 
studies have shown that it does repel animals, though until it is used 
extensively in antifreeze, the magnitude of its effectiveness for animals 
in ethylene glycol based antifreeze will be difficult to verify."
	One such study is "Denatonium benzoate as a deterrent to ingestion 
of toxic substances: toxicity and efficacy" , in which the authors conclude 
the following:

	"Since there is evidence that some taste aversion agents reduce the 
quantities of liquid substances ingested by dogs, and there is evidence that 
denatonium benzoate reduces ingestion quantities by children, denatonium 
benzoate may reduce the seriousness of accidental exposures to harmful fatal 
substances in dogs.  This deterrent potential in animals needs to be 
investigated further.  Denatonium benzoate should be added to toxic 
substances available in and around homes which, when ingested, represent 
serious hazards to animals and children."

	Given that there is evidence of an aversive reaction to DB by 
animals; that there is no evidence indicating animals or children might be 
harmed by this safety measure; and that animals are likely to benefit from 
this step and children almost certainly will benefit�coupled with the long 
history of DB's use (and recognized value) as a bittering agent�a strong case 
can be made in favor of a policy decision to require the addition of a 
bittering agent to this indisputably toxic substance even in the face of some 
scientific uncertainty.   We feel that this is a wise step to take since the 
possibility exists for preventing some poisonings or at least mitigating the 
severity of those that do occur.  

Environmental Issues 
	As an animal protection organization, we would not advocate the use 
of chemicals that would harm the environment, animals, or human health, so 
we do not take lightly the environmental concerns that have been raised about 
DB.  We have based our support for adding denatonium benzoate to ethylene 
glycol antifreeze not only on the prospect of preventing poisonings, but 
also on an extensive record of safe use both here and abroad.
?	DB is a chemical that has been used safely and effectively as an 
aversive agent in this country for over 40 years; as noted earlier, in 1963 
the FDA approved its use in cosmetics and toiletries to deter children from 
ingesting them.  It is used in dozens of other household and personal care 
items, cleaning agents, and many other products, such as deer repellent, that 
make their way into the municipal waste stream or are deposited directly on 
or applied to the environment.  Bitrex, one of the commercial brands of DB, 
"has been officially recognized as the denaturant of choice in more than 40 
countries."
		While some data gaps exist for hazard identification, state 
and federal regulators ultimately assess for risk.  With that in mind, it 
should be noted that:
?	The CIWMB staff analysis found that DB "readily biodegrades, its 
transport is attenuated by soil, and it is easily treated in sewage treatment 
systems and drinking water systems.  Staff has determined that the addition 
of [DB] to antifreeze would not lead to any adverse health or environmental 
effects."
?	DB exhibits low mammalian, avian, and aquatic toxicity, especially 
at the levels used for aversion.
?	Ethylene glycol antifreeze is already rigorously managed as a 
hazardous substance; waste antifreeze may contain lead, cadmium, and other 
heavy metals.  According to EPA, dumping antifreeze can cause serious water 
quality problems.  Therefore, the industry urges consumers and large-scale 
users to dispose of used antifreeze properly.  That will not change when DB 
is added in the minute quantities needed as a bittering agent.  The Consumer 
Product Safety Commission's testimony at the Senate hearing confirmed that 
DB will contribute little or no incremental hazard or risk to human health 
when added to ethylene glycol antifreeze.

Conclusion
	Antifreeze poisoning causes animals great suffering and often death. 
In addition to the accidents that happen, DDAL knows of numerous cases where 
individuals have deliberately given antifreeze to animals because they wanted 
to kill them.  Our very informal tally of cases of both deliberate and 
accidental poisonings includes eight alleged antifreeze deaths in Iowa, and 
others in Florida, Maine, Michigan, Missouri, Montana, Mississippi, 
Pennsylvania, Tennessee, Texas, and elsewhere.  We worked with a family in 
Georgia who sought justice for their two dogs killed by a belligerent 
neighbor.  State Representative Kathy McCoy, who successfully carried the 
bill in New Mexico, lost her own companion animal in the same way.  Suicides 
and murders involving antifreeze have occurred in Florida, Georgia, Kansas, 
Maryland, Massachusetts, Missouri, New Jersey, and Pennsylvania.
	Where the perpetrator in a deliberate poisoning case is known, it 
often is a neighbor; occasionally, it is an adolescent just starting down 
the path of antisocial behavior.  They use antifreeze because it is easy to 
get, easy to give, and almost guaranteed to kill.  
	Because of its widespread acceptance, and because consumer demand 
for less toxic alternatives has been slow to develop, we fully expect 
ethylene glycol-based antifreeze to continue to dominate the market for the 
foreseeable future.  Therefore, accidents will continue to happen despite 
the best prevention and precautions, and sadly there are always those who 
seek an easy way to harm animals. These are needless tragedies that touch 
many lives.  This legislation will do much to prevent both kinds of 
tragedies from happening.
	Please support moving H.R. 2567, the Antifreeze Bittering Act, to 
the floor for consideration by the full House of Representatives.

	MR. GILLMOR.  Thank you very much.  With regard to the letter that 
you wanted entered into the record, without objection, hearing none, it 
will be entered in the record.
	[The information follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. GILLMOR.  Let me start with Mr. Simms.  A couple of 
questions.  You talked about the necessity of balancing risk, and it was 
unfair that the public bear the whole risk.  If we look at this situation, we 
know on one side there is a risk of death to children, and, if Mr. 
Ackerman's testimony is correct, 1,400 children a year, that means on 
average we have more than 100 children every month dying from the 
lack of a bitterant in antifreeze.  On the other hand, we weigh the 
chemical DB, which so far we have no evidence of a risk, and we know 
it is used in hundreds of products, and in this case it would be a very 
minimal use, only 7,000 gallons.  Would you explain to me how it is a 
good value judgment on our part to let 100 children die a month, instead 
of taking a small amount of this agent, which has no risk shown, and 
trying to save those children?
	MR. SIMMS.  I will answer your question, but I want to make a 
couple of clarifying points.  One, our objection is to the liability waiver.  
Removing the liability waiver does not--
	MR. GILLMOR.  If the liability waiver were not in here, would you 
support the bill, saying we ought to mandate the addition of DB, period?
	MR. SIMMS.  What we object to is the liability waiver and the 
preemption of State authority to regulate.
	MR. GILLMOR.  Well, you still haven't answered my question.
	MR. SIMMS.  Okay, I will answer.  If those two points in the bill 
were absent, we would not be objecting to the bill.
	MR. GILLMOR.  And not be objecting?
	MR. SIMMS.  That is correct.
	MR. GILLMOR.  Is that the same as supporting or is that the same as 
waffling?
	MR. SIMMS.  I will give you the best answer that I can give.  The 
only reason that we are objecting to the bill is the liability waiver and the 
preemption.  Assuming that those two things were gone, we would look 
at the bill again and determine whether it was worthy of support.  Given 
the balances that you have just discussed, my assumption is that we 
would support it.  And in fact, we are strongly in support of bills such as 
this that have, as their objective, the protection of public health and the 
environment, and in fact, have recognized bitterants as a way of 
achieving that for poisons that otherwise are--
	MR. GILLMOR.  Let me ask you, in terms of preemption, would you 
agree that there are certain cases in a national market where a product 
made in one State is shipped to all 50 States, as Mr. Ackerman pointed 
out, a car drives all the way across the country with that product, isn't 
there a reason, which we do in a lot of cases, for having a uniform 
standard?  What is the holy grail of not having a national standard when 
you are talking about a chemical like DB and you are talking about a 
product that is used all over the country.  The antifreeze that I get in Ohio 
isn't any different than the antifreeze in Florida or Kentucky.  Why 
shouldn't there be a national standard?
	MR. SIMMS.  I am not suggesting that there should not be a national 
standard.
	MR. GILLMOR.  Well, that is what preemption is.
	MR. SIMMS.  But let me clarify.  I mean, what we are suggesting is 
that if Congress decides to adopt a national standard and that standard 
says, use a bitterant and use it, sufficient to be adversive for this highly 
toxic material, then States should be able to regulate beyond that to the 
extent that they believe it is necessary to protect their citizens, but it 
wouldn't preclude that national standard from being in place.
	MR. GILLMOR.  But it wouldn't be a national standard.  It could be a 
national standard--
	MR. SIMMS.  It would not be a uniform national standard.
	MR. GILLMOR.  --with 50 different amendments.
	MR. SIMMS.  It is not clear to me why there is any expectation that 
that would happen and why, therefore, there is a need to preempt that in 
the bill.
	MR. GILLMOR.  Well, it is already happening.  You have three States 
adopting a different standard, and you have 10 others considering it, so I 
mean that is the concern.  Let me ask you just one more thing, regarding 
your concern with DB.  On March 29 of last year, your organization 
submitted a motion for summary judgment in West Harlem 
Environmental Action v. U.S. EPA.  In that case, you argued that the 
EPA should require a bittering agent, including DB, in rat poisoning, to 
protect against unhealthy ingestion by children and deer, and you stated 
the evidence from DB tests supports a conclusion that a bittering agent 
can effectively control rats and deter children's exposure.  So I mean, 
why do you think Governor Richardson, who sent us a letter in support 
of the bill and a letter against the bill--
	MR. SIMMS.  Respectfully, I disagree.  We are not suggesting that 
bittering agents cannot be effective ways to prevent unwanted ingestion 
of harmful chemicals.  Far from that; we have recognized them as a 
valuable means of doing that.  Some context to that particular case: what 
we were challenging was EPA's withdrawal of the protection of bitterant 
and marking dyes in rat poison, which it had decided to impose, based on 
a specific finding that rat poison posed an unacceptable risk to health, 
poisoning in the range of 15,000 to 50,000 children a year, and we 
argued that they could not remove that protection without imposing some 
alternative protection for human health and accidental poisonings.  And 
in doing so, we argued that they needed to reimpose that requirement, 
that we acknowledge would protect people from unwanted poisonings.  
But by no means is our position here inconsistent.  We do not argue here 
that bitterants are ineffective or we know nothing about their use in 
antifreeze.  We have not looked at that or studied that.  We certainly 
would say that they are effective in some context and very useful in some 
context.  The problem here is with letting industry off the hook for any 
liability that might occur down the road, in an instance where some harm 
does occur.
	MR. GILLMOR.  We could pursue it further, but my time has expired, 
so let me go to Ms. Solis.
	MS. SOLIS.  Thank you.  My question is for Dr. Eyrich.  Did I 
pronounce that correctly?  I wanted to ask you if you would support 
mandating the use of another antifreeze formulation called propylene 
glycol, which would be significantly less toxic and meets the testing 
standards for an engine coolant and corrosion properties?
	DR. EYRICH.  Thank you for your question.  I am aware of propylene 
glycol.  From a medical standpoint, propylene glycol will also respond to 
the test they use to test for ethylene glycol, and so it makes it very 
difficult, in a medical situation, to actually understand what the animal 
has actually been exposed to.  Antifreeze or ethylene glycol is still a very 
common chemical, and I think there are people in this room that are more 
qualified to answer the question of whether it is no longer going to be 
used any time in the immediate future or be replaced entirely by 
propylene glycol.  And certainly, alternatives should be looked at or 
entertained as much as possible.
	MS. SOLIS.  Thank you.  And I think that is what some of us are 
trying to get at, if there is a way to look at other types of additives that 
are not going to be as harmful to the public health and to, obviously, our 
water, in this case, and to habitat.  And I just wanted to clarify, also, from 
Mrs. Amundson.  You talked about legislation in California that was 
passed.  Certainly, they have been ahead of us on many things, and in 
this area they did provide for a liability waiver for manufacturers and 
what have you, but they did not waive liability for environmental damage 
or natural resources, much like the State of Oregon.  So let us be clear on 
that what we are looking at here, in terms of this legislation, is sweeping.  
This will actually remove that liability through the whole process and 
that is something that just doesn't sit well with some of the members of 
this committee, and myself included.  I am concerned about that.
	And I also wanted to go to Mr. Bye, regarding your testimony.  You 
said, on page six, the proposed Federal legislation would not change the 
liability of antifreeze manufacturers for the products.  Under the 
legislation, antifreeze manufacturers continue to be liable for ethylene 
glycol antifreeze itself, and DB manufacturers and distributors are liable.   
I mean, from what we are hearing here, it sounds like we have some 
very, very different perceptions of who is going to be held liable and who 
is not.  Can you explain your statement again?
	MR. BYE.  Yes.  Our position is very clear on this.  As I said, we are 
experts on what our product does in the cooling system of a car.  That is 
where our chemists work, and that is what our expertise lies in.  We are 
not experts in any way, shape or form, and so we fully stand behind, 
always have and always will, any issues that are our product: the 
antifreeze and the components of it that are designed to work in a car's 
cooling system, any impact they have on the environment.  On any 
liability situation, we are fully supportive of, always have been and 
always will be.  When we are asked to put a component into our product 
that we are not experts in--
	MS. SOLIS.  Yes.
	MR. BYE.  --that is where we feel we should not be held liable for 
any impact that product may have, but we feel that full liability should 
resort to and be assigned to the people that manufacture it and supply it.  
So that is just where the distinction comes, just where our area of 
expertise lies, and that is not with a bittering agent; it is with car cooling 
systems.
	MS. SOLIS.  Yes.  And if I ask you the same question, would you 
support mandating the use of another type of additive that I mentioned, 
propylene glycol, which is less toxic.
	MR. BYE.  Yes, we are the leading seller today of propylene glycol 
product in the United States.
	MS. SOLIS.  Yes.
	MR. BYE.  Order of magnitude, we sell 250,000 gallons, plus or 
minus, out of a total of 50 million.  It is readily available at Wal-Mart, 
AutoZone, anywhere else.  It has some issues with it that would cause us 
probably not to be supportive of it, but not the least of which is, it is only 
slightly less toxic to start with.  Some could maybe address that better.  
But the biggest issue for us, on the automotive side, is that it has different 
cooling capabilities.  It requires different additive packages for corrosion, 
and the net of all that is, it would require the car manufacturers to 
redesign engine cooling systems.
	MS. SOLIS.  My time is almost up, so I want to, if I could--sorry to 
interrupt.
	MR. BYE.  Yes.
	MS. SOLIS.  But wasn't it true that in the 108th Congress, Honeywell 
and the trade association, Consumer Specialty Products, opposed H.R. 
1563, which required DB to be added in the antifreeze?
	MR. BYE.  We didn't oppose generally, we have opposed it on a 
State basis, prior to late 2004, for many of the reasons stated.
	MS. SOLIS.  You did not oppose that Federal piece of legislation that 
was introduced in the 108th?
	MR. BYE.  I do not believe so.  Oh, we did?  Okay.  I just had the bill 
numbers mixed up.
	MS. SOLIS.  My understanding is that--
	MR. BYE.  You were correct.  I had the bills--
	MS. SOLIS.  --the information that was provided back--
	MR. BYE.  Right.
	MS. SOLIS.  --at that time was submitted by your association--
	MR. BYE.  No, you are correct.
	MS. SOLIS.  --in opposition.
	MR. BYE.  Yes.
	MS. SOLIS.  In opposition.
	MR. BYE.  Yes.
	MS. SOLIS.  That is a lot of information, by the way.
	MR. BYE.  Yes.
	MS. SOLIS.  An analysis that has been done that I believe EPA 
mentioned that they did not have a chance to look at, testing that had 
been done by your trade organization.
	MR. BYE.  We provided all of that information to everybody on the 
panel, and we have always been forthcoming with all of that information.
	MS. SOLIS.  But with EPA, do you know if they have actually had an 
opportunity to--
	MR. BYE.  We did not provide it to them.  We provided it to the 
panel.
	MS. SOLIS.  Okay.  Mr. Bye, is it correct that there are a number of 
scientific studies, on the environment fate of DB, that shows it does not 
biodegrade in the environment and could present a risk to our 
groundwater?
	MR. BYE.  There may be.  There are a number of conflicting studies.  
I am not familiar with the content of all of them.  Again, that goes back 
to--
	MS. SOLIS.  So these studies are included here in the--
	MR. BYE.  Yes, they are.
	MS. SOLIS.  --association that you represent.
	MR. BYE.  And as we have pointed out, there is conflicting data in 
there and hence our reluctance to take on full responsibility for the 
product.
	MS. SOLIS.  Can I go over?
	MR. GILLMOR.  I was going to let you go over, as much as I went 
over, but I think you are there.
	MS. SOLIS.  All right, thank you.
	MR. GILLMOR.  The gentlelady from New Mexico.
	MRS. WILSON.  Thank you, Mr. Chairman.  Mr. Bonacquisti, I have 
a couple of questions for you.  You said in your testimony that you don't 
like the liability provisions, the separated liability allowing the DB 
manufacturers to be liable for their product and the antifreeze 
manufacturers to be liable for this product that is in this bill, and you 
called it unwise, unsound and unfair.  In the spring of 2003, the 
American Water Works Association issued a press release stating that 
you supported an act called the Drinking Water Standards Preservation 
Act that would protect water utilities from lawsuits as long they are in 
compliance with Federal and State regulations.
	MR. BONACQUISTI.  Yes, that is true.
	MRS. WILSON.  Why is fair or sound and wise for you and unwise, 
unsound and unfair for the guy at the other end of the table?
	MR. BONACQUISTI.  Well, I think the water utilities are public health 
and public service entities.  Our mission is to remove contaminants from 
a water supply, not to put them in, and if we meet Federal standards for 
drinking water contaminants, or if we are below those standards that 
have been set by a regulatory process, through EPA and the regulatory 
process, we should not be held liable.
	MRS. WILSON.  So if Mr. Bye complies with the Federal standards, 
he should still be liable, but if you do, you shouldn't because you are a 
nonprofit?
	MR. BONACQUISTI.  Well, if Mr. Bye's product went through a 
regulatory process.
	MRS. WILSON.  So your issue here is not that it is the difference 
between law and regulation.  Is that what I am hearing here?
	MR. BONACQUISTI.  Well--
	MRS. WILSON.  I won't push you any further, but as I like to say at 
my house, only my mother can have it both ways, and I think you see my 
point here.
	MR. BONACQUISTI.  I understand.
	MRS. WILSON.  I wanted to ask a question of the folks from the 
NRDC, if I could, Mr. Simms.  You talked about unacceptable risks and 
you talked about rat poison in particular, and the adding of bitterant to rat 
poisoning, that there is a level of unacceptable risk and that somewhere 
between 15--and as I think I hear you right, 15 and 50,000 children are 
poisoned per year with rat poison.  At what point does the risk become 
unacceptable?
	MR. SIMMS.  Well, let me clarify.  That was EPA's finding of 
unacceptable risk.  And it was pursuant to fifth row, which is the--
	MRS. WILSON.  I am familiar with law.
	MR. SIMMS.  Yes.  And so that was not our determination of 
unacceptable risk.  It was a litigation that revolved around EPA's 
regulatory determination of unacceptable risk, and then active afterwards 
with respect to rat poison that was inconsistent with that finding of 
unacceptable risk.
	MRS. WILSON.  Do you think that that is unacceptable risk for 
15,000 children to be poisoned?
	MR. SIMMS.  Do I personally think that?
	MRS. WILSON.  Well, NRDC advocated for keeping the bitterant in 
the rat poison.
	MR. SIMMS.  That is right, that is right.
	MRS. WILSON.  So you agree that that was--
	MR. SIMMS.  We would leave it as it is.  That is something that 
should be addressed.
	MRS. WILSON.  What the level of risk is.
	MR. SIMMS.  The level of risk, that level of risk from exposure to rat 
poison.  Absolutely.
	MRS. WILSON.  The reason I wanted to hear what you had to say 
about that a little more is because that is what we are doing here, we are 
balancing risks.  We have a known risk with antifreeze of about 1,400 
children being poisoned each year, not dying but being poisoned, and 
about 90,000 animals per year, and we also have a low risk of an additive 
that is very common.  And it seems to me that the trial lawyers are upset 
because they are going to have one less party to sue.  Well, that is a risk I 
am willing to take, when the balance is on the other side of the number of 
people being poisoned.
	Mr. Bonacquisti, one final question for you in the time that I have 
available.  You talked about in your testimony, you said that it is 
inevitable that DB will eventually show up in the water system.  There 
are other products that contain DB.  We have gone through the list here, 
the shampoo, the things to clean my shower, all kinds of cosmetics and 
so forth.  Have any of your members detected this as a problem now, and 
what do you and your association members use to get DB out of the 
water now?
	MR. BONACQUISTI.  Right now, I am not sure if we have detected 
DB.  We would use some analytical techniques to do so.  To get DB out 
of the water, I really don't know.  We have different water treatment 
techniques to use for different types of contamination, but I don't think 
that there is a enough research or scientific data that has been 
accumulated so far to help our water utilities determine what the best 
avenue of treatment is.
	MRS. WILSON.  Well, you said in your testimony that somewhere, 
and perhaps in many places, contamination of drinking water supplies is 
likely to occur.  We have been using this for 45 years.
	MR. BONACQUISTI.  Yes.  And that is where we are going to have do 
our research.
	MRS. WILSON.  Where has it occurred?
	MR. BONACQUISTI.  We are going to have do our research to find 
that out.  I mean, if DB is being added to larger and larger quantities of 
this antifreeze, then we will potentially see this in the drinking water 
supply.
	MRS. WILSON.  I mean, we are using it in hundreds of products 
already that are going down the drain and into the waste water, not into 
an antifreeze changing pool at Just Brakes or at Jiffy Lube.  Have you 
had any cases where it has been detected in the water, and what is the 
treatment mechanism used--
	MR. BONACQUISTI.  Not to my knowledge have we had any 
detection on DB.
	MRS. WILSON.  So this statement that contamination of drinking 
water supplies is likely to occur, what is that based on?
	MR. BONACQUISTI.  On an increased volume of DB being added into 
antifreeze, if it is added.
	MRS. WILSON.  Thank you, Mr. Chairman.
	MR. GILLMOR.  The gentleman from Washington.
	MR. INSLEE.  Thank you, thank you.  Mr. Bye, if this bill passed 
without the liability protection for you, would you quit making 
antifreeze?
	MR. BYE.  Would we quit making antifreeze?
	MR. INSLEE.  Yes.
	MR. BYE.  No, we would not.
	MR. INSLEE.  So the issue is whether or not citizens--they are going 
to get their antifreeze.  The question is whether they are going to have--in 
the existing bill, they won't have relief if they get poisoned, and if we 
pass the bill without it, they will have the antifreeze and the protection of 
the judicial system in case they do get poisoned, right?  Is that pretty 
much the deal?
	MR. BYE.  If the bill passes?
	MR. INSLEE.  If the bill passes without the liability waiver for the 
manufacturer of the antifreeze, consumers will get the antifreeze, you are 
going to keep making it--
	MR. BYE.  Yes.
	MR. INSLEE.  --to keep their cars running, and they will also have 
existing protection in the judicial system in case they get poisoned, 
against the manufacturer of the antifreeze, right?
	MR. BYE.  Correct.
	MR. INSLEE.  Okay.  So if we pass this bill without the liability 
provisions, we will get the antifreeze, the cars will still work, the dogs 
won't get poisoned, the kids won't get poisoned, and in case somebody 
gets poisoned by the product, Americans will have what they have today, 
which is the right to a judicial remedy, is that the deal?
	MR. BYE.  They certainly will.
	MR. INSLEE.  Okay.  That is why I think it probably makes sense to 
take the liability provision of this thing out of here, because there is no 
reason for it.  I want to ask Mr. Bye or anyone else this: why mandate a 
specific chemical?  If we want to solve this problem, why don't we just 
mandate a bittering agent that meets a certain characteristic?  Why 
wouldn't that be a preferable way to do this?  Can anybody articulate 
that?  Anyone?
	MS. AMUNDSON.  If I may, Congressman.  I guess now is the time to 
step up a bit.  Mr. Bye could certainly address why it is that denatonium 
benzoate is the chemical of choice in this situation, but I do want to say 
that we have had the opportunity to experience markup on this bill on the 
Senate side, and this is an issue that did arise at that time and the 
sponsors did address it through an amendment.  I have no idea, and 
obviously I cannot speak for the sponsors for this bill, but there is the 
possibility that an equivalent chemical that demonstrates the things that 
we are asking DB to demonstrate in the Senate version of the bill, could 
be a way of addressing this issue.
	MR. INSLEE.  I am sorry.  You know more about that different 
universe, the Senate, than I do.  But what was the amendment?  There 
was an amendment to allow alternatives, then?
	MS. AMUNDSON.  There was an amendment to, in essence, create a 
study provision on denatonium benzoate and also to allow for the 
addition of other additives that demonstrated what DB did under the 
auspices of that study and performed an equivalent level of protection 
without injuring cars' engines.
	MR. BYE.  And to that point, if you asked for all of our comments, 
we as an industry, I can't speak to the effectiveness of one over the other.  
That is somebody else's expertise, how it works in dogs and all.  I can 
tell you that DB was analyzed by us for its impact on a car's cooling 
system.  So any other substance that came along would have to go 
through that same process on our side, and the bill refers to that point.  It 
also has to be compatible with the car's cooling system, and that would 
be our only point of view.
	MR. INSLEE.  You mean the Senate bill, the Senate amendment?
	MR. BYE.  Yes.
	MR. INSLEE.  I see.  Coming back to--yes, Mr. Simms.
	MR. SIMMS.  If I could add to that, I think that is a very good 
question.  And one of our primary concerns is, why would we close the 
door to competition in the future, remove the flexibility that would allow 
industry to address needs in the future, if some other problem arises with 
this bitterant, or if some other bitterant proves to be more effective, more 
available, more economical.
	MR. INSLEE.  Right.
	MR. SIMMS.  I just wanted to reinforce that.
	MR. INSLEE.  Got you.  Coming back to this liability issue, I think 
that the rationale, if there is one, for the liability protection is, if 
Congress mandates it, that manufacturers shouldn't be liable for putting 
it in, I can understand that a little bit.  But it seems to me, doesn't it make 
sense that if you do remove protection of Americans who now have 
protection, if they get hurt by a product, they have got the right to 
reimbursement for their damages, and if we pass it, we would be 
stripping Americans of that right.  If we were to do that, shouldn't the 
Federal government replace it with some compensation plan through the 
Federal government?
	MR. BYE.  Well, my understanding is, we are not stripping them of 
the right to do that.  We are assigning the person that they would go after 
for their damages.
	MR. INSLEE.  Well, that is in heaven where all defendants are solvent 
with huge insurance.  And I can assure you, looking at the Exxon 
situation, where they took a billion dollars out of my constituents and 
now they have $2 in the till, that is not the way the real world works.  
You are stripping Americans of having a right to compensation from a 
solvent defendant.  And in many cases, particularly this case, where you 
can have significant damages, frankly, including the MTBE situation, the 
manufacturer of the sub-particle component is going to be gone, toast, 
history, nothing, and you are going to effectively eliminate any right to a 
nickel for the people who could potentially be damaged by this product.  
Now, despite the fact that my friend from New Mexico's comment that 
just the trial lawyers are the only one with the stake, a game, you know--
as a former practicing lawyer, I can tell you that they are the truck 
drivers, they're teachers, they are pharmacists, who can get hurt.  And it 
is not the trial lawyers we ought to be thinking about, it is the people who 
can get poisoned by this product, and they today have a right to 
compensation that Congress would be taking away from them in the real 
world if we pass this with that liability provision.  What I am suggesting 
is, if we do that, shouldn't we substitute a Federal compensation package 
for them in lieu of that?  Would that make sense, if we were going to 
remove this liability, this claim?  Anybody have any thoughts about that?
	MR. GILLMOR.  Well, the gentleman's time has expired.
	MR. INSLEE.  Thank you.
	MR. GILLMOR.  The gentleman from Oklahoma.
	MR. SULLIVAN.  Thank you, Mr. Chairman.  And my first question is 
to Mr. Simms.  Your testimony makes a reasonable suggestion that 
antifreeze manufacturers have a choice in the adversive agent that they 
use in their product.  However, to put your legislative recommendation 
into context, you would be requiring companies to reformulate a well-
known, 70-year-old product, but not give these same companies any 
support for doing these new activities.  Since you are unwilling to 
support providing targeted legal cover for compliance with this 
additional mandate to longstanding manufacturing practices, is your 
concern based more on the impact of the adversive on the environment, 
or simply the ability to sue the antifreeze manufacturer if there is a 
problem with the adversive?
	MR. SIMMS.  I think that the point is more complicated or multifold.  
There is the question, when something goes wrong, if something goes 
wrong, someone is injured, does that person have the legal remedies 
available to them that are appropriate?  It is about preserving the rights of 
people who are injured to be made whole by that industry that is 
benefiting from having the product in the marketplace.  And the fiction 
that the DB manufacturer should be responsible for the DB, ignores the 
fact that the DB is in the antifreeze because the antifreeze is unsafe.  And 
if the antifreeze producers, in that chain, that they should be in part 
responsible for injuries that might occur from that chemical that is there 
to make their product more safe.  And that is not suggesting that the DB 
manufacturer should be let off the hook.  They should bear their share of 
the responsibility, and the public, as I have said, always bears their share 
of the responsibility, because ultimately they are the ones who end up 
getting injured if something goes wrong.  If nothing goes wrong, then the 
removal of the liability waiver is of negligible consequence to the 
industry.  It is the question of who are we protecting.
	MR. SULLIVAN.  Thank you.  And Ms.--I know Edmonsons from 
Oklahoma, so Amundson.  Is that how you say it?
	MS. AMUNDSON.  Amundson.  Thank you.
	MR. SULLIVAN.  Amundson, okay.  Well, since the California law 
was passed in 2002, has there been any reduction in poisoning deaths, 
accidentally or otherwise?  If not, why is that?  And spills on highways 
aren't likely to be a source of antifreeze ingestion for children or 
household pets, or are they?
	MS. AMUNDSON.  The latter question first.  Spills on highways, no, 
not necessarily, but it is driveways and it is the way that antifreeze is 
stored in containers inside of those garages that we are particularly 
concerned about.  For obvious reasons there are local, State, and Federal 
guidelines for how antifreeze is in fact recycled and disposed of, and it is 
the Jiffy Lubes that are abiding by those considerations.  
To your first question, I wish there was a reporting requirement for 
both pets and people in the State of California around this issue, but due 
to concerns about appropriations associated with that component, it was 
removed from the bill.  And, sir, if I may, just one more point that has 
troubled me a little bit today.  With all due respect to the call for a 
regulatory process to consider the viability of DB in antifreeze, that study 
has been done.  That was done by CPSC, which made a recommendation 
that it in fact be included in a number of common household products, 
including antifreeze.
	MR. SULLIVAN.  Thank you.
	MR. GILLMOR.  That concludes our hearing, and I want to thank all 
of our witnesses for coming.  Testimony is very helpful.  We stand 
adjourned.
	[Whereupon, at 4:01 p.m., the subcommittee was adjourned.]

RESPONSE FOR THE RECORD BY DR. MELINDA EYRICH, DVM, CO-OWNER, URGENT CARE 
VETERINARIAN HOSPITAL


June 26, 2006


The Honorable Paul E. Gillmor, Chairman
Subcommittee on Environment and Hazardous Materials
Committee on Energy and Commerce 
2125 Rayburn House Office Building 
Washington, DC  20515 


Dear Mr. Chairman,

Thank you for your questions.  I am happy to see the interest and 
investigation continuing on the Antifreeze Bittering Act of 2005, H.R. 2567. 
Any continuing effort to lessen the danger of antifreeze is greatly 
appreciated by those of us trying to deal with its effects.

Sincerely,



Melinda S. Eyrich DVM
Urgent Care Veterinary Hospital
9032 Montgomery Blvd 
Albuquerque, NM 87108  



THE HONORABLE PAUL E. GILLMOR 

1.	New Mexico has been one of three states to actually require DB in 
antifreeze products.  Could you please describe for me how the implementation 
of this new law has changed, if at all, the number of animals you have had 
to see as a result of antifreeze ingestion?               

        Governor Richardson signed the bill into law in April 2005, 
manufacturers were required to add DB beginning July 2005, and retailers 
were required to sell bitter antifreeze on January 1, 2006.  While the 
bittering mandate is new and its effects are not yet fully known, I have 
not seen a case of antifreeze poisoning in 2006.  If the trend continues, 
2006 will be a year to both remember and celebrate!   

2.	In your professional opinion, at the levels required in the New 
Mexico state law and the legislation before the Committee today, would DB 
by itself present a serious health risk to pets or humans from ingestion?   

        Based on the testimony given during the hearing the following facts 
were evident to me:  DB has been in use as a taste deterrent since 
approximately 1964.   Since that time, no adverse effects of this chemical 
have been found.  After the hearing, I looked through both my home and clinic 
and found no less than twelve items with DB added to them.  These items 
include cleaning products I use to clean the bath tub I bathe my four year 
old in and fingernail polish remover my teenager uses regularly.  I know that 
both animal and people do not like very bitter tastes.  I feel that DB is a 
far safer risk than antifreeze.  I know antifreeze kills, so far DB has not 
caused any detectable problems.          

3.	You mention that one vial of the drug used to treat for ingestion of 
ethylene glycol costs about $300.  How many vials are normally required for 
treatment and how much would a person expect to pay to simply restore their 
pet's health after ingestion of antifreeze?    

        Depending on the size of the animal, 1-3 vials would be needed.  
With early detection and treatment, the conservative estimate is 1200.00 to 
1500.00 dollars.  If there are complications associated with kidney failure, 
the estimated cost could be 2000.00 and up.  This is a significant financial 
burden for most families and for a significant number treatment is 
financially prohibitive.


RESPONSE FOR THE RECORD BY SARAH AMUNDSON, DEPUTY AND LEGISLATIVE DIRECTOR, 
DORIS DAY ANIMAL LEAGUE


June 28, 2006



Honorable Paul E. Gillmor
Chairman, Subcommittee on Environment and Hazardous Materials
Committee on Energy and Commerce
U.S. House of Representatives
2323 Rayburn House Office Building
Washington, D.C.  20515-6115

Dear Mr. Chairman:

We are pleased to have the opportunity to respond to your additional 
questions, as well as those submitted by Committee Ranking Member John 
Dingell and Subcommittee Ranking Member Hilda Solis, as part of the hearing 
record on H.R. 2567, the Antifreeze Bittering Act.

Thank you for holding the hearing on this important bill.  Please let us 
know how we can be of further assistance.

Sincerely,



Sara Amundson
Legislative Director


SA/nb



                         Submitted Questions from Members
                Subcommittee on Environment and Hazardous Materials
   Hearing on HR 2567, the "Antifreeze Bittering Act of 2005," May 23, 2006

         Sara Amundson, Legislative Director, Doris Day Animal League

From the Honorable Paul Gillmor, Chairman, Subcommittee on Environment and 
Hazardous Materials   


1.	Your testimony states that unlike MTBE liability protection that 
was debated during the Energy Policy Act of 2006, the liability protection in HR 2567 establishes an "assigned" liability scheme where each manufacturer 
remains entirely on the hook for their respective product. Can you explain 
how this scheme theoretically would work when a court is assigning damages 
based on antifreeze contamination?

	The antifreeze manufacturers would remain liable for damages 
associated with their product.  Denatonium benzoate (DB) is a very distinct 
chemical and the manufacturers of that product would remain liable for damages 
caused by it.  A court would assign damages based on the damages caused by 
each product separately.  This is no different from assigning liability in 
any other case where multiple contaminants might be released at the same 
location, and a court must assign liability based on the damages caused by 
each contaminant separately.  For example, where one party might have released 
petroleum products at a site and another party might have released a 
chlorinated solvent at the same site, a court would impose liability on each 
party for damages caused by the material it released.

2.	Does your organization see either the antifreeze manufacturers or 
the DB manufacturers as being unfairly advantaged by the inclusion of the 
liability protection? How has your group worked with the environmental 
organizations and the water utilities at the state level regarding the 
liability provisions? Are you aware of any reported contamination cases of 
DB from antifreeze in the states that have passed legislation?

	No.  The purpose behind crafting this provision in the way in which 
it was done was to ensure that the manufacturers of antifreeze and the 
manufacturers of denatonium benzoate (DB) would be responsible without limit 
for correcting any problems and remediating any damage caused by their 
respective products.
	The Natural Resources Defense Council and the World Wildlife Fund 
actually endorsed H.R. 1563 in the 108th Congress, and that bill did include 
liability language.  While that language differed from the current bill, it 
did cover "personal injury, death, or property damage that results from the 
inclusion of denatonium benzoate in ethylene glycol antifreeze, provided that 
the inclusion of denatonium benzoate is in concentrations mandated" under 
the bill.  It has been argued that "property damage" could also have 
encompassed environmental damage.  I would also note that the California 
Sierra Club supported the bill that went on to become law there, and the 
Sierra Club Rio Grande chapter in New Mexico supported the bill that became 
law there, the liability language in which is identical to that in H.R. 2567.
	We are not aware of any reported contamination cases involving DB in 
antifreeze in the states that have passed legislation.  As a matter of fact, 
both Oregon and California have stated that they have not observed any ill 
effects on water supplies.  As noted in my testimony, a report by the Maine 
Department of Environmental Protection cited a conversation with Ken 
Kaufmann, Oregon's state toxicologist, in which he stated that "'no incidents 
of drinking water well contam-ination or groundwater contamination or bad 
tasting water due to denatonium benzoate have become known.'"  Likewise, a 
letter from the California State Water Resources Control Board to the 
subcommittee noted that "to date we are unaware of adverse impacts to 
California's water supplies arising from the use of denatonium benzoate in 
antifreeze and a variety of other products."  (New Mexico's law has been in 
effect for only a little over a year.)  I think Cong. Wilson's 
question to Mr. Bonacquisti, who testified on behalf of the American Water 
Works Association, got to the crux of the matter:  Mr. Bonacquisti could not 
cite any cases of water contamination from DB, even though it has been used 
in a variety of products for over 40 years.

3.	What happens under the liability provisions if one of the 
manufacturers or distributors is grossly negligent or malfeasant in the 
handling and disposing of antifreeze? What about a user or consumer? Are any 
absolved from liability in any way under these provisions?

	Our interpretation of the bill's liability language, which states 
that the liability limitation applies only insofar as "the inclusion of 
denatonium benzoate is present in concentrations mandated by" the bill and 
that "limitation on liability�does not apply to a particular liability to 
the extent that the cause of such liability is unrelated to the inclusion 
of denatonium benzoate in any engine coolant or antifreeze," and our 
intention, has been that any use or handling of DB by the antifreeze industry 
that does not comply with the law would not be covered.  This would include, 
of course, any negligence or malfeasance on their part.  However, we 
appreciate that some have viewed the provision as deficient with regard to 
"willful misconduct," and we certainly are amenable to including a 
specific exception to the liability provision for "willful misconduct."
	The "limitation on liability" applies only to "a manufacturer, 
processor, distributor, recycler, or seller of an engine coolant or 
antifreeze"; the legislation does not address consumer mishandling or 
improper disposal of antifreeze.  Localities generally regulate, 
or otherwise provide guidance to residents on, the proper disposal of 
household chemicals.

4.	In your testimony you admit that there are data gaps for hazard 
identification.  These data gaps, if significant enough, could prevent a 
thorough risk analysis.  If DB has been in use for over forty years, why are 
there any data gaps at all?

	The Doris Day Animal League would defer any conclusions regarding a 
thorough risk analysis of denatonium benzoate or ethylene glycol to the 
federal regulatory agencies responsible for assessing available information 
and regulating these respective chemicals.  Relevant to denatonium benzoate 
is the testimony of Jim Willis of the Office of Pollution Prevention and 
Toxic Substances of the Environmental Protection Agency, who, through 
available data and further modeling studies, provided chemical structure 
background specific to environmental exposure, human/wildlife exposure, 
human/wildlife toxicity, and aquatic toxicity.  
	During questioning, Mr. Willis responded that EPA had not conducted 
testing of Bitrex (one of the commercially available brands of denatonium 
benzoate) because, based on a review of available data and experience with 
similar chemicals and other analogies, such testing was not necessary.  In 
response to another, similar question, he noted that, more generally, with 
respect to a chemical of this nature, with this production volume and 
exposure, EPA would determine that a full risk assessment was not warranted.

5.	Why don't educational campaigns prevent most of the accidental 
ingestions?  How have the additional protective measures such as labeling, 
child proof caps and education failed?  Is there anything that can be done 
in terms of an educational campaign to raise awareness even more that may 
help to reduce accidental ingestions?

	I would preface my response to this question by noting that animal 
poisonings and deaths, both in sheer numbers and as a percentage of 
ingestions, far exceed those of humans.  The packaging, labeling, and 
educational efforts of the antifreeze industry don't mean much when a dog 
can and will chew through a container, or a disgruntled neighbor takes out 
his anger on the cats next door.  As we noted in our testimony, the estimates 
of such poisonings run from a low of 10,000 to as high as 90,000 deaths per 
year.
	We recognize the antifreeze industry for its proactive efforts to 
safeguard human health with respect to the use and misuse of its products.  
To reduce the risks of accidental exposure, all antifreeze products sold to 
consumers are equipped with child-resistant caps and provide prominent label 
warnings about proper use, storage, and disposal of the product.  In addition, 
most manufacturers, including Prestone, adhere to a voluntary industry policy 
to use foil safety seals on consumer product containers. Between 1983, when 
the American Association of Poison Control Centers began collecting such 
data, and 2004, there were no reported deaths of children under the age of 
six. Unfortunately, there has been such a death this year:  According to The 
Advocate, a Louisiana newspaper, on May 31, a three-year-old Baton Rouge boy 
died after drinking antifreeze left in a cup on a bedroom dresser by his 
father's girlfriend.  The intended use of the antifreeze was to poison some 
dogs hanging around the house.  The woman was booked on one count of negligent 
homicide.   
	Deaths of children between 6 and 19 years of age have been primarily 
teenage suicides, as have many deaths among adults, although some have been 
homicides.  Antifreeze is an easy, and easily obtained, weapon for homicide 
or suicide; the addition of denatonium benzoate would make antifreeze far less 
appealing for these purposes.
	Since 2000, the reported number of ethylene-glycol antifreeze 
poisoning exposures, of children specifically and in general, have held fairly 
steady (about 1300 and 5000 respectively). We would argue that those numbers 
are still too high�and unnecessarily high when there is an inexpensive 
additional step that can be taken to reduce the number and severity of 
ingestions among both humans and animals.  Educational campaigns likely reach 
a point of maximum effectiveness, and it is not possible to put a complete 
end to human carelessness and indifference, or determination to harm one's 
self or others.  Moreover, educational campaigns and child safety caps do not 
discourage pets from licking up the spills that still occur despite industry's 
best efforts to prevent them, or keep dogs from chewing through containers, 
nor do they dissuade individuals from using antifreeze to deliberately kill 
animals or other people, or to commit suicide.   	
	The use of a bittering agent in antifreeze would provide an 
inexpensive additional layer of protection against accidental ingestions, and 
make it less attractive as a suicide method or as a weapon to use against 
animals and humans alike.



                     Submitted Questions from Members
            Subcommittee on Environment and Hazardous Materials
   Hearing on HR 2567, the "Antifreeze Bittering Act of 2005," May 23, 2006

         Sara Amundson, Legislative Director, Doris Day Animal League

From the Honorable  John  Dingell, Ranking Member, Committee on Energy and 
Commerce, and the Honorable Hilda Solis, Ranking Member, Subcommittee on 
Environment and Hazardous Materials

1.	Your testimony stated that denatonium benzoate (DB) is added to 
"cosmetic and toiletry products, including nail polish, hairspray, and 
cleaners."

	Have the manufacturers, processors, distributors or recyclers of 
cosmetic and toiletry products, including nail polish and hairspray, been 
granted immunity from liability for damage to the environment (including 
natural resources) that results from the inclusion of denatonium benzoate in 
these products? If so, please cite the specific Federal law that provides 
liability immunity for "damage to the environment (including natural 
resources)" to the manufacturers, processors, distributors, or recyclers of 
such products. Not to our knowledge.


2.	Do the manufacturers, processors, distributors, recyclers, or sellers 
of nail polish, hairspray, or other cosmetic products that include denatonium 
benzoate in their products receive immunity from liability for personal 
injury, death, property damage, or economic loss that results from the 
inclusion of denatonium benzoate in the product? If so please cite the 
specific Federal law that provides such immunity from liability. 

Not to our knowledge.

3.	Are there any scientifically-valid statistics gathered by the State 
or an animal poison control center that provide information on whether and 
to what degree the Oregon or California laws have led to a reduction in 
accidental ethylene glycol poisonings in dogs and cats? If so, please 
provide them.

	No such data have been collected.  This is a glaring shortcoming of 
the Mullins and Horowitz review that was published in 2004 (as referenced in 
my testimony), since the overwhelming problem with antifreeze poisonings, in 
terms of the number of both ingestions and deaths, occurs with companion 
animals.  We know of no state or other requirement for reporting cases of 
ani-mal poisonings.  In fact, as part of its antifreeze bittering bill, 
California opted not to appropriate funds to collect data on animal 
poisonings.  Moreover, the data that the national animal poison control 
center has on these incidents are somewhat misleading:  It is acknowledged 
that, since veterinarians see antifreeze poisoning cases so frequently, they 
know what to do and most do not even bother to call the center.


4.	Does the Doris Day Animal League believe that ethylene glycol 
antifreeze is an inherently dangerous product?

	The Doris Day Animal League relies upon the characterization of 
ethylene glycol by the Environmental Protection Agency in its Integrated Risk 
Information System, and by the Agency for Toxic Substances and Disease 
Registry's "Toxicological Profile for Ethylene Glycol and Propylene Glycol," 
for acute and chronic effects.

5.	Is the Doris Day Animal League aware of any lawsuits that have been 
brought against Honeywell or other manufacturers of antifreeze in 2004 or 
2005 for accidental antifreeze poisoning due to ingestion of ethylene glycol 
that caused death to a dog or cat? If so, please indicate the number of such 
lawsuits in 2004 and 2005 and the legal theory behind the lawsuit. 

	No, we are not.

6.	Subcommittee Chairman Gillmor, in questioning a witness about 
balancing risks, stated at the hearing that: 

	"We know on one side there is a risk of death to children, and if 
Mr. Ackerman's testimony is correct, 1,400 children a year, that means on 
average we have more than 100 children every month dying from the lack of a 
bitterant in antifreeze."

	Do you agree or disagree with the statement that "we have more than 
100 children every month dying from the lack of a bitterant in antifreeze"?

	There was a bit of a misunderstanding.  Rep. Ackerman referred to 
approximately 1400 children each year who are poisoned by antifreeze (with 
children defined as persons 19 years of age and under).  This number refers 
to  ingestions, not deaths.  Rep. Wilson clarified this later in the hearing.  
The number of deaths of children over time has been relatively small, though 
it may be said that any is too many.  And unfortunately, a 3-year-old boy in 
Louisiana died this past May after drinking antifreeze that had been left in 
a cup on a dresser; the antifreeze was going to be used to poison dogs. 
Deaths of children between 6 and 19 years of age have been primarily teenage 
suicides; the presence of a bitterant in antifreeze would discourage at least 
some of these rash teenagers from using it to kill themselves.    

	If I may, I would like to respond to questions #7 and #8 together:

7.	Are you aware of a 2005 study by a group of doctors led by Dr. E. 
Martin Caravati conducted on behalf of the American Association of Poison 
Control Centers, Washington, D.C., and published in Clinical Toxicology 
Journal, which made the following statements:

	"A review of U.S. poison center fatality data for the 18-year period 
1985-2002 did not find any suspected suicides or deaths from ethylene glycol 
reported in children under the age of 12 years."

	"No deaths of patients under the age of 12 years or from 
unintentional exposure were reported by poison centers to TESS (Toxic 
Exposure Surveillance System) from 1985-2002"?

	If you have any information that supports or conflicts with these 
findings, please provide it.

8.	In your testimony, you indicate that more than 1,300 children ingest 
antifreeze each year. What percentage had moderate or major effects? Are you 
aware that the E. M. Caravati et al. study found that for known outcome by 
reason for ingestion of ethylene glycol for all ages between 2000-2002, only 
4 percent of the unintentional exposures had moderate or major effects? 

	The Doris Day Animal League was pleased to note the findings in the 
2005 study by Dr. E. Martin Caravati, which concurred with conclusions we have 
seen and noted in reference materials from other studies of antifreeze 
ingestions by children under 12; notably, that no children in that age range 
have died from ingestions during the time period examined.  Unfor-tunately, 
on May 31 of this year, in Baton Rouge, Louisiana, a three-year-old child did 
die from ingesting antifreeze, which was stored in a cup on the parent's 
dresser to be used to kill nuisance dogs in the neighborhood.  This is 
particularly tragic because it illustrates one horrific aspect of the problem 
all too well; by using antifreeze as a tool to kill dogs and improperly 
storing the chemical, a child also unnecessarily died.  
	The Caravati study also concludes that "only 4 percent of the 
unintentional exposures had moderate or major effect." That still represents 
approximately 52 people experiencing moderate to major effects every year, 
and we contend that if even one of those is a child, that is one child too 
many.  The financial and emotional toll on a family from rushing a child to 
the emergency room to prevent renal failure and other complications is 
unacceptable in our society.
	Moreover, with respect to the number of persons who ingest antifreeze 
and experience moderate to major effects, DDAL would suggest that it is 
somewhat disingenuous to exclude intentional ingestions, since these would 
not occur if antifreeze were not such an attractive suicide method.  In 2003, 
across all antifreeze-related cases, the percentage experiencing moderate 
to major effects, or death, was 9.5 percent; in 2004, it was 11.5 percent, 
according to AAPCC statistics.  As I have stated elsewhere and will expand 
upon later in response to another question, animal poisonings and deaths, 
both in sheer numbers and as a percentage of ingestions, far exceed those 
of humans.  These numbers more than warrant taking this step to make 
anti-freeze taste bad and thus be less attractive to animals, children, 
potential suicides, and potential murderers.

9.	In your prepared testimony submitted to the Subcommittee, you cited 
a California Integrated Waste Management Board (CIWMB) staff analysis as 
follows:

	"The CIWMB staff analysis found that DB 'readily biodegrades, its 
transport is attenuated by soil, and it is easily treated in sewage treatment 
systems and drinking water systems. Staff has determined that the addition of 
[DB] to antifreeze would not lead to any adverse health or environmental 
effects.'"

	The CIWMB does not identify any scientific studies upon which these 
statements are based or discuss the body of scientific studies that have been 
performed that reached a different conclusion. Are you aware of whether the 
CIWMB staff performed any scientific studies or whether the CIWMB contracted 
for any scientific studies on the environmental fate and transport of DB? If 
you are aware of any such studies performed by the CIWMB staff or on behalf 
of the CIWMB, please provide them. Further, can you inform the Subcommittee 
whether the CIWMB ever explained in their report or elsewhere on what basis 
the staff was able to reach these scientific conclusions?

	The California Integrated Waste Management Board, appointed by the 
governor, released this staff analysis in 2001, leading to the board's 
support of the California legislation.  Ms. Anna Ward was the staff person 
assigned to compile the report.  The Doris Day Animal League respectfully 
suggests that any questions regarding the studies used or commissioned would 
be more appropriately directed to the California Integrated Waste Management 
Board.

	If I may, I would like to combine questions #10, 11, and 12 for 
purposes of responding:

10.	In your prepared testimony you state that, "the Washington State 
School of Veterinary Medicine places the annual number of dog and cat 
antifreeze poisonings at approximately 10,000."

	Is the figure based on an actual statistically significant study?  
If not, what is the figure based on?  Does the term "poisonings" in your 
testimony mean exposures or actual deaths?

11.	Your prepared testimony also referred to a 1996 study of small 
practice veterinarians throughout the United States that found 90,000 dog 
and cat deaths each year from ingesting ethylene glycol. Was this a 
statistically significant study?  How was it performed and by whom?  Has 
there been a more recent comparable study?

12.	What accounts for the significant disparity in numbers between the 
Washington State School of Veterinary Medicine estimate and the 1996 study?

	When we refer to numbers of poisonings, we are referring to 
ingestions.  When we say deaths, we are referring to actual deaths.  
	There are two national estimates of the number of companion animals 
who ingest antifreeze each year.  One estimate cited frequently by a variety 
of sources puts the number of dogs and cats poisoned each year by antifreeze 
at 10,000.  That number is attributed to the Washington State School of 
Veterinary Medicine.  We do not know the source of their data.  
	The higher estimate of 118,000 exposures and 90,000+ DEATHS of dogs 
and cats due to antifreeze poisoning comes from a 1996 survey of  "a 
nationally representative cross-section of small-animal veterinarians" 
(total  number = 400) conducted by Bruno and Ridgway Research Associates on 
behalf of the American Society for the Prevention of Cruelty to Animals 
(ASPCA) and Safe Brands Corp.  While we cannot account for the 
difference between the Washington State University statistics and the ASPCA 
survey results, more recent studies support the ASPCA results.  A 2002 
survey of 21 Nevada pet clinics revealed 78 cases of ethylene glycol 
poisonings, with 67 deaths (a fatality rate of 85 percent).  A similar 
survey in 2001 of 13 California veterinary clinics reported 136 cases, with 
107 deaths (a 78 percent fatality rate).   These death rates are consistent 
with the 77 percent rate found in the 1996 survey.


RESPONSE FOR THE RECORD BY PATRICE L. SIMMS, SENIOR PROJECT ATTORNEY, NATURAL 
RESOURCES DEFENSE COUNCIL


Honorable Mr. Paul E. Gillmor
U.S. House of Representatives
Chairman,
Subcommittee on Environment and Hazardous Materials
Committee on Energy and Commerce


Dear Mr. Gillmor:

Thank you for the opportunity to testify before the Subcommittee on 
Environment and Hazardous Materials on Tuesday, May 23, 2006, regarding H.R. 
2567, the Antifreeze Bittering Act of 2005.  Attached please find answers to 
the follow-up questions that you forwarded to me by letter dated June 8, 2006.  

Sincerely, 


Patrice Simms
Senior Project Attorney
Natural Resources Defense Council



Questions from the Honorable Paul E. Gillmor

	1.	Legislative bodies make value judgments all the time 
substituting one risk for another in pursuit of the common good.  Do you 
think that it is fair or appropriate for a person or entity, pursuant to a 
Federal mandate, to fully comply with the law in making their product and 
then be liable for damages if an unrelated person or entity is negligent 
in the use of that product?

	In general, NRDC believes that it is both fair an appropriate to 
hold manufacturers of a dangerous product accountable for the injuries that 
their product causes, including injuries that are associated with any 
additive that is necessary to make their product safer.  To the extent that 
any individual injury results in part from the activities of "an unrelated 
person or entity [who] is negligent in the use of that product," that person 
should also bear liability.  It is entirely inappropriate, however, to 
provide a wholesale waiver of liability for any possible harm for the very 
industry involved in the production and sale of a dangerously toxic product.  Injured parties should have full access to the courts, and the 
ability to seek restitution from each and every responsible party.  

	2.	Why are you opposed to the liability protection included in 
this bill when the manufacturers of both products are completely held 
accountable for their own products?  By opposing this provision, are you 
arguing that the deeper pockets should always be available to pay for 
damages, even when their product is not legally found to be the cause of 
the contamination or damage?  Is assigned liability a new concept or do the 
courts engage in this practice all the time?

	The liability waiver provision of H.R. 2567 rests upon a convenient 
fiction that each manufacturer (the maker of the bitterant and the maker of 
the antifreeze) should be responsible for the possible ill-effects of its own 
product.  The underlying presumption being that the antifreeze manufacturers 
are responsible for the presence and impact of their product in the 
marketplace and the manufacturers of the bitterants are responsible 
for their product.  However, this fiction ignores entirely the fact that 
but for the unacceptably dangerous nature of the antifreeze itself, the 
bitterant would be an unnecessary ingredient and would not be in the 
marketplace in this product at all.  In fact, the manufacturers of the 
bitterant are not responsible for creating the need for their product in 
antifreeze, and thus should not be, as the bill suggests, uniquely and 
exclusively responsible for the risks associated with this particular use 
of their product.  
	Congress is considering a bitterant requirement for antifreeze 
because the product that the antifreeze manufacturers make (in the view of 
this bill's sponsors) is unacceptably unsafe.  Thus, it is due to the 
dangerousness of the antifreeze (the product that antifreeze manufacturers 
profit from) that a bitterant may be required, and yet Congress is 
considering letting antifreeze manufacturers off the hook entirely for any 
damage that might result from the use of a bitterant in their product.  
This approach would take away significant rights from those people who might 
be harmed in the future by this bitterant use -- the right to seek redress 
against the industry sector that is both responsible for creating the need 
for the bitterant and that profits from the sale of the otherwise dangerous 
product.  Accordingly, antifreeze manufactures, as the makers of a 
dangerous product, must be held responsible (along with the bitterant makers) 
for the consequences of introducing a bitterant into the marketplace in 
antifreeze, and therefore should bear their share of the risk associated 
with possible injury or environmental contamination.
	The process of assigning liability among responsible parties, to the 
extent that this is necessary at all, should occur in the courts, where the 
relevant, case-specific factors can be taken into consideration.


RESPONSE FOR THE RECORD BY JEFFREY BYE, VICE PRESIDENT, PRESTONE, HONEYWELL 
INTERNATIONAL, INC., ON BEHALF OF CONSUMER SPECIALTY PRODUCTS ASSOCIATION

                      Submitted Questions from Members
            Subcommittee on Environment and Hazardous Materials
         Hearing on HR 2567, the "Antifreeze Bittering Act of 2005"
                   Jeffrey Bye, Vice President, Prestone


The Honorable Paul E. Gillmor

1.	How much of the domestic antifreeze industry does Prestone supply?  
Who are your other competitors in the field?  Do all U.S. antifreeze 
suppliers have the same position on this bill?

	Prestone is the largest antifreeze manufacturer in North America, 
supplying approximately one-third of the 160 million gallons sold to 
American consumers.  There are four other major market players in the U.S. 
consumer antifreeze industry: Old World, Shell, Valvoline, and Chevron 
Texaco.  All U.S. antifreeze manufacturers support HR 2567, the Antifreeze 
Bittering Act of 2005.

2.	Your company has vigorously opposed legislation like this in the 
past.  Now, you are testifying in support of it.  What changed and why is it 
so important to you to have these changes?  Couldn't you support this bill 
without the environmental liability protections in it?  Would you support 
changes to the bill to preclude liability protections for gross negligence or 
willful misconduct?

	Prestone has historically opposed state and federal legislative 
efforts to require antifreeze manufacturers to reformulate and add ingredients 
to our products that we do not produce nor have a heating or cooling function.  
Because of the growing trend of states both passing laws and considering 
legislation that would mandate our adding a bittering agent to ethylene glycol 
antifreeze, in 2004 the industry reconsidered its position.
	Existing state laws in Oregon, California and New Mexico vary to 
some extent, and our concern is that additional states will pass incompatible 
requirements, denying us the ability to efficiently produce a low-cost 
effective product sold throughout the nation.  The federal legislation 
currently under consideration by the House Energy and Commerce 
Committee, HR 2567, includes provisions to allocate liability between the 
antifreeze and bittering agent manufacturers.  The antifreeze industry 
supports the legislation because we are comfortable with retaining 
responsibility for our own ethylene glycol products, and we recognize the 
equity in assigning responsibility for the denatonium benzoate to its 
manufacturer.
	HR 2567 also establishes a prescribed standard of the type of 
bittering agent and concentration, thus setting a uniform national standard.  
Because of these changes, we support the bill as introduced.  We would not 
support the legislation without the assigned liability provisions and 
standardized prescription. 
	The provision in question limits liability only for damages that 
result from the inclusion of denatonium benzoate in antifreeze in accordance 
with the terms of the statute.  An antifreeze manufacturer would be 
responsible for action or inaction outside the scope of the limited set of 
circumstances outlined by the bill.  Given the mandate included in HR 2567, 
it is not apparent how such inclusion of denatonium benzoate could be 
grossly negligent or amount to willful misconduct.  Accordingly, we do not 
see the rationale for a change that would limit the protection in cases of 
gross negligence or willful misconduct, and are concerned that such a change 
would be confusing.

3.	Your testimony admits that a major ingredient in antifreeze is a 
toxic substance.  Some people have argued that by creating a "causation" 
standard for environmental liability, you are somehow "muddying the water" 
on exactly how much your company should be responsible for cleanup of 
antifreeze releases into the environment.  How do you respond to that charge?

	Prestone has been making ethylene glycol antifreeze for over 70 
years and we whole-heartedly take responsibility for our product.  We 
understand how our product quickly breaks down in the environment and we 
would retain liability for damages caused by ethylene glycol under HR 2567.  
This legislation espouses sound public policy by allocating liability for 
ethylene glycol and denatonium benzoate to their respective manufacturers. 

4.	The legislation you are testifying about today could pre-empt states 
that have already acted and might be more regulation than some states want 
to impose.  In addition to California, Oregon and New Mexico, your testimony 
speaks to 11 other states actively considering similar state laws.  Are any 
municipalities also considering ordinances on this subject?  Why should 
Congress act on this if so many jurisdictions are enacting fairly similar 
laws?

	Many states are considering legislation along the same lines as 
Oregon, California and New Mexico, but none of the bills is identical to 
another.  Antifreeze sold in one-gallon containers is a classic retail 
consumer product, with the major "big box" retailers like Wal-Mart and 
AutoZone selling most of our products.  Because manufacturers like Prestone 
don't control the distribution and inventory systems of our retailers, 
forcing us to make, store, transport and track state-specific formulas is 
not just onerous but also out of our control.  Now is the time for Congress 
to pass a uniform federal standard before other states pass inconsistent 
laws.  Even some municipalities within states have added to our concerns, 
with cities and counties in the state of New Mexico passing regulations 
specific only to their jurisdictions.
	Significant stakeholders, including the U.S. Conference of Mayors, 
the Natural Resources Committee of the Maine state legislature, the Alabama 
House of Representatives, and the Tennessee Senate have recognized that 
products in interstate commerce are best governed by federal standards, and 
have called on Congress to pass legislation establishing a uniform bittering 
law for ethylene glycol.

5.	Do you believe DB is the best aversive agent to prevent human or 
animal ingestion of your product?  If not, do you believe there are equally 
effective and potentially less expensive alternatives?  Recognizing the 
animal health consequences of ingesting antifreeze, why doesn't Prestone 
voluntarily place DB in its antifreeze products?

	Prestone does not manufacture bittering agents and is not an expert 
on bittering additives or other agents that are not part of the heating and 
cooling functions of our products.  Our understanding of DB, therefore, is 
based only on third party statements.  DB is consistently regarded as the 
"bitterest substance on earth," and only a minimal amount is required to 
bitter antifreeze.  At this time, we know of no other additive with the same 
bittering qualities.  We have conducted studies on the effect of bittered 
antifreeze on automobile engines and have determined that DB does not cause 
corrosion.  An alternative that would require a greater volume to achieve the 
same degree of bitterness may be more expensive because of the amount 
involved, as well as the potential damage to the automobile engine.
	Prestone is the market leader in automobile heating and cooling 
products and we have no expertise with bittering agents or animal health 
issues.  We would not voluntarily add denatonium benzoate to our products.
	Our efforts to discourage accidental animal ingestion are 
well-documented and respected.  During the past ten years, antifreeze 
manufacturers have supported the American Association of Poison Control 
Centers in a series of public service announcements entitled "Take Care: 
Car Fluids, Children and Pets."  These public service announcements also 
help to educate consumers about proper use and storage of antifreeze and 
other automobile fluids.  Prestone and other antifreeze manufacturers 
sponsor a national poison control center as a resource and service for 
veterinarians and pet owners. The center is staffed with specially trained 
veterinary toxicologists available to handle any animal poison-related 
emergency, 24 hours a day, 365 days a year.  

6.	As I understand it, the only difference between HR 2567 and its 
version in the last Congress is that this year's bill contains a shield 
against environmental liability and economic loss.  Is that correct?  How do 
these new criteria change the bill from its previous reference to "property 
damage" and "personal injury"? 

	There are two significant differences in the liability provisions 
between HR 2567 and the version from the previous Congress.  First, as you 
noted, is the addition of specific categories of liability protections, 
including natural resources.  Although this term is arguably contained in the 
broader category of "property" included in the bill in the 108th Congress, 
we encouraged the bill sponsors to be more explicit in the description 
of the liability protections as they updated the legislation for the current 
109th Congress.
	The second significant difference in the bills' liability provisions 
is the establishment of assigned liability in HR 2567 between the 
manufacturers of ethylene glycol antifreeze and denatonium benzoate bittering 
agent.  In the previous federal legislation, as well as the California and 
Oregon state laws, the liability protections regarding DB extend to all 
parties.  The New Mexico law and HR 2567 include an allocation of liability 
provision that delineates responsibility between antifreeze and DB 
manufacturers respectively for their own products, offering a more 
comprehensive responsibility structure.

7.	I am confused on your exact stance on the liability provisions in 
HR 2567 based on conflicts between your written testimony and your oral 
testimony.  Could you please clarify for me Prestone and CPSA's stances on 
the liability shields in HR 2567?  Does this language remove all rights of 
action against you?  Would a harmed party be able to recover damages from 
antifreeze manufacturers?

	Prestone and the U.S. antifreeze industry firmly support the 
liability provisions in HR 2567 and would oppose the legislation without 
them.  The provisions allocate liability responsibility between antifreeze 
and DB manufacturers respectively, therefore, Prestone remains fully 
responsible for all consequences of our ethylene glycol antifreeze 
products.  Parties in litigation could recover damages from antifreeze 
manufacturers for harm caused by the antifreeze, while parties could recover 
damages from denatonium benzoate manufacturers and distributors for harm 
caused by denatonium benzoate.

8.	Would you support language in the bill explicitly clarifying that 
no liability protection can be extended for claims involving gross 
negligence or willful misconduct?

	The liability provision in HR 2567 limits liability only for damages 
that result from the inclusion of denatonium benzoate in antifreeze in 
accordance with the terms of the statute.  An antifreeze manufacturer would 
be responsible for action or inaction outside the scope of the limited set of 
circumstances.  Given the mandate included in HR 2567, it is not apparent how 
such inclusion of denatonium benzoate could be grossly negligent or amount 
to willful misconduct.  Accordingly, we do not see the rationale for a change 
that would limit the protection in cases of gross negligence or willful 
misconduct, and are concerned that such a change would be confusing.


The Honorable John Sullivan

1.	During the hearing, in response to a question from Mr. Inslee, I 
thought you suggested that Prestone would continue selling antifreeze if the 
liability section was stripped from the bill.  Would you please clarify that 
for me?  In addition, could you please tell me what the impact of this mandate 
would be on the affordability of your product?  How many other domestic 
manufacturers are there and would they be able to easily absorb the cost of 
this mandate?  How many foreign based manufacturers of antifreeze, who sell 
their product in the U.S. market, would be economically advantaged by 
compliance with this mandate without the chance to be sued for damages?

	Prestone would expect to continue selling antifreeze if the 
liability section was stripped from the bill, although we would no longer 
support the legislation.  The liability provisions within HR 2567 are 
consistent with state laws and should remain part of the federal bill. While 
the price of antifreeze could be increased to cover potential costs 
associated with legal claims and liability related to sales of compliant 
product, it is also possible that continued sales and availability of 
antifreeze to consumers in the U.S. could be affected.
	Although Honeywell is the market leader in consumer antifreeze 
products, there are four additional major domestic manufacturers.  These 
companies are also represented by the Consumer Specialty Products 
Association and oppose the legislation absent the liability provisions.  
Foreign manufacturers who sell antifreeze in the U.S. would be covered under 
the proposed legislation and would maintain the same liability as U.S. 
manufacturers.  Because the U.S. manufacturers satisfy approximately 95% of 
the U.S. market, foreign manufacturers are minimal players.

2.	During the hearing, in response to another question from Mr. Inslee, 
I thought you suggested that citizens are better off if we preserve their 
right to go to court and that in order to do so we should strip the 
liability section from the bill.  That doing so would ultimately protect 
children and animals.  Could you please clarify my understanding of your 
response?  Would the inclusion, or lack thereof, of the liability provisions 
in the bill preclude any physical protection to animals and children since 
the mandate would still be in place?  Does HR 2567, as introduced, prevent 
citizens from going to the courthouse or preclude lawsuits for damages?  
Under the bill, if antifreeze is the cause of any personal or 
environmental harm, would any person be able to sue you for damages?  
Have you or your association tried to get environmental fate and transport 
information on DB?  If you have tried and have been unsuccessful, do you 
believe that full compliance with the law, no matter who might agree with 
that law, should make your company and its assets eligible for damage suits 
over a component you did not choose to add, have little scientific 
information concerning it, and have no way of escaping its addition in your 
product?

	The concept of "assigned liability" provides protection for citizens 
seeking to recover damages resulting from the use of a product.  The 
antifreeze manufacturer would continue to be liable for their product and the 
DB manufacturer would be responsible for their product.  Absent the liability 
protection, the antifreeze industry would oppose this legislation or any 
mandate for a bittering agent in antifreeze.
	H.R. 2567 does not preclude citizens from going to the courthouse to 
seek damages. Parties in litigation could recover damages from antifreeze 
manufacturers for harm caused by the antifreeze, while parties could recover 
damages from denatonium benzoate manufacturers and distributors for harm 
caused by denatonium benzoate.
	Prestone and CSPA, the industry association, have sought additional 
information on the transport and environmental fate of DB.  To date, we have 
not received such data due to confidentially concerns of the DB manufacturers.


 The Honorable John D. Dingell and the Honorable Hilda L. Solis

1.	On July 28, 2004, an Op-Ed article by Consumer Specialty Products 
Association (CSPA) President Chris Cathcart entitled "Effectiveness, Safety of 
Bitterant Antifreeze Unknown" appeared in the Albuquerque Journal and 
stated as follows: 

	"According to the American Association of Poison Control Centers 
(AAPCC), virtually all deaths (22 nationwide in 2003) by antifreeze are 
intentional suicides. There has not been a death of a child under the age of 
6 related to the accidental ingestion of antifreeze since the AAPCC began 
collecting data in 1983. Most exposures reported to the AAPCC are minor in 
nature." 

	Do you agree with those written statements and does CSPA still stand behind 
them?

	Prestone and CSPA stand behind the numbers stated in the editorial 
and referenced by the AAPCC. The AAPCC reported a total of 2,395,582 
exposures to chemical substances in 2003.  Of these, the AAPCC reported 
that it received a total of 5,816 reported exposures to ethylene glycol.  
Put in context, the total number of reported exposures to ethylene glycol 
amounts to 0.24% percent (i.e., less than one-quarter of one percent) of 
the total chemical exposures.  In 2003, there were 19 deaths: 16 of the 
deaths were ruled intentional suicides, two deaths were of unknown causes 
(i.e., suicide could not be conclusively proven), and one death of an 81 
year-old man was ruled as "unintentional general."  This last case involved 
an elderly woman in New Jersey who poisoned her 81-year old companion by 
adding ethylene glycol to the man's drink.
	For your information, AAPCC recently released their 2004 numbers.  
The AAPCC reported a total of 2,438,644 exposures to chemical substances 
in 2004.  Of these, the AAPCC reported that it received a total of 5,562 
reported exposures to antifreeze.  The total number of reported exposures 
to ethylene glycol amounts to 0.228% percent (i.e., less than one-quarter 
of one percent) of the total chemical exposures.  In 2004, there were 
23 deaths: all of these cases were intentional ingestions and 19 were cases 
where the intention of the individual was to commit suicide.
	We are pleased that you are asking about child poisonings and public 
health.  The industry is extremely committed to protecting human health 
related to the use and misuse of our products.   We have made significant 
strides in reducing child poisonings.  Unfortunately the recent increase in 
suicides and intentional murder is something that is difficult to combat.  
The AAPCC reports that there has not been a death of a child under the age of 
six related to ingestion of ethylene glycol-based automotive antifreeze since 
it began collecting data in 1983?.  The producers of antifreeze have also 
taken steps to reduce the risks from accidental exposure through the use of 
child-resistant closures. All antifreeze products sold to consumers are 
equipped with child-resistant closures and provide prominent label warnings 
about proper use, storage and disposal of the product.  See 16 CFR � 
1700.14(a)(11) and 16 CFR � 1500.14(b)(2).  In addition, most manufacturers 
including Prestone adhere to a voluntary industry policy to use foil safety 
seals on consumer product containers.  The AAPCC concluded that 
child-resistant closures have been extremely effective in preventing 
accidental exposures to consumer products.  

2.	In the same Op-Ed article in the Albuquerque Journal, the President 
of the CSPA stated: 

	"Not only is the effectiveness of mandating the use of a bittering 
agent in antifreeze questionable, there are also concerns about the impact 
of DB [denatonium benzoate] on the environment. Independent scientific 
studies have determined that DB does not biodegrade and is not removed 
during the processes used to treat wastewater at publicly owned treatment 
facilities. If poured onto the ground, DB could contaminate groundwater, 
potentially threatening public drinking water." 

	Do you share the concerns expressed by the President of CSPA in 
his Op-Ed article to the Albuquerque Journal? If not, please explain why not. 

	Prestone, CSPA and the antifreeze industry have always been 
consistent in our position that the environmental fate of denatonium is 
uncertain.  We understand the environmental impacts of ethylene glycol, but 
we do not manufacture DB and have limited knowledge on its chemical profile.  
The House legislation, therefore, rightfully distinguishes liability between 
the antifreeze manufacturers who maintain responsibility for ethylene glycol 
and the DB manufacturers who remain liable for their product.   
	Also, with regard to the OP-Ed piece, it is important to recognize 
that the CSPA response  referred to a New Mexico bill that included a 
bittering mandate for all antifreeze products including quantities of 55 
gallon non-consumer containers and larger.  Because of the volume of 
antifreeze in these larger containers, the amount of DB would be 
proportionally larger as well.  That was a significant concern of CSPA's 
with the 2003 version of the New Mexico bill.  Like the current federal bill, 
however, the 2004 New Mexico legislation applied to one gallon consumer 
retail containers and had the support of CSPA and Prestone. 

3.	In your testimony to the Subcommittee you stated, "it is rare that 
children are accidentally exposed to antifreeze." Please provide your best 
estimate of the number of children accidentally exposed to antifreeze each 
year in the United States for the years 2003, 2004, and 2005. 

	Prestone and the antifreeze industry rely on data from the American 
Association of Poison Control Centers (AAPCC).  The AAPCC reports that there 
has not been a death of a child under the age of six related to ingestion of 
ethylene glycol antifreeze since it began collecting data in 1983*.  The 
producers of antifreeze have taken steps to reduce the risks of accidental 
exposure through the use of child-resistant closures, and the AAPCC concluded 
that such closures have been extremely effective in preventing accidental 
exposures.  Consumer antifreeze products feature prominent label warnings 
about proper use, storage and disposal.  In addition, most manufacturers 
including Prestone adhere to a voluntary industry policy to use foil safety 
seals on consumer product containers.
	The AAPCC reported a total of 2,395,582 exposures to chemical 
substances in 2003.  Of these, the AAPCC reported that it received a total 
of 5,816 reported exposures to ethylene glycol.  The total number of reported 
exposures to ethylene glycol amounts to 0.24% percent (i.e., less than 
one-quarter of one percent) of the total chemical exposures.  In 2003, there 
were 19 deaths caused by ethylene glycol: 16 of the deaths were ruled 
intentional suicides, two deaths were of unknown causes (i.e., suicide 
could not be conclusively proven), and one death of an 81 year-old man was 
ruled as "unintentional general."  This last case involved an elderly woman 
in New Jersey who poisoned her 81-year old companion by adding ethylene 
glycol to the man's drink.
	In 2003, there were 582 exposures to children under 6, and 803 to 
children between 6 and 19.  In total, 1,385 of the 5,816 reported cases of 
exposure involved children under the age of 19.
	For 2004, the AAPCC reported a total of 2,438,644 exposures to 
chemical substances.  Of these, the AAPCC reported a total of 5,562 reported 
exposures to antifreeze.  The total number of reported exposures to ethylene 
glycol amounts to 0.228% percent (i.e., less than one-quarter of one percent) 
of the total chemical exposures.  In 2004, there were 23 deaths caused by 
ethylene glycol: all of these cases were intentional ingestions and 19 were 
cases where the intention of the individual was to commit suicide.
	In 2004, there were 672 exposures to children under 6, and 678 to 
children between 6 and 19.  In total, 1,350 of the 5,562 reported cases of 
exposure involved children under the age of 19.
	The 2005 data has not been released.

4.	Do you agree with the findings of Dr. Michael E. Mullins and Dr. B. 
Zane Horowitz in a published 2004 report on the Oregon law entitled "Was It 
necessary to Add Bitrex (Denatonium Benzoate) to Automotive Products" 
when they concluded:

	'The first law mandating- addition of DB was never necessary. As 
unintentional EG or Meoh exposures in pre-school age children did not cause 
measurable toxicity. The mandatory addition of DB to automotive products 
has produced no measurable reduction in unintentional pediatric toxic alcohol 
exposures in Oregon." 

	We neither agree nor disagree with the findings of Drs. Mullins and 
Horowitz.  Prestone and the antifreeze industry have reviewed and examined the 
effects of denatonium benzoate only as to its impact on an automobile engine. 
Ethylene glycol antifreeze containing DB in the quantities specified by the 
House bill will not corrode an engine.
	We note that the primary goal of the federal legislation is to 
prevent the accidental ingestion of antifreeze by pets and other animals, 
with the deterrence of children's ingestion a secondary benefit.  Drs. 
Mullins and Horowitz focused their study only on pediatric exposures.

5.	Do you have any credible evidence that shows that the addition of 
DB produced a measurable reduction in unintentional pediatric toxic alcohol 
exposures in Oregon?

	Prestone and the antifreeze industry have reviewed and examined the 
effects of denatonium benzoate as to its impact on an automobile engine.  We 
have neither pursued nor do we possess evidence regarding the reduction in 
pediatric exposures as a result of the addition of DB to ethylene glycol 
products.

6.	Do any States require reporting of accidental human exposures to 
antifreeze? If so, please identify them.

	To our knowledge, no states require the reporting of accidental 
human exposures to antifreeze.  However, the AAPCC compiles exposure data 
for all chemicals from 62 state and regional poison control centers.  This 
data includes accidental exposures to antifreeze.

7.	Do any States require reporting of intentional human exposures to 
antifreeze? If so, please identify them.

	To our knowledge, no states require the reporting of intentional 
human exposures to antifreeze.  However, the AAPCC compiles exposure data 
for all chemicals from 62 state and regional poison control centers.  This 
data includes intentional exposures to antifreeze.

8.	Do any States require reporting of accidental household pet or 
other animal exposures to antifreeze? If so, please identify them.

	We are not aware of any States requiring the reporting of accidental 
animal exposures to antifreeze. 

9.	In your testimony to the Subcommittee you stated, "there are 
occasions where household pets and other animals are exposed to ethylene 
glycol products and are injured by ingesting the product." Please provide 
the magnitude of the term "occasions" and provide any information you have 
on how many household pets and other animals die each year in the United 
States from ingesting antifreeze and how many are seriously injured? 
Please also provide the basis for the numbers you submit.

	There are two national estimates of the number of companion 
animals who ingest antifreeze each year.  One estimate that is cited 
frequently by a variety of sources is that 10,000 dogs and cats are poisoned 
each year by antifreeze.  That number is attributed to the Washington State 
School of Veterinary Medicine.  A higher estimate of 118,000 exposures and 
90,000+ deaths of dogs and cats due to antifreeze poisoning is attributable 
to a survey conducted in 1996 by Bruno and Ridgway Research Associates on 
behalf of the ASPCA and Safe Brands Corp.  

10.	How many lawsuits were filed in each of the years 2003, 2004, and 
2005 against Honeywell and Prestone for causing deaths to children from the 
ingestion of antifreeze? What is the legal theory behind any such lawsuit?

	There were no lawsuits filed against Honeywell and Prestone for 
deaths to children from the ingestion of antifreeze in the time period 
requested.

11.	How many lawsuits were filed in each of the years 2003, 2004, and 
2005 against Honeywell and Prestone for causing death or serious injury to 
household pets or other animals from the accidental ingestion of antifreeze? 
What is the legal theory behind any such lawsuit? 

	There were no lawsuits filed against Honeywell and Prestone for 
deaths or injury to animals from the ingestion of antifreeze in the time 
period requested.

12.	Is it correct, that in the fall of 2005 officials of the Consumer 
Specialty Product Association contacted staff members at the Environmental 
Protection Agency (EPA) and requested that they run a computer-based model 
for a potential risk profile for bitrex (denatonium benzoate) that relies 
on toxicity and environmental exposure estimation techniques? 

	Since the CSPA had accumulated numerous scientific studies on the 
environmental fate of denatonium benzoate, which they had submitted to the 
Congressional Research Service by letter dated September 24, 2004, did CSPA 
officials provide the same scientific studies to EPA so its review could be 
based on actual studies rather than computer models? If not, please explain 
why not.

	In the fall of 2005, CSPA met with EPA officials to inquire if they 
had environmental fate data on DB.  It is our understanding that CSPA did 
not ask EPA to run modeling studies, although EPA may have conducted studies 
either before or after the CSPA meeting at their own volition or after 
requests from stakeholders in Congress or elsewhere.  CSPA has sought for 
many years conclusive environmental fate data of DB from various sources, 
although such data does not seem to be publicly available.
	In an effort to be transparent on the issue, we understand that 
CSPA provided to the Library of Congress as well as the Majority and Minority 
staff of the House Energy and Commerce Committee all information that they 
had regarding DB.  CSPA does not know whether the Majority or Minority staff 
shared that information with EPA. 

13.	On July 16, 2004, correspondence from CSPA to Macfarlan Smith 
Limited stated as follows:

	"CSPA believes that there is no demonstrated scientific basis for 
these state and local requirements. Further, existing studies and records 
indicate that, with respect to those jurisdictions that have enacted such 
laws, there is no credible scientific evidence showing that the inclusion of 
bitterants in such automotive products has resulted in a reduction in 
incidents of accidental poisoning." 

	Do Honeywell and CSPA continue to believe there is "no demonstrated 
scientific basis for these state and local requirements" to mandate the 
inclusion of denatonium benzoate or other aversive agents in antifreeze?

	CSPA and Honeywell possess no scientific data to prove that the 
inclusion of denatonium benzoate in antifreeze will prevent accidental 
ingestion of antifreeze.  Animal welfare advocates, however, believe that DB 
will help prevent animal ingestion of antifreeze.  Furthermore, we continue 
to believe that individual state bills are not the best way to address the 
supporters request to mandate DB in ethylene glycol antifreeze, but instead 
we recommend a uniform federal solution.  The entire antifreeze industry is 
willing to add DB to their products, per the mandate of HR 2567, as an 
additional layer of safety to protect animals and humans as long as the 
liability and uniformity provisions are maintained in the legislation. 

14.	What specific factual circumstances with respect to the inclusion 
of denatonium benzoate in antifreeze cause Honeywell to believe that it is 
necessary to have the legal immunity as provided in Section 2 of H.R. 2567 
from "damage to the environment (including natural resources)"? 

	Honeywell, under its Prestone brand, is the market leader in 
ethylene glycol and propylene glycol antifreeze products.  We are not in the 
business of, studying, developing or manufacturing denatonium benzoate or 
other bittering agents.  HR 2567 rightfully allocates the liability between 
the antifreeze and DB manufacturers for their respective products.  The 
legislation would ensure injured parties the right to sue the appropriate 
manufacturer for all damages -- including damage to the environment and 
natural resources -- caused by that manufacturer's product.
	This arrangement of assigned liability is appropriate because of the 
rare circumstance where the federal government is mandating the inclusion of 
a substance in a manufacturer's product.

15.	If a manufacturer, distributor, or processor of antifreeze 
negligently spilled a gallon of denatonium benzoate that it intended to 
include or was in the process of including in engine coolant or antifreeze 
and it caused contamination of drinking water supplies or a groundwater 
aquifer, do you agree that the manufacturer, distributor, or processor would 
be immune from environmental liability under Section 2 of H.R. 2567? If not, 
please explain why not.

	No, a manufacturer of antifreeze who negligently spilled DB in the 
manufacturing process would not be immune from environmental liability under 
HR 2567 for at least two reasons.
	The relevant statutory language in HR 2567 states that any 
manufacturer 
        "(1) Subject to paragraph (2), ... shall not be liable ... for any 
... damage .... or loss that results from the inclusion of denatonium 
benzoate in any engine coolant or antifreeze, provided that the inclusion 
of denatonium benzoate is present in concentrations mandated by subsection 
(a).
	(2) The limitation on liability provided in this subsection does 
not apply to a particular liability to the extent that the cause of such 
liability is unrelated to the inclusion of denatonium benzoate in any engine 
coolant or antifreeze."

	In your scenario, you envision a manufacturer spilling a one gallon 
container of DB.  First, because the liability in your fact pattern would 
stem from the manufacturer's negligence in handling the DB, subsection (2) 
of the liability section would explicitly prohibit protection because the 
liability is unrelated to the inclusion of denatonium benzoate in the 
antifreeze.  Second, because the inclusion of DB in the antifreeze would 
far exceed the concentrations mandated by subsection (a) of the bill, 30 to 
50 parts per million, the liability provisions would not protect the 
manufacturer.  

	A distributor or processor of antifreeze would not be in possession 
of DB because they only handle finished product, although our conclusion 
would be the same.

16.	If a quantity of denatonium benzoate was spilled during the handling 
or distribution or during the formulation process by a manufacturer of 
antifreeze and caused damage to natural resources, would the natural 
resource trustee be able to bring an action under the Comprehensive 
Environmental Response, Compensation and Liability Act of 1980, as amended, 
against the manufacturer for damage to the natural resources, or would such 
an action he precluded by Section 2 of H.R. 2567?

	HR 2567 would not preclude an action under the Comprehensive 
Environmental Response, Compensation and Liability Act of 1980, as amended.

17.	Do you agree that all manufacturers of the bitterant denatonium 
benzoate are foreign manufacturers? If not, please identify any U.S. 
manufacturer and provide any evidence that you have demonstrating that a 
U.S. company is currently manufacturing denatonium benzoate. 

	No, not all manufacturers of DB are foreign.  Honeywell Prestone 
buys its entire supply of DB for inclusion in ethylene glycol antifreeze (to 
satisfy the Oregon, California and New Mexico laws) from an Ohio manufacturer 
called PMC.  We understand that PMC may contract manufacture the product from 
other domestic producers.  Dragon Chemical, a subsidiary of Burlington 
Scientific, based in Farmingdale, New York, reportedly manufacturers DB as 
well.
	For your information, the foreign manufacturers of DB would be 
liable for damages caused by their products sold in the United States.  We 
have attached a memorandum from Arnold & Porter describing the scope of U.S. 
federal court jurisdiction to assist you in understanding the legal realities.

18. 	Do you agree that H.R. 2567 preempts State tort laws by providing 
immunity to manufacturers and sellers of engine coolant or antifreeze for 
injury, death, property damage, or damage to the environment resulting from 
adding a bittering agent, denatonium benzoate, to the coolant or antifreeze? 
If not, please explain why not.

	HR 2567 would preempt state laws in so far as they differ from the 
federal regulation as set forth in the bill.  State laws, tort and others, 
would continue to be effective in the regulation of antifreeze, or the 
regulation of bittering agents such as denatonium benzoate, just not state 
laws that attempt to regulate the inclusion of a bittering agent in engine 
coolant or antifreeze in retail containers under 55 gallons.
	The relevant preemption provision in HR 2567 states:
		"(d) Preemption- No State or political subdivision of a 
State shall have any authority either to establish or continue in effect 
with respect to retail containers containing less than 55 gallons of engine 
coolant or antifreeze any prohibition, limitation, standard or other 
requirement relating to the inclusion of a bittering agent in engine coolant 
or antifreeze that is in any way different from, or in addition to, the 
provisions of this chapter."

19. 	At the Subcommittee hearing, a Member of the Subcommittee identified 
the following consumer products as having denatonium benzoate in them to make 
them bitter: nail polish, hairspray, crayons, bubble bath, shampoo, eye 
shadow, ink, hand sanitizer, windshield wash, laundry detergent, fabric 
softener, and perfume. 

	Have the manufacturers of any of these consumer products been 
provided immunity under Federal law from liability for any personal injury, 
death, property damage, or economic loss that results from the inclusion of 
denatonium benzoate in the consumer product? If so, please identify the 
consumer product and the specific statute that provides any such immunity 
from liability. 

	With the exception of windshield wash, Honeywell does not manufacture 
any of the identified household products and is not in the best position to 
describe the scope of liability of their manufacturers.  Because of your 
positions on the House Energy and Commerce Committee, you and your staff may 
have a better understanding of the liability provisions passed under your 
Committee's jurisdiction in the past, with or without your support.  We do 
suspect, however, that the manufacturers of the various products that 
contain denatonium benzoate include the ingredient under their own volition 
and have the ability to delete the substance or alter their products' 
composition without breaking federal law.
	Prestone includes DB in windshield wash products in Oregon because 
the 1992 Oregon law requires us to do so.  The state law, OR Rev. Statutes 
Title 36 431.870-915, contains liability protections as described in the 
statute:

	"Limitation on liability; application. A manufacturer, distributor 
or seller of a toxic household product that is required to contain an 
aversive agent ... is not liable to any person for any personal injury, 
death or property damage that results from the inclusion of the aversive 
agent in the toxic household product."

20.	Are you aware of any manufacturers of the following products that 
have been provided immunity from liability pursuant to Federal law for 
"damage to the environment (including natural resources)" that results 
from the inclusion of denatonium benzoate in the product:

	a. Nail polish
	b. Hairspray
	c. Crayons
	d. Bubble bath
	e. Shampoo
	f. Eye shadow
	g. Ink
	h. Hand sanitizer
	i. Windshield wash
	j. Laundry detergent
	k. Fabric softener
	1. Perfume

	If so, please cite the specific statute and provision that provides 
the manufacturer of a product where DB has been added any such immunity from 
environmental liability.

	As stated in response to the question above, with the exception of 
windshield wash, Honeywell does not manufacture any of the identified 
household products and is not in the best position to describe the scope of 
liability of their manufacturers.  Because of your positions on the House 
Energy and Commerce Committee, you and your staff may have a better 
understanding of the liability provisions passed under your Committee's 
jurisdiction in the past, with or without your support.  We do suspect, 
however, that the manufacturers of the various products that contain 
denatonium benzoate include the ingredient under their own volition and 
have the ability to delete the substance or alter their products' 
composition without breaking federal law.
	Prestone includes DB in windshield wash products in Oregon because 
the 1992 Oregon law requires us to do so.  The state law, OR Rev. Statutes 
Title 36 431.870-915, contains liability protections as described in the 
statute:

	"Limitation on liability; application. A manufacturer, distributor 
or seller of a toxic household product that is required to contain an 
aversive agent ... is not liable to any person for any personal injury, death 
or property damage that results from the inclusion of the aversive agent in 
the toxic household product."



RESPONSE FOR THE RECORD BY TOM BONACQUISTI, DIRECTOR OF WATER QUALITY AND 
PRODUCTION, FAIRFAX COUNTY WATER AUTHORITY, ON BEHALF OF AMERICAN WATER 
WORKS ASSOCIATION


June 10, 2006



The Honorable Paul E. Gilmor, Chairman
Subcommittee on Environment and Hazardous Materials
Committee on Energy and Commerce
U.S. House of Representatives
Washington, DC 20515


Dear Mr. Chairman:
	
Enclosed are the American Water Works Association (AWWA) responses to your 
questions asked in your letter of June 8, 2006, To Mr. Tom Bonaquisti, the 
AWWA witness at the hearing on H.R. 2567, The Antifreeze Bittering Act of 
2005, on May 23, 2006.
 
We would be pleased provide you any additional information that you may need 
concerning drinking water issues.  If you need additional information, please 
call me or Al Warburton, the Association Legislative Director, at 
202-628-8303. Thank you for your time and kind consideration of the AWWA 
recommendations.


Sincerely,

Tom Curtis
Deputy Executive Director for Government Affairs

                           RESPONSES TO QUESTIONS ASKED BY
                            THE HONORABLE PAUL E. GILMOR
                                    June 8, 2006
                                     CONCERNING
              THE TESTIMONY OF THE AMERICAN WATER WORKS ASSOCIATION ON
                  H.R. 2567, THE ANTIFREEZE BITTERING ACT OF 2005
                                  PRESENTED BEFORE
                SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS
                        COMMITTEE ON ENERGY AND COMMERCE
                                  ON MAY 23, 2006


1. In your testimony, you state that information from the manufacturers of 
db show that their product is biodegradable and does not adhere to soil. 
However, EPA's testimony states that DB is "predicted to be resistant to 
biodegradation" and is "not predicted to readily migrate to soil" unless in 
very organically rich soils.  This is a key fact because depending on whether 
DB is biodegradable relates directly to its absorption to sludge or other 
soils, making it more easily removable in a sanitary sewer system. Where is 
the source of your contradictory data and have your shared it with EPA?

	AWWA RESPONSE:  Our statement was contradicting the information 
contained in the manufacturers' Material Safety Data sheet (MSDS) which 
states that the DB is biodegradable and is not known to bioaccumulate. 
According to studies by Roy F. Westin, Inc., DB does NOT fully degrade in 
the environment. It was not removed during the sewage treatment process.  It 
remained in the water and was not removed with the sludge (Study No. 
92-042 - August 8, 1992; Study No. 92-051 -- August 27, 1992; Study 
No. 92-052 -- August 31, 1992). The SAE International Technical Paper No. 
930587 states that in its study the denatonium ion was not removed by 
microbial degradation or by adsorption. This research confirms what both 
AWWA and EPA said on this point. However, Study No. 93-087 conducted by 
Roy F. Westin, Inc. concludes that DB does not "stick" to the soil. Rather, 
it stays in and travels with the groundwater. Therefore, it is reasonable 
to expect contamination problems as DB accumulates in the groundwater -- 
the net result is that the groundwater may become bitter and unpotable. 
These studies have been in the public domain for over tens years and we 
would expect that EPA researchers would have access to the studies. Our 
point was that there is conflicting and inconclusive data on the fate and 
transport of DB, particularly in water, which would make it very imprudent 
to provide far-reaching liability immunity to companies making or handling 
antifreeze containing DB.

2.  Your statement reads: "It is also important to remember that antifreeze 
is used in large volumes in many industrial applications, such as deicing and 
large releases and widespread contamination of water supplies are possible." 
However, as I read subsection (d) and (e) of the newly created Section 25 in 
H.R. 2567, the bill caps its applicability to 55 gallons or less containers 
of antifreeze. I understand this to mean that we are only talking about 
containers that would be sold in the retail market.  In addition, the user 
of the antifreeze is not covered under the liability shield in the bill.  
Do you share this reading of the bill? 

	AWWA RESPONSE:  Our point in mentioning that antifreeze is used in 
large volumes in many industrial applications, was to illustrate that by 
mandating DB in all engine coolants or antifreeze, DB would be introduced 
into the environment in a larger scale in addition to the retail quantities 
of antifreeze and the current uses in certain consumer products. By exempting 
one source of DB, the Congress is setting the stage for a constant battle 
between potential responsible parties (PRP) as to the source of the DB in 
the environment. Those parties that are not exempt would argue that the 
source of DB is from an exempted source. Our understanding of the bill is 
that the liability shield would extend down to include the distributor or 
seller, leaving the user to bear the liability for recovery of damages. In 
many, if not most of the cases, the end user is the financially least capable 
party in the chain to pay damages. The bill creates enough ambiguity for the 
PRPs that endless litigation concerning the source of DB may be the end 
result, making recovery of damages from any source problematic.

3.  Under this legislation, the makers of antifreeze are responsible for 
any and all environmental damage caused by their product, including its main 
constituent, ethylene glycol, which EPA considers a toxic substance.  Do you 
believe that DB-laced antifreeze could seep into groundwater or source water 
for a water system without any environmental effects from the antifreeze 
itself being in evidence? If this is not the case, since environmental 
liability exposure extends to both antifreeze and DB manufacturers, am I not 
correct that both parties would still be open to facing legal action?

	AWWA RESPONSE:  The Roy Westin, Inc. Study No. 93-087 assessed the 
results of pouring ethylene glycol on the ground and whether or not DB would 
stick to the soil or travel with the groundwater. In rural areas, some people 
dispose of used ethylene glycol by pouring it on the ground.  The study 
concluded that there is minimal environmental impact when ethylene glycol 
is poured on the ground since it readily biodegrades into carbon dioxide and 
water in a matter of days and does not go into the groundwater in the 
form of the ethylene glycol compound. However, the study concludes that DB 
does not stick in the soil. Rather it stays in and travels with the 
groundwater. Therefore, it is reasonable to expect that when DB-laced 
antifreeze is poured on the ground, only the DB component of the antifreeze 
would be evident in the in the ground water or source water for a water 
system. Our understanding of the bill is that the manufacturer, processor, 
distributor, recycler, or seller of any antifreeze with the mandated level 
of DB would not be liable for damage to the environment resulting from DB 
in the antifreeze.

4. On April 18, 2003, the American Water Works Association issues a press 
release stating its support for the Drinking Water Standards Preservation 
Act.  This bill would protect water utilities -- much like antifreeze makers 
-- from lawsuits, so long as they are in compliance with federal and state 
regulations.  The drinking water bill seems to offer your members the same 
protections thing you are opposed to for another interest.  How do you square 
this logic?

	AWWA RESPONSE:  As you noted, the American Water Works Association 
has endorsed the Drinking Water Standards Preservation Act (H.R. 1540). The 
bill would provide some liability protection fort public water systems that 
are incompliance with federal and state regulations. The difference between 
H.R. 1540 and other proposed liability immunity legislation is that public 
water systems are not introducing potential pollutants into the environment. 
Rather they are taking pollutants and microbes, many of them naturally 
occurring, out of the water.  The thrust of the legislation is to protect the 
standard setting process rather than seeking liability immunity.  AWWA 
believes very strongly that drinking water regulations should be based on 
the scientific process established in the Safe Drinking Water Act. States 
are free to make those standards more stringent through the state regulatory 
process. In all cases, the standards are scientifically based to be 
protective of public health within a reasonable risk range established by 
science. We are opposed to drinking water standards being set by judges and 
juries that have a limited capability to make regulatory determinations 
based on a scientific process.

5.  Based on the testimony of other witnesses, it seems that the antifreeze 
industry has in the past not wanted a mandatory requirement for the addition 
of a bitterant in antifreeze.  If the Congress requires the industry to put a 
substance in their product that they would otherwise not do, why shouldn't 
Congress excuse those companies from potential liability arising from that 
additional product?  Wouldn't it be unfair to not allow this liability 
protection if the Congress supercedes a business decision?

	AWWA RESPONSE:  As stated in our testimony, AWWA has serious 
reservations about statutorily mandating a specific bittering agent and 
specific concentrations of that agent. We generally, believe that those kinds 
of decisions should be left to the regulatory process in which all available 
scientific data can be examined and decisions can be made with opportunity 
for public review and comment.  Although our testimony focused on the 
limitation on liability, there would be no need for liability immunity if 
Congress did not require the industry to put a substance in their product 
that they would otherwise not do. We are not expert on how best to achieve 
the goal of preventing antifreeze poisoning or which bittering agent to use, 
but we do know that there are alternatives that should be examined. It would 
be far better for Congress to set a performance standard for the industry to 
achieve and let the industry or a regulatory process decide how to meet that 
performance standard. The industry then would not need liability protection 
because of a Congressional mandate.

6.  According to other witnesses, DB has been and additive in certain consumer 
products for over 40 years.  If that is the case, and if there was such a 
concern on what the chemical could do to water supplies, why hasn't AWWA 
taken the lead and funded studies regarding this additive? Wouldn't taking 
some action like this bolster your argument that your concerns here are 
significant and legitimate? Is AWWA aware of past groundwater, drinking water, 
or waste water contaminations caused directly by DB?

	AWWA RESPONSE:  The likelihood that DB would be a contaminant of 
widespread concern is largely a function of the volume released to the 
environment and the analytical method required to detect it at environmental 
concentrations. Based on consultation with environmental laboratories it is 
unlikely that standard tests run by drinking water utilities would 
inadvertently identify the presence of DB.  Currently there is not a 
consensus method for the determination of DB in environmental or finished 
water samples in ASTM, EPA, or Standard Methods.  The only ASTM standard 
method for the denatonium ion is WK11066, Standard Test Method for 
Determination of Denatonium Ion in Engine Coolant by HPLC.  Detection in water 
would require a gas chromatography / mass spectrometry or high performance 
liquid chromatography / mass spectrometry method.  Given the low 
concentrations and the absence of a directed search specifically for DB using 
such a method its presence is unlikely to be detected.  
	AWWA has not undertaken any research into DB occurrence or removal as 
previously, there has not been a reason to be concerned about the release of 
this compound occurring in large quantities on a nation-wide basis.  With 
limited exceptions, to-date, DB appears to be used in products that are 
formulated for use in very small quantities by consumers and in no instance 
that we could locate was the application taking place under an shield of 
immunity for any inadvertent harm caused by the release of the product. 

7.  In your testimony, you state that the denatonium ion which is responsible 
for the bitter taste is not easily biodegradable.  Is it treatable in nay way? 
What would a wastewater or drinking water facility have to do to remove the 
ion from the water? How much would it cost?  How much DB in the water supply 
would constitute a severe enough contamination to warrant the abandonment of 
that supply?  If this law were passed, would that much DB even be added to the 
national supply of antifreeze?

	AWWA RESPONSE:  AWWA was not able to locate a treatability study on DB 
removal from drinking water.  However, its chemical structure and properties 
provide a basis for some general observations regarding likely treatment 
approaches for DB.  It does not appear that DB would be well removed in a 
conventional treatment plant (i.e., 
coagulation-sedimentation-filtration-disinfection).  Conventional treatment 
is the collection of treatment unit processes that are typical of most 
surface water treatment plants in the U.S. 
	DB's solubility also suggests that it would not be well removed on 
activated carbon either making both powered activated carbon addition (PAC) 
and granular activated carbon (GAC) filtration unlikely treatment strategies. 
 PAC is a common step taken to remove taste and odor compounds and GAC is a 
much more expensive process, but also one that has served as a benchmark best 
available technology (BAT) in the drinking water field for a number of years. 
	DB does appear amenable to oxidation using advanced oxidants such as 
ozone, ozone- hydrogen peroxide, and ultraviolet light-hydrogen peroxide.  It 
is not clear without additional study if indeed advanced oxidants would work, 
what oxidant concentration and contact times would need to be employed or what 
disinfection byproducts will be created from such an oxidation approach. 
Ozone and other forms of advanced oxidation are only found in a limited 
fraction of water treatment plants at which concerns about microbial 
pollutants or other site-specific reasons led to their inclusion in the 
treatment train. 
	AWWA does not have the detailed information needed to estimate the 
cost of treating DB.  But we do know from compliance with other major drinking 
water regulations, such as the Long-Term 2 Enhanced Surface Treatment Rule,  
that the cost for the capital cost associated with installing treatment and 
the annual operation and maintenance cost increase significantly for difficult 
to treat contaminants .  The total national costs associated with DB would be 
a function of the specifics of actually treating for DB and the number of 
water treatment plants that found addition of other treatment necessary. 
	In this context it is also important to realize that many ground 
water supplies are of sufficiently high quality that they are not treated.  
The addition of one treatment to address DB would trigger additional 
regulatory requirements that in turn would elevate cost impacts.  This 
aspect of adding additional treatment is a particular concern for small 
community (e.g., towns, villages, etc.) and non-community (e.g., churches, 
camp grounds, restaurants, gas stations, etc.) ground water systems. 
	This question also asks what level of DB poses a risk of abandoning 
a water supply.  Solving this question is a local decision, which will need 
to take into account the availability of alternative water supplies, the 
viability of treatment options, and local resources.  Historically and at 
present, taste and odor concerns are extremely important to drinking water 
utility customers as the public is very aware of water that tastes bad and 
they perceive it both as unpalatable and potentially harmful (e.g., the 
reasoning behind addition of a bittering agent like DB).  Information 
provided on Bitrex indicates the aversive level in products like antifreeze 
is 30 ppm.  Information provided by Market Actives, the U.S. distributor of 
Bitrex indicts that DB is Bitrex is aversively bitter at 1 to 10 parts per 
million (ppm) in water (http://www.marketactives.com/faq.html).  It appears 
from the literature that the consumers would taste DB in water at much, much 
lower levels on the order of low part per billion levels if not lower.  The 
question remains how much DB would be released in any one locale so as to 
contaminate the water supply at a discernable level.  Water supplies are 
contaminated through both proper application of products (e.g., pesticides) 
and inadvertent releases ( e.g., storage tank failures, inappropriate disposal 
practices).  There latter risks clearly exist.  There are also likely 
instances where the former exist as well.  For instance, ethylene glycol and 
other antifreeze compounds are applied to aircraft at airports as a part of 
deicing.  This is an important process for aircraft safety. It also results 
in the release of antifreeze to storm water in significant quantities.  Quantities sufficient to lead to taste and odor episodes 
come not only from the DB but also from the ethylene glycol.

8.  What are the effects of antifreeze contamination of water supplies 
without the DB additive? Is it easily biodegradable? What kind of treatments 
would be necessary to remove regular antifreeze from water? How much do they 
cost? Has there ever been a case of a severe contamination of a water supply 
from antifreeze without the DB additive that caused the abandonment of that 
water supply?

	AWWA RESPONSE:   As stated in our response to Question 3, the Roy 
Westin, Inc. Study No. 93-087, concluded that there is minimal environmental 
impact when ethylene glycol without the DB additive is poured on the ground 
since the ethylene glycol readily biodegrades into carbon dioxide and water 
in a matter of days and does not go into the groundwater in the form of the 
ethylene glycol compound. We are unaware of any case of a severe contamination 
of a water supply from antifreeze without the DB additive that caused the 
abandonment of the water supply. However, there are instances where 
large-scale application of antifreeze at airports has resulted in taste and 
odor episodes at conventional surface water treatment facilities.  This 
situation occurred at one of Fairfax Water's facilities prior to installation 
of ozone and movement of the water treatment plant's intake location.



RESPONSE FOR THE RECORD BY JIM WILLIS, DIVISION DIRECTOR, CHEMICAL CONTROL 
DIVISION, OFFICE OF POLLUTION PREVENTION AND TOXIC SUBSTANCES, U.S. 
ENVIRONMENTAL PROTECTION AGENCY

Responses to follow-up questions on U.S. EPA's May 23, 2006 testimony before 
the Subcommittee on the Environment and Hazardous Materials, at the 
legislative hearing on H.R. 2567, the Antifreeze Bittering Act of 2005.

The Honorable Paul E. Gillmor

1.  Fourteen (14) years ago, when CPSC did a literature review of denatonium 
benzoate, CPSC found a general lack of information on bittering agents.  With 
your testimony, does this mean that you consider the amount of information 
particularly as it relates to environmental fate-and-transport issues to have 
increased?

	There is not an extensive database of toxicity or environmental fate 
information on DB, although there is a 2-year oral toxicity study in rats and 
several other oral studies in rats of shorter duration. Although the amount of 
publicly available data on the fate and transport of DB has not increased 
appreciably in 14 years, EPA's ability to predict the fate and transport of 
chemicals such as DB has improved considerably.  EPA is confident that its 
predictions about the fate and transport of DB are reasonably accurate and 
would be supported by future measured test data.

2.  The legislation being considered by our committee today contains a Federal 
requirement for antifreeze with 10 percent ethylene glycol to contain between 
30 to 50 parts per million of DB. CPSC testified before the Senate Commerce 
Committee last July that "possible acute toxicity of DB does not appear to be 
a significant issue at the low levels used for aversion, such as the 30 to 
50 parts per million range."  Do you agree that human health is best 
protected from ingestion and the environment from releases at this level?

	EPA cannot comment on whether DB at the 30 to 50 parts per million 
level would offer the best protection.  That finding would seem to be a 
matter more within the purview of CPSC.  However, according to our screening 
level analysis, EPA would agree that exposure to DB at such levels should not 
pose a significant risk to human health or the environment.

3.  What are the environmental effects of plain antifreeze being released 
into water or soil?  Would it be possible to have bittered antifreeze 
released into the environment and only have the environmental damage caused 
by the bittering agent? 

	The environmental effects of plain antifreeze being released into 
water and soil are low.  Plain antifreeze is easily biodegradable, i.e., is 
not persistent.  The environmental damage caused by the bittering agent if 
added to antifreeze and released with antifreeze is expected to be low.  
Based on structure-activity relationship (SAR) analysis, DB is expected to 
have low toxicity to fish and aquatic invertebrates and moderate toxicity to 
green algae.  In a natural environment, potential exposure to green algae 
would be reduced due to rapid adsorption of the cation of DB to organic 
matter found in water and soils.  Once the cation is adsorbed to organic 
matter it is less bioavailable, thereby significantly mitigating the 
potential for exposure to toxic levels of DB.

4.  Has EPA conducted a full risk assessment on DB?  Why?  How reliable is 
the screening-level toxicity and environmental exposure estimation 
techniques that EPA has used on DB?

	At this time, the Agency does not consider the low expected 
production volume and associated low environmental releases and exposure to 
support the need for a detailed risk assessment.  The Agency is reasonably 
confident of the results of the modeling which EPA performed in its screening 
level fate and toxicity assessment but would nonetheless benefit from 
obtaining copies of existing studies on DB held by industry.

5.  Do you think it is a problem if DB gets into groundwater or not?  If DB 
is not filtered out by a drinking water system, since it does not biodegrade, 
is it a threat to health or the environment?

	Because of DB's low production volume and pattern of use and storage, 
there would be relatively few opportunities for an environmental release that 
could reach groundwater in significant quantities.  EPA does not expect DB 
released to soil to reach groundwater because of its tendency to adsorb to 
soil and its extremely slow soil mobility rate.  Furthermore, in the event 
that DB did eventually reach a water supply, we would expect it to be 
filtered out by treatment.  Considering the low production volume and 
pattern of use and storage and the results of our screening analysis, we 
believe that DB is unlikely to pose a significant risk even if not filtered 
out.

6.  Some people have raised questions about whether it is possible to get DB 
information since the major manufacturers of this chemical are based overseas 
and past attempts by private parties have been met with resistance due to 
confidential business information claims.  Do you have the same problems with 
getting this data and do you believed that DB manufacturers would be subject 
to "personal jurisdiction" in the event of claims of damages caused by DB?

	If needed, EPA could use its reporting authority under TSCA sec. 8d 
to obtain existing studies from manufacturers and processors.


The Honorable John D. Dingell and the Honorable Hilda L. Solis

1.   Is it correct that there is only one registered pesticide where 
denatonium benzoate (DB) is an active ingredient?

	Currently, there are two products registered with the active 
ingredient, DB (bitrex).  Each product contains 0.2% active ingredient.

Is that registered use a deer repellent sold under the brand name Tree Guard 
for use on shrubs and certain types of trees?

The two registered products are:
1.	Tree Guard, EPA Reg. No. 66676-1 (registered January 30, 1996, to 
reduce feeding by deer on trees, shrubs, flowers, and other ornamental 
plants), and

2.	Fooey, EPA Reg. No. 680086-7 (registered August 10, 2005, to reduce 
chewing, biting and licking by dogs, cats, horses, and other animals) 


3.  Is it correct that the use restrictions for Tree Guard include the following?

<bullet> Do not use on food or feed crops
<bullet> Do not apply aerially
<bullet> Do not apply product through any type of irrigation system or hose 
proportioner applicator
<bullet> Do not apply directly to water, to areas where surface water is 
present, or to inter-tidal areas below the mean high water mark
<bullet> Do not clean equipment or dispose of equipment wash waters in a 
manner that will contaminate water resources or arable land.

Yes, the use restrictions for Tree Guard include the five restrictions 
listed in your question.  The use restrictions for Fooey include these two 
restrictions:
<bullet> Do not apply directly to water.
<bullet> Do not clean equipment or dispose of equipment wash waters in a 
manner that will contaminate water resources or arable land.
	The use restrictions for Fooey are fewer than those for Tree Guard 
because the use pattern is more limited.

3.  Is it correct that the Environmental Protection Agency (EPA) is 
scheduled to review the registration for Tree Guard in June 2006?  If so, 
what information and data will EPA request on the bitterant denatonium 
benzoate and what type of scientific review will be conducted?

	Over the next two years, the Agency will review the database for 
the active ingredient, denatonium benzoate, and determine whether there are 
sufficient data on the active ingredient.  If not, the Agency will proceed 
to call in any missing data on the individual products themselves.  After 
the necessary data have been submitted and reviewed, the Agency will be able 
to determine whether this pesticide meets the requirements for 
reregistration.  EPA expects to complete this process by September 2008. 
	To support the current uses of the active ingredient, EPA would 
normally require basic chemistry, toxicity, worker exposure, and 
environmental fate and effects data.  The final list of requirements will be 
determined during the next two years.  EPA will review the available data 
for denatonium benzoate and conduct ecological and human health risk 
assessments based on those studies.

4.  Based on your current knowledge, do you expect the registrant for Tree 
Guard to seek to re-register this pesticide and submit the necessary data for 
an appropriate scientific review?

	At this time, we are unaware of the plans of the two registrants to 
seek re-registration of this pesticide and submit the necessary data for an 
appropriate scientific review.

5.  Is it correct that EPA staff conducted its computer-based modeling 
estimation technique on denatonium benzoate (bitrex) in the fall of 2005 at 
the request of an official of the Consumer Specialty Products Association?

	Yes.

6.  Did officials of Honeywell or the Consumer Specialty Products Association 
ever provide EPA with the independent scientific studies which they possessed 
that determined that DB does not biodegrade and is not removed during the 
processes used to treat waste water at publicly-owned treatment facilities?  
If so, please specify the date when such studies were provided to EPA.

	EPA did not receive the full biodegradation and soil adsorption 
study reports, along with other review articles and assessments, until the 
May 23, 2006 Subcommittee hearing.  We are currently reviewing these studies.

7.  At the Subcommittee hearing, you testified that "we have reviewed 
available data made known to us."  Please specify what actual scientific 
studies were available to EPA and identify who provided them.

	The Agency performed a general literature review for DB.  There is 
not an extensive database of published toxicity values or environmental fate 
information, so the Agency relied on predictive assessments and the results 
of the 2-year oral study in rats and other studies summarized in the Food 
and Drug Administration's (FDA) FR notice of October 17, 1980 (45 FR 69125), 
"Establishment of Monographs for Nailbiting and Thumbsucking Deterrent and 
Ingrown Toenail Relief Drug Products for Over-the-Counter Human Use."

8.  Has EPA attempted to obtain environmental fate and transport data from 
the manufacturers of denatonium benzoate?  If so, please describe the 
circumstances.

	No.  The Agency has  not attempted to obtain data from the 
manufacturers of DB.  Following the hearing, the Consumer Specialty Products 
Association did provide us the studies referred to in Question and Answer 6 
above.

9.  Is EPA currently conducting any actual scientific studies on the 
environmental fate and transport characteristics of denatonium benzoate?

	Given the low expected production volume and associated low 
environmental releases and exposure, the results of its screening level 
assessment, and pending review of the studies provided by industry, EPA has 
not identified a priority need for it to conduct additional studies.

10.     Statements were made at the hearing that denatonium benzoate was 
used in the following consumer products: nail polish, hairspray, crayons, 
bubble bath, shampoo, eye shadow, ink, hand sanitizer windshield wash, 
laundry detergent, fabric softener, and perfume. Do the manufacturers of 
any of the above mentioned products have an exemption or immunity from 
Superfund liability (including natural resources damages) that results 
from the inclusion of denatonium benzoate in the consumer product? If so, 
please cite the specific statutory provision that provides the exemption or 
immunity from environmental liability (including natural resource damages).

	No. The exemption from liability that would be provided by sec. 
25(c) applies only to "a manufacturer, processor, distributor, recycler, or 
seller of an engine coolant or antifreeze that is required to contain an 
aversive agent under subsection (a)..."

11.  What other laws administered by EPA could be affected by the liability 
waiver for "damage to the environment" contained in Section 2 of H.R. 2567? 

	EPA does not administer the Federal Hazardous Substances Act (FHSA) 
and thus does not have primary interpretive authority regarding the statute 
or amendments thereto. Based on what appears to be the most straightforward 
reading, however, EPA would not expect the liability waiver for damage to 
the environment contained in Section 2 of H.R. 2567 to significantly impact 
laws administered by EPA.  Since the definition of "person" in FHSA Section 
2 does not appear to include government agencies, the waiver of liability 
"to any person" would not appear to provide protection from possible EPA 
enforcement actions for regulatory violations.  In addition, although 
several statutes administered by EPA provide for "citizen suits" to enforce 
the statutes, in those cases the citizens stand in the shoes of the 
Government, and the remedy available under these provisions is generally an 
injunction against further violations or penalties paid to the U.S. Treasury, 
not an award to the plaintiff for environmental damage.  The Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA), however, 
does make certain persons liable for the cost of cleaning up releases of 
hazardous substances, and that liability can in some cases be to private 
parties.  If the term "damage to the environment" were interpreted to 
include such cleanup costs, and a bittering agent were a CERCLA hazardous 
substance, CERCLA liability could potentially be affected.

12.   Could a spill of denatonium benzoate by a manufacturer, processor, 
distributor, or recycler of an engine coolant or antifreeze that affects 
navigable waterways or results in an imminent and substantial endangerment 
to human health or the environment potentially involve the statutory 
authorities of the (1) Clean Water Act, (2) Solid Waste Disposal Act or (3) 
Safe Drinking Water Act?  If not, please explain why not.

	A spill of denatonium benzoate that results in an imminent and 
substantial endangerment could involve statutory authority under the 
Resource Conservation and Recovery Act (RCRA).  EPA could require a person 
responsible for a spill that results in an imminent and substantial 
endangerment to remediate the spill under the authority of RCRA sec. 7003.

13.  Is it correct that Section 2 of H.R. 2567 would provide immunity from 
liability for manufacturer, processor, distributor, or recycler of an 
engine coolant or antifreeze under the Clean Water Act, the Safe Drinking 
Water Act, and the Solid Waste Disposal Act for damages to the environment 
caused by spills of denatonium benzoate that results from the inclusion of 
denatonium benzoate in any engine coolant or antifreeze?

	H.R. 2567 states that such persons "shall not be liable to any 
person for any personal injury, death, property damage, damage to the 
environment (including natural resources), or economic loss that results 
from the inclusion of denatonium benzoate in any engine coolant or 
antifreeze, provided that the inclusion of denatonium benzoate is present in 
concentrations mandated by subsection (a)." These persons as described in 
the bill would be exempt from liability under the Clean Water Act, Safe 
Drinking Water Act, and Solid Waste Disposal Act, but only if the denatonium 
benzoate were present in concentrations mandated by subsection (a).

14.  At the time officials of the Consumer Specialty Products Association 
asked EPA to provide a screening level analysis of denatonium benzoate, did 
any EPA officials ask the industry representatives whether they were aware 
of or possessed actual scientific studies that had been performed on the 
toxicity or environmental fate and transport of denatonium benzoate?  If 
not, please explain why not.

	The meeting in question was in September, 2005.  EPA did not request 
further data because the focus and the purpose of the meeting was to discuss 
the structure-activity relationship (SAR) analysis approach to assessing DB.

15.  With respect to the use of DB in certain consumer products, do the 
environmental exposure risks depend and differ on whether it binds to and the 
manner it is used in the underlying product (such as nail polish or crayons), 
and in the manner in which the underlying product is itself disposed of?

	Yes, potential health and environmental risks are related directly 
to potential for release and exposure to the chemical.  Generally, the risk 
posed by a chemical is related to its hazard (toxicity) and exposure levels.  
This is the reason that soil adsorption (which limits DB's mobility in soil) 
and patterns of use are important for DB.  It is not expected to migrate 
through soil to groundwater and (for the consumer use in one gallon 
containers) is not stored in large underground tanks, where the potential 
for spillage and contamination are increased.

16.  Does EPA interpret H.R. 2567 as applying to airplane de-icing 
operations?

	EPA understands this legislation as applying only to consumer uses, 
in small containers, as opposed to airplane de-icing, with associated large 
volume use and storage and potential for accidental spills.

?

   1. Petition published in Fed. Reg. v.63, #27, Feb. 10, 1998, p.6693.
   2. Denatonium Benzoate Report, ME Dept. of Environmental Protection, 
February 13, 2006, p. 11.
   3. Ibid., p. 8.
   4. Mullins and Horowitz, Vet Hum Toxicol, 2004 Jun;46(3): 150-2.
   5. The Oregon Health Division is responsible for monitoring compliance 
with the required addition of a bittering agent to consumer products under 
the Household Toxic Products Rules, but there is no protocol for periodic 
testing.  Henderson et al. [Chemosphere.  1998 Jan;36(1):203-10) developed a 
sufficiently sensitive High Pressure Liquid Chromatography method for 
analyzing DB in consumer products.  They analyzed antifreeze and windshield 
washer fluid products purchased in Oregon 1994 and 1996.  The concentration 
of DB in the products purchased in 1994 ranged from non-detectable (less 
than 1.25 ppm) to 30.9 ppm, with 7 out of the 10 products having undetectable 
levels.  In 1996, the concentration of DB in antifreeze ranged from 26.4 to 
32.6, with no non-detects. The concentration of DB in windshield washer fluid 
ranged from non-detect to 30.1 ppm, with 8 of the 14 washer fluids having 
undetectable levels.  Although this is a very small study, this indicates that 
in 1996, there was still considerable variability in the amount of DB present 
in various consumer products. 
   6. West Harlem Environmental Action v. US EPA, Memorandum in Support of 
Plaintiffs' Motion for Summary Judgment, filed by the Natural Resources 
Defense Council in US District Court for the Southern District of NY, March 
29, 2005; pp15-16  

   7. "The National Science Foundation sponsors a network of Materials 
Research Science and Engineering Centers (MRSECs) at U.S. universities. 
The Center for the Science & Engineering of Materials (CSEM) at Caltech is 
one of them. The goal of the program is to stimulate interdisciplinary 
research and education in materials." (CSEM Fact Sheet) 
   8. Hansen SR, Janssen C, Beasley VR. Vet. Hum. Toxicol.  1993 Jun; 
35(3):234-6. 

   ? The Advocate (a Louisiana newspaper) reported that on May 31, 2006, a 3 
year-old Baton Rouge boy died after drinking antifreeze left in a cup on a 
bedroom dresser by his father's girlfriend.  The woman was booked on one 
count of negligent homicide. The antifreeze was reportedly intended for 
a neighbor's dog.
   * The Advocate (a Louisiana newspaper) reported that on May 31, 2006, a 3 
year-old Baton Rouge boy died after drinking antifreeze left in a cup on a 
bedroom dresser by his father's girlfriend.  The woman was booked on one 
count of negligent homicide.  The antifreeze was reportedly intended for 
a neighbor's dog.

</pre></body></html>
